<html>
<title> - U.S.-RUSSIAN COOPERATION IN SPACE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                        U.S.-RUSSIAN COOPERATION
                                IN SPACE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2003

                               __________

                           Serial No. 108-25

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



87-546              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 DANA ROHRABACHER, California, Chairman
LAMAR S. SMITH, Texas                BART GORDON, Tennessee
CURT WELDON, Pennsylvania            JOHN B. LARSON, Connecticut
JOE BARTON, Texas                    CHRIS BELL, Texas
KEN CALVERT, California              NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       EDDIE BERNICE JOHNSON, Texas
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JOHN SULLIVAN, Oklahoma              BRAD SHERMAN, California
J. RANDY FORBES, Virginia            DENNIS MOORE, Kansas
ROB BISHOP, Utah                     ANTHONY D. WEINER, New York
MICHAEL BURGESS, Texas               VACANCY
JO BONNER, Alabama                   RALPH M. HALL, Texas
TOM FEENEY, Florida
SHERWOOD L. BOEHLERT, New York
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
              RUBEN VAN MITCHELL Professional Staff Member
                  KEN MONROE Professional Staff Member
                 CHRIS SHANK Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant


                            C O N T E N T S

                             June 11, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     6

                           Opening Statements

Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................     3

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................     4

Statement by Representative Sherwood Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     5

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, U.S. House of Representatives.........................    52

Prepared Statement by Representative Sheila Jackson Lee, Member, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................    55

                                 Panel:

Mr. John D. Schumacher, NASA Assistant Administrator for External 
  Relations
    Oral Statement...............................................    25
    Written Statement............................................    27

Mr. Robert M. Davis, President and CEO, California Space 
  Authority
    Oral Statement...............................................    29
    Written Statement............................................    30

Mr. Henry D. Sokolski, Executive Director, Nonproliferation 
  Policy Education Center
    Oral Statement...............................................    34
    Written Statement............................................    36
    Biography....................................................    37

Ambassador Steven Pifer, Deputy Assistant Secretary of State, 
  Bureau of European and Eurasian Affairs, State Department
    Written Statement............................................    38

Discussion
  Iran Nonproliferation Act......................................    40
  Partnerships Between U.S. and Russian Companies................    41
  Russian Support for the International Space Station............    43
  Proliferation Issues...........................................    47
  Reliance on Russia While the Shuttle Fleet Is Grounded.........    50
  European Participation and Contributions to the ISS............    51
  Status of Russian Economy......................................    53
  Russian Political Changes......................................    53
  Dependence on Russian Support to ISS...........................    54
  Russian Commitments to Support the ISS.........................    55
  Safety of the Russian Soyuz Vehicle............................    58
  Technology Transfer............................................    58
  U.S.-Russian Rocket Engine Technology Investment...............    60
  Russian Budget Commitments for Progress and Soyuz Vehicles.....    61
  U.S.-Russian Relations.........................................    63
  Clarification on Russia's Commitment to ISS....................    65

             Appendix 1: Answers to Post-Hearing Questions

Mr. John D. Schumacher, NASA Assistant Administrator for External 
  Relations......................................................    68

Mr. Robert M. Davis, President and CEO, California Space 
  Authority......................................................    75

Mr. Henry D. Sokolski, Executive Director, Nonproliferation 
  Policy Education Center........................................    77

Ambassador Steven Pifer, Deputy Assistant Secretary of State, 
  Bureau of European and Eurasian Affairs, State Department......    79

 
                   U.S.-RUSSIAN COOPERATION IN SPACE

                              ----------                              


                        WEDNESDAY, JUNE 11, 2003

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:09 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Dana 
Rohrabacher [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Rohrabacher. I apologize for keeping us a little 
late here. We have had a little bit of a glitch in terms of who 
was willing to testify and who is not willing to testify, so--
but I hereby call this meeting of the Space and Aeronautics 
Subcommittee to order. And without objection, the Chair will be 
granted the authority to recess this meeting at any time. 
Hearing no objection.
    Last week, in St. Petersburg, President Bush and Russian 
President Putin issued a joint statement that is the subject of 
today's hearing. Both countries promised to continue to 
cooperate in the arena of human space flight and in the ongoing 
challenge of assembling and operating the International Space 
Station in light of the current Space Shuttle situation. They 
committed themselves to taking ``energetic steps'' toward 
greater space cooperation.
    Today's hearing will explore the benefits and risks of 
U.S.-Russian cooperation in space, particularly in light, as I 
say, of the tragedy of the Space Shuttle Columbia. These 
issues, balancing our nonproliferation concerns against the 
benefits of space cooperation, remind me a little bit of that 
Russian, I think they call it, matryoshka doll where you can 
see it on the outside. It sort of looks like there is--that is 
what it is all about, but as you go down, you find layer after 
layer of different concerns and different things within the 
issue. So foreign--U.S. foreign policy vis-a-vis Russia is 
almost as complicated as rocket science issues, but of course, 
our Subcommittee does deal with rocket science issues.
    The U.S.-Russian partnership on the Space Station over the 
years has been frustrating. And I have followed that very 
closely over the years, and that has been frustrating. And that 
especially was frustrating when our Russian partners failed to 
meet their commitments about a decade ago. But during--but in 
terms of the chaotic scene in Russia, that now appears to be 
stabilizing, as we would hope it would be, and a new potential 
may well be on the horizon.
    I am pleased that the United States and Russia are 
continuing to combat the threat posed by proliferation of 
weapons of mass destruction. And while there is reason for 
optimism in terms of this relationship, let us always remember 
the words of my former boss, ``Trust but verify.''
    Specifically, this hearing will explore Russia's ability to 
meet its commitments to the Space Station with Soyuz and 
Progress flights and our dependence on them. Of particular 
interest will be to examine calls from the United States 
industry for Congress and NASA to clarify the interpretations 
of the Iran Nonproliferation Act. Americans and Russians can 
work together on future space enterprises that will maximize 
our individual national goals and capabilities. We can do more 
by working together with the Russians than we can--than each of 
us could do working separately. We could benefit by working 
together, not just in terms of financial profit, but by working 
toward mutual goals.
    And when it comes to making the Space Station a success, I 
believe that the United States companies should work with 
Russian companies. But it must be with companies that are not 
involved with the proliferation of weapons of mass destruction. 
That is clear that there is a--and it is clear that there is a 
restriction on working with the Russian Government in terms of 
as long as there is a proliferation question. I, however, would 
advocate that we can work company to company, American company 
to Russian company, and still be within the bounds of this 
nonproliferation legislation.
    Our relationship with Russia has changed in the past three 
years. Significant progress has been made since the days that 
our space dollars ended up financing lucky Russian bureaucrats, 
known as apparatchiks. But let us not dwell on the mistakes of 
the 1990's nor let us repeat those mistakes. Let us, instead, 
chart a positive course for the future, and to me, achieving 
our space goals, by definition, means working with the Russians 
to make sure we can accomplish what we can accomplish.
    So with that said, I will be happy to now turn to Bart 
Gordon for his opening statement.
    Mr. Gordon. Thank you, Mr. Chairman. And good morning 
everyone. I want to welcome you to today's hearing. I look 
forward to your testimony. I also want to thank Chairman 
Rohrabacher for holding this hearing. It is a very timely 
hearing and a very important hearing.
    U.S.-Russian space cooperation has been an important part 
of our space program since the early 1990's. And today, it is 
critical to the continued survival of the International Space 
Station. With the Space Shuttle fleet grounded, it is no 
exaggeration to say that we are just one Progress or Soyuz 
failure away from having to pull the crew off of the Space 
Station. If that happens, the rest of the Space Station will go 
up significantly.
    It is clear that the Iran Nonproliferation Act has 
complicated the situation. However, a discussion of how fast to 
achieve the Nation's nonproliferation goals is not the purpose 
of this hearing. And Members may have different views on 
whether linking the Space Station program to nonproliferation 
is a good idea. The fact of the matter is that the Iran 
Nonproliferation Act had been public law since 2000. In light 
of that, Congress needs to hear from the Administration in 
specific terms how it will protect the considerable taxpayer 
investment in the Space Station.
    And Mr. Schumacher, in your testimony that you submitted, 
it was rather brief. It didn't really go into these questions. 
So let me, since you are going to have some extra time, I would 
like to pose these questions so that you could help us in your 
testimony, if you don't mind. The United States is responsible 
for providing Space Station crew return support for non-Russian 
astronauts starting in the year 2006. How will the 
Administration meet that commitment and still comply with the 
Iran Nonproliferation Act? Secondly, the Space Shuttle fleet 
was grounded for more than 21/2 years after the Challenger 
accident. How will the Administration ensure that the Space 
Station can continue to operate if the Shuttle fleet is 
grounded that long again? And whether or not the Administration 
is expecting the Russians or other Space Station international 
partners to pay for the Soyuz and Progress flights until the 
Shuttle starts flying again as well as from 2006 onward, and 
have the partners, in fact, agreed to pay? And if so, is there 
a signed agreement?
    And I will just point out, I understand, Mr. Schumacher, 
that you are going to be Mr. O'Keefe's new Chief of Staff, and 
congratulations on that important position. Similar questions 
were submitted to him on February the 27th, so hopefully you 
could maybe give us a first installment today and then you can 
look for those questions there in the office and help us with 
this. It is something that is important. And again, these are 
not easy questions. I--you know, and there won't be easy 
answers. I don't intend to say that. We have to start this 
process of trying to figure out where we are going.
    NASA is dependent upon Russia's spacecraft to keep the 
Space Station operational until the Shuttle flights resume. 
Since the Administration canceled the U.S. Space Station Crew 
Return Vehicle in 2001, NASA is totally dependent on the 
Russian Soyuz CRV until the end of this decade. And finally, 
the only alternative to the Space Shuttle for getting crews 
into the space over the next 10 years is the Russian Soyuz 
spacecraft. So it is not enough to say that today there hasn't 
been a need for NASA to seek an exemption or to change the Iran 
Nonproliferation Act. Given existing commitments and other 
realities coming over the next 10 years, the Administration 
needs to tell us or at least start the process of telling us 
and trying to figure this out, you know, what to do and what we 
can do with these commitments and realities.
    Again, we have got a lot of ground to cover. Thank you for 
being here. And I look forward to hearing your suggestions.
    Chairman Rohrabacher. Thank you very much. Without 
objection, the opening statement of other Members will be put 
into the record, but I would like to now, at this point, extend 
to the Chairman of Full Committee any--the--if he would like to 
say a few words, we would love to have them.
    Mr. Boehlert. Well, thank you very much, Mr. Chairman. I 
want to commend you for having this important oversight 
hearing. This is the type of thing we do day after day, week 
after week. It is critically important.
    I think the International Space Station and the 
transportation system now serving it provide a testimony to the 
benefit derived from a meaningful working partnership between 
the United States and Russia. And I would ask, Mr. Chairman, 
that you consider inserting in the record at this juncture the 
statements of President Bush and Putin arrived at last week. I 
think they are very important and reassuring, and I thank you 
for it.
    Chairman Rohrabacher. Yes, their statements will be 
inserted in the record without objection. And anything further, 
Mr. Chairman?
    Mr. Boehlert. That is it, Mr. Chairman.
    Chairman Rohrabacher. Well, we are very, very pleased 
whenever the Chairman of the Full Committee graces our 
Subcommittee. And we appreciate your involvement and your 
guidance.
    So without objection, we will include that reference to the 
statements issued by President Putin and President Bush in the 
record. (See Charter, Attachment 1, p. 11.)
    As I said, other Members here will have to put their 
opening statements in the written record, and I--hearing no 
objection, so ordered. I also ask unanimous consent to insert 
at the appropriate place in the record the background 
memorandum prepared by the Majority Staff for this hearing. 
Hearing no objection, so ordered.
                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                        U.S.-Russian Cooperation

                                in Space

                        wednesday, june 11, 2003
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose of Hearing

    On Wednesday, June 11, 2003, at 2:00 p.m. in Room 2318 of the 
Rayburn House Office Building, the Space and Aeronautics Subcommittee 
will hold a hearing on U.S.-Russian Cooperation in Space. This hearing 
will explore the benefits and risks of U.S.-Russian cooperation on 
space programs. Specifically, the hearing will review Russia's 
participation in the International Space Station (ISS) program and the 
Russian Space Agency's (RSA) ability to provide near-term and long-term 
support for the ISS with Soyuz and Progress space vehicles. Members 
will examine how NASA has interpreted Section 6 of the Iran 
Nonproliferation Act (INA) of 2000, how the INA has affected U.S.-
Russian space collaboration, and how INA policies have influenced 
Russian nonproliferation. In addition, the hearing will also review 
other areas of technical collaboration in space between the U.S. and 
Russia and how best to organize these collaborations between government 
and industry.

Major Issues for Congress

Joint Statement on U.S.-Russia Cooperation in Space. On June 1st, 
President Bush and Russian President Putin issued a Joint Statement on 
Cooperation in Space that committed the U.S. to safely returning the 
Space Shuttle to flight and Russia to meeting the Space Station crew 
transport and logistics resupply requirements until the Shuttle returns 
to flight. The statement also reaffirmed a U.S.-Russia commitment to 
take ``energetic steps'' to enhance cooperation in space technologies 
and techniques. How will Russia fund its commitments for the Space 
Station?

Reliance on the Russians to Support the Space Station. U.S. human 
spaceflight is completely reliant on the Russian Soyuz and Progress 
space vehicles for all crew transport and rescue as well as cargo 
delivery to the Space Station while the Space Shuttle fleet is 
grounded. Even when the Space Shuttle fleet returns to flight, U.S. 
human spaceflight will still rely on the Russian Soyuz vehicle for 
Space Station crew rescue. Several NASA reports call into question the 
inability of RSA to support the Space Station over the next several 
years without additional funding.

The Iran Nonproliferation Act (INA). Section 6 of the INA prevents the 
U.S. Government from providing payments to the Russian Government, 
including the RSA, in connection with the ISS unless certain conditions 
are met. U.S. industry has raised questions about whether the INA 
allows U.S. contractors to enter into relationships with Russian 
contractors on Space Station work.

Background on Russia's Participation in the International Space 
Station. The history of the Cold War and human spaceflight are closely 
intertwined with U.S.-Soviet/Russian foreign relations. In 1993, 
President Clinton invited Russia into the international partnership 
(Europe, Canada, and Japan were already partners) to build the Space 
Station. The primary reasons behind this invitation were to promote 
Russian adherence to the Missile Technology Control Regime (MTCR) and 
promote nonproliferation by helping Russia's aerospace industry shift 
from military to civilian work. Between 1994 and 1998, NASA paid the 
Russian Space Agency approximately $800 million to build the Zarya 
space station module, support the Shuttle-Mir program, and other 
spaceflight activities while the RSA agreed to build and launch the 
Zvezda Service Module as well as Soyuz and Progress crew and cargo 
vehicles to support the Space Station.
    Throughout the past 10 years, Russia had financial problems and 
schedule delays in meeting its commitments to the Space Station 
program. Also, during the 1990s, several reports raised concerns that 
the RSA and Russian aerospace industry were proliferating weapons 
technologies to rogue states. In response to these concerns, the House 
and Senate unanimously (419-0 in the House and 98-0 in the Senate) 
passed the Iran Nonproliferation Act (INA) that became law on March 14, 
2000.
    The Iran Nonproliferation Act (INA) restricts the U.S. Government 
from making payments to the RSA or any organization under its 
jurisdiction in connection with the International Space Station unless 
the President determines that the Russian Government is not 
proliferating any weapons of mass destruction (WMD) or ballistic 
missile technology to Iran. Exceptions to this restriction are allowed 
in cases of crew safety, and support for the Russian Zvezda Service 
Module (See Attachment 3 for more detailed background on U.S.-Russia 
Space Cooperation and Attachment 5 for the relevant portions of the 
INA). Key issues to consider:

        <bullet> Has Section 6 of the INA helped stem proliferation 
        between Russia and Iran?

        <bullet> How has Section 6 of the INA impacted the Space 
        Station program?

Reliance on Russian Support to the Space Station. The Space Shuttle 
Columbia tragedy and subsequent grounding of the Shuttle fleet has made 
the U.S. human spaceflight program completely reliant on the Russian 
Soyuz and Progress space vehicles for all crew transport and rescue as 
well as cargo delivery to the International Space Station while the 
Space Shuttle fleet is grounded. RSA informed the ISS international 
partners at the February 26th Multilateral Configuration Board meeting 
that while RSA agreed to the accelerated production schedule for 
Progress cargo vehicles (see Attachment 2) additional funds from the 
international partners were needed to meet that schedule. Since then, 
the Space Station international partners have agreed to a Progress and 
Soyuz flight schedule while the Space Shuttle fleet is grounded, but 
have not yet found the necessary funds for those Russian flights. NASA 
described its concern last April:

        L``The concern was based on the fact that Russian performance 
        appeared to depend on the receipt of `off-budget' funds from 
        the sale of flight opportunities [space tourist flights] on the 
        Soyuz missions. The European Space Agency (ESA) had arranged to 
        purchase two of the four available flight opportunities, but 
        prospects for the other two were unclear. The grounding of the 
        Space Shuttle fleet and the subsequent Multilateral 
        Coordination Board-agreed upon interim operations plan have put 
        additional financial strain on Rosaviakosmos [Russian Space 
        Agency]. To assist during this difficult period, ESA has agreed 
        to defer the flights of its astronauts, while continuing 
        payments to Rosaviakosmos for the flights on the original 
        schedule.''\1\
---------------------------------------------------------------------------
    \1\ NASA Bimonthly Russian Performance Report with regard to the 
International Space Station January 1, 2003-February 28, 2003, dated 
April 14, 2003.

    Unless the Administration requests a waiver to the Iran 
Nonproliferation Act, additional funds for Russia's support to the 
Space Station will need to come from the international partners other 
---------------------------------------------------------------------------
than the U.S.

Long-Term Viability of Russian Support for the Space Station. Even 
before the Columbia tragedy made issues about reliance on Russian 
Progress and Soyuz flights more acute, NASA reported ``uncertainties 
associated with the outlook for Russia's future funding'' \2\ for the 
Space Station in its bimonthly performance reports to the Committee. 
The agreement between the international partners called upon Russia to 
provide Soyuz capsules to serve as crew rescue vehicles through 2006. 
These NASA reports call into question the ability of the Russian Space 
Agency to support the Space Station over the next several years without 
additional funding from the Russian Government, the Space Station 
international partners, or the sale of more space tourist flights.
---------------------------------------------------------------------------
    \2\ NASA Bimonthly Russian Performance Report with regard to the 
International Space Station July 1-August 31, 2002, dated November 13, 
2002.

        <bullet> How is NASA mitigating the risks to the Space Station 
        and its crew if the Russian Space Agency is not able to support 
---------------------------------------------------------------------------
        long-term crew transport/rescue as well as cargo delivery?

        <bullet> Due to NASA's problems in developing a Space Station 
        crew rescue vehicle and RSA's financial problems, is continued 
        reliance on the Russian Soyuz a prudent and viable plan?

Safety of the Soyuz Vehicles

    The flight of the Russian Soyuz vehicle that returned the 
Expedition 6 crew last month raised new questions about the safety of 
our reliance on Russian vehicles. This capsule did not re-enter the 
Earths atmosphere as planned but re-entered the Earth's atmosphere in 
an anomalous ballistic entry, and the capsule landed over 275 miles 
from its intended landing target in Kazakhstan. The astronauts 
experienced more than 8 G forces versus the normal 4 Gs during this re-
entry. Further, search and rescue crews took more than two hours to 
locate the crew. Rescue teams could not pinpoint the crew until they 
unfurled a 15-foot auxiliary antenna.
    Key issues include:

        <bullet> What actions have the ISS international partners 
        taken to ensure that the necessary resources are available for 
        Russian Progress cargo flights to the Space Station?

        <bullet> Are the funding shortfalls for Russian Soyuz and 
        Progress missions causing any undue safety risks to the Space 
        Station or its crew while the Shuttle fleet is grounded?

The Iran Nonproliferation Act. The INA prohibits the U.S. Government 
from making payments to Russia in connection with the ISS and prohibits 
payments to any other entity if the U.S. Government anticipates that 
such payments will be passed on to an entity proliferating to Iran. 
Recently, industry bidders for the Space Station Cargo Mission Request 
for Proposals (RFP) sought guidance from NASA on the applicability of 
INA restrictions to U.S.-Russian company subcontracts. NASA asked for 
information from potential bidders on their proposed Russian 
subcontractor relationships and impact on the bidder's team if the 
Russian company could not participate in the work. Key issues include:

        <bullet> What impacts have potential bidders to the ISS Cargo 
        Mission RFP identified to NASA as a result of this guidance?

        <bullet> To what degree does Section 6 of the INA restrict 
        U.S.-Russian companies relationships on launch vehicles or 
        cargo carriers to the Space Station?

Collaboration with Russia on Space Programs. The Iran Nonproliferation 
Act only covers U.S.-Russian collaboration on the International Space 
Station, but the U.S. and Russia collaborate in several other space 
programs. NASA provided a summary of its cooperation with Russia in 
Attachment 4.
    The joint U.S.-Russia statement says that the two countries ``are 
prepared to take energetic steps to enhance our cooperation in the 
application of space technology and techniques.'' Other than the Space 
Station, space launch is the main area of collaboration between the 
U.S. and Russia. These joint ventures are formed between U.S. and 
Russian companies rather than through government-to-government 
collaboration.
    Rocket Engines. Lockheed Martin's Atlas V uses the RD-180 first 
stage engine built by Energomash, a Russian company, and Sea Launch is 
a partnership between Boeing, Energia, and Yuzhnoye/Yuzhmash using the 
Ukrainian Zenit rocket and Russian upper stage engines. Several U.S. 
commercial satellites are launched from Russia or Kazakhstan.
    Space Nuclear Power. NASA, through the Department of Energy, 
purchases plutonium fuel from Russia for its in-space nuclear power. 
During the early 1990s, the U.S. purchased the Russian Topaz space 
nuclear reactor in order to analyze its design for future systems. 
However, further collaboration between the U.S. and Russia in NASA's 
new nuclear systems development appears doubtful.
    Russian Collaboration with other Nations. The Russian Space Agency 
also has a number of cooperative ventures with other countries in 
space--France, Germany, Canada, China, India, Bulgaria, Hungary, 
Pakistan, Portugal, Israel, and the European Space Agency. Of 
particular interest, RSA signed agreements to support China's human 
spaceflight program. Russia also has ties with India and Pakistan's 
rocket program.

        <bullet> What are some areas of technical collaboration in 
        space between the U.S. and Russia that would provide meaningful 
        benefit to the U.S. space program while also discouraging 
        Russian proliferation of space and missile capabilities to 
        other countries?

        <bullet> How best should these cooperative space endeavors be 
        organized, either between U.S.-Russian companies or between the 
        governments?

Witnesses

Amb. Steve Pifer, Deputy Assistant Secretary of State, Bureau of 
European and Eurasian Affairs, State Department

Mr. John Schumacher, NASA Assistant Administrator for External 
Relations

Mr. Robert M. Davis, President and CEO of the California Space 
Authority

Mr. Henry Sokolski, Executive Director of the Nonproliferation Policy 
Education Center

Witness Questions

    The witnesses were asked to address the following questions in 
their testimony.
Questions for Ambassador Steve Pifer, Deputy Assistant Secretary of 
        State, Bureau of European and Eurasian Affairs, State 
        Department

        <bullet> How has the INA, along with other factors, influenced 
        the activities and behavior of Russian Government, Russian 
        Space Agency, and other organizations under its jurisdiction to 
        exert more control to stem the proliferation of space and 
        missile technology from Russia to states such as Iran?

        <bullet> Is the State Department actively monitoring Russian 
        collaboration in space and missile technology with the U.S. and 
        other countries and keeping other Federal agencies informed of 
        these Russian collaborations?

        <bullet> What is the State Department's role in working with 
        NASA to ensure that the INA is interpreted and implemented 
        properly?
Questions for Mr. John Schumacher, NASA Assistant Administrator for 
        External Relations

        <bullet> What have been the benefits and difficulties from 
        NASA-Russian Space Agency cooperation on the ISS over the past 
        three years?

        <bullet> What actions have the International Partners taken to 
        ensure that the Russian Space Agency has the necessary 
        resources to accelerate the production for Progress resupply 
        flights and meet the cargo needs for the ISS while the Space 
        Shuttle is grounded?

        <bullet> Given the problems with the Soyuz TMA-1 return flight 
        with the Expedition 6 crew, have NASA and the Russian Space 
        Agency considered any changes to remedy safety concerns with 
        Soyuz flight operations? If so, what are those changes?

        <bullet> Have any potential bidders for NASA procurements 
        identified any adverse impacts due to NASA's interpretation of 
        Section 6 of the Iran Nonproliferation Act?

        <bullet> To what degree does NASA believe that Section 6 of 
        the Iran Nonproliferation Act restricts U.S. contractor-to-
        Russian contractor relationships?
Questions for Mr. Robert M. Davis, President and CEO of the California 
        Space Authority

        <bullet> What are the benefits and risks when U.S. companies 
        collaborate with the Russian Space Agency or Russian companies 
        on space projects?

        <bullet> What areas of technical collaboration with Russian 
        space industry would you recommend that U.S. aerospace 
        companies pursue?

        <bullet> How has the INA affected U.S. aerospace industry 
        collaboration with Russia?
Questions for Mr. Henry Sokolski, Executive Director of the 
        Nonproliferation Policy Education Center

        <bullet> What areas of collaboration between the U.S. and 
        Russia in space have been beneficial or difficult over the past 
        three years?

        <bullet> How reliant is Russia on funding from other countries 
        to maintain its space and missile capabilities? In what areas 
        is Russia collaborating with other countries on space 
        capabilities? What are the proliferation concerns of these 
        collaborations?

        <bullet> What areas of future collaboration in space would you 
        recommend between the U.S. and Russia governments and 
        companies?

        <bullet> How have the behavior and actions of the Russian 
        government and Russian Space Agency changed over the past three 
        years in order to better stem the proliferation of space and 
        missile technology from Russia?

Attachments:

        1. LJoint Statement by President Bush and Russian President 
        Putin on U.S.-Russian Cooperation in Space

        2. LChart: MCB-Approved Soyuz and Progress Launch Schedule Re-
        Plan 2003-2004

        3. LCongressional Research Service Background Paper

        4. LNASA Summary on U.S.-Russia Space Cooperation

        5. LSections 6 and 7 of the Iran Nonproliferation Act of 2000

Attachment 1

Joint Statement by President Bush and Russian President Putin on U.S.-
Russian Cooperation in Space. On June 1, 2003 during their meeting in 
St. Petersburg, Russia, the U.S. and Russian presidents issued the 
following joint statement:

        LThe loss of the Space Shuttle Columbia has underscored the 
        historic role of the United States and Russia as partners in 
        space exploration, who have persevered despite tragedy and 
        adversity. During this challenging time, our partnership has 
        deepened and the International Space Station (ISS) program 
        remains strong. The extraordinary efforts of our countries 
        continue.

        LThe United States is committed to safely returning the Space 
        Shuttle to flight, and the Russian Federation is committed to 
        meeting the ISS crew transport and logistics resupply 
        requirements necessary to maintain our joint American astronaut 
        and Russian cosmonaut teams on board the ISS until the Space 
        Shuttle returns to flight.

        LWe confirm our mutual aspiration to ensure the continued 
        assembly and viability of the International Space Station as a 
        world-class research facility, relying on our unprecedented 
        experience of bilateral and multilateral interaction in space. 
        We reaffirm our commitment to the mission of human space flight 
        and are prepared to take energetic steps to enhance our 
        cooperation in the application of space technology and 
        techniques.\3\
---------------------------------------------------------------------------
    \3\ White House Office of the Press Secretary, June 1, 2003.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
Attachment 4

             United States-Russia Space Cooperation Summary

Background

    NASA has been engaged in cooperative activities with Russia for 
nearly 40 years, starting with modest contacts in fields such as space 
biology and medicine, geodesy and geodynamics. In 1972, the United 
States and the Soviet Union signed the Agreement Between the United 
States of America and the Union of Soviet Socialist Republics 
Concerning Cooperation in the Exploration and Use of Outer Space for 
Peaceful Purposes (Civil Space Agreement), which expanded these 
contacts into other areas of study including space science, Earth 
science, satellite-based search and rescue and later, human space 
flight. Cooperation with the USSR reached a high point with the Apollo-
Soyuz Test Project in 1975. The Civil Space Agreement was renewed in 
1971, but was allowed to lapse in 1982 as a sign of U.S. 
dissatisfaction with Soviet behaviors, especially in Afghanistan. In 
1987 the Agreement was revived and it was subsequently re-established 
as an agreement with the Russian Federation in 1992. This Agreement was 
renewed for additional five-year terms in 1997 and 2002.
    In October 1992, the United States and Russia signed an 
Implementing Agreement for the Shuttle-Mir Program, under which 9 
missions were flown to the Mir Space Station by the Space Shuttle, 
including 7 docking missions and 7 long duration visits on orbit by 
NASA astronauts. Discussions on broadening NASA's cooperation with 
Russia took place in 1993 in the context of the Space Station redesign 
effort. A December 1993 Protocol to the Agreement, laid the foundations 
for U.S.-Russia cooperation in the development of the ISS. NASA's 
cooperation with the newly formed Russian Space Agency (now known as 
the Russian Aviation and Agency or Rosaviakosmos) on the ISS program 
was formalized in June 1994 with the signing of an ``Interim 
Agreement'' for the Station's design, development and assembly. In the 
following years, the U.S. State Department and NASA worked with the 
existing ISS partner countries and Russia to negotiate and conclude an 
overarching set of agreements on the ISS. This effort culminated with 
the signature of a multilateral Inter-Governmental Agreement (IGA) and 
bilateral Memoranda of Understanding (MOU) on the ISS program in 
January 1998.

Current Human Space Flight Cooperation

    International Space Station: In the 1990s, Rosaviakosmos struggled 
to meet Russia's commitments to the ISS due to a shortage of Russian 
Government funding. These funding deficiencies had a negative impact on 
the ISS program's assembly schedule. The first element of the ISS, the 
U.S.-funded, Russian-built and launched FGB (Zarya) was successfully 
completed under a contract with Boeing. However, the launch of the 
first Russian-funded element, the Service Module (Zvezda), was delayed 
by approximately two years before it was successfully launched in July 
2000. Since that time, Russia has been meeting its obligations under 
the ISS agreements. Permanent human presence on ISS began on November 
1, 2000, with the arrival of the Expedition One crew, commanded by U.S. 
astronaut Bill Shepherd. Russian and U.S. crew members have alternated 
command of the joint ISS expedition crews for the last two and a half 
years. Following the loss of Space Shuttle Columbia on February 1, 
2003, the ISS partnership has relied on Russian logistics and crew 
transportation capabilities to sustain operation of the ISS in 
accordance with the partnership-agreed plan for operations. This 
circumstance has prompted the Russian Government to adjust its funding 
plans for 2003 and review plans for 2004. On June 1, 2003, at the U.S.-
Russia summit in St. Petersburg, Russia, Presidents Bush and Putin 
released a joint statement that emphasized our mutual commitments to 
International Space Station and our aspiration to complete this world-
class research facility together with our international partners.

Current Earth Science Cooperation

    NASA has cooperated with the USSR and Russia for over 30 years in 
the fields of Earth science, global change research and environmental 
monitoring. The overall goal of this cooperation is to advance our 
understanding of the Earth's systems through the use of space-based 
sensors, which make quantitative measurements of the state and behavior 
of the Earth's atmosphere, ocean, land surface, biology and interior.
    NASA's cooperation with Russia is coordinated through the joint 
U.S.-Russia Earth Sciences Joint Working Group (ESJWG). NASA and the 
Russian Academy of Sciences (RAS) are the co-chairs of the ESJWG, and 
other representatives participate from various U.S. and Russian 
Government agencies, universities and institutes, including 
Rosaviakosmos. In between formal meetings of the ESJWG, scientists 
continue cooperative activities and initiate ideas for future 
collaboration to be brought forward to the next ESJWG meeting. The 
ESJWG has met twelve times since 1998, with the next session scheduled 
for fall 2003, in Washington, D.C. Examples of the activities 
coordinated through the ESJWG include:

Stratospheric Aerosol and Gas Experiment (SAGE III)/Meteor 3M mission: 
The SAGE III/Meteor 3M mission is NASA's major space flight mission and 
highest priority cooperation with Russia in the area of Earth science. 
The mission is providing long-term, global measurements of key 
components of the Earth's atmosphere and conducts important scientific 
investigations of the state of the ozone layer. The satellite was 
launched December 2001 on a Zenit-2 rocket from the Baikonur Cosmodrome 
in Kazakhstan. Several Russian researchers are full members of the SAGE 
III Science Team.

High Resolution Picture Transmission (HRPT) Stations and Advanced Very 
High Resolution Radiometer (AVHRR) data: This cooperative research 
effort is focused on the study of boreal forests and to provide data to 
international programs, such as the International Geosphere Biosphere 
Program (IGBP). In this cooperation, three NASA-loaned HRPT stations 
are installed in Siberia for the collection of 1-km image data from the 
AVHRR instrument on the National Oceanic and Atmospheric 
Administration's (NOAA) polar orbiting satellites. The raw, processed 
and analyzed data is available to the international science community 
on a full and open basis.

U.S. Sea-viewing Wide Field-of-view Sensor (SeaWiFS) program: Russia is 
participating in the SeaWiFS program, which observes the world's oceans 
from space to measure ocean color (phytoplankton) in efforts to 
understand the role of the oceans in the global carbon cycle. A 
representative from the RAS Shirshov Institute of Oceanology (SIO) is a 
principal investigator on NASA's SeaWiFS mission and a member of the 
science team.

Space Geodesy: NASA is currently cooperating with RAS and the Ukrainian 
Academy of Sciences in a trilateral cooperative effort in Very Long 
Baseline Interferometry (VLBI) geodetic experiments. This cooperation 
encompasses the use of a NASA-loaned data acquisition system installed 
in St. Petersburg, and of the radiotelescope of the Crimean 
Astrophysical Observatory in Simeiz, Ukraine. The experiments focus on 
improved accuracy in VLBI measurements required for studies of Earth 
orientation, angular momentum and crustal dynamics. In addition, Russia 
and the U.S. are cooperating on the laser tracking of satellites of 
mutual interest, including U.S., Russian and Italian geodetic 
satellites, Russian GLONASS satellites, U.S. Global Positioning 
Satellites, and the U.S./French TOPEX/Poseidon oceanography satellite.

Aerosol Robotic NETwork (AERONET): NASA has loaned several sun 
photometers to various Russian institutions in support of the global 
AERONET program. The sun photometers measure vital aerosol optical 
properties and water vapor, which contribute to a more detailed 
understanding of global atmospheric change phenomena with a particular 
focus on the assessment of air quality.

Current Space Science Cooperation

Mars Exploration: NASA has cooperated with Russian space scientists on 
Mars exploration since the 1980s. Recent collaboration has centered on 
the Russian High Energy Neutron Detector (HEND) instrument, launched on 
the NASA 2001 Mars Odyssey spacecraft. Since Odyssey arrived at Mars, 
the REND device has returned significant data regarding possible water 
on Mars.

Astrophysics: NASA-Russia astrophysics cooperation has centered on two 
Russian missions: Spectrum-X-Gamma (SXG) and Radioastron. SXG is a 
Russian high-energy astrophysics observatory under development since 
the late 1980s and originally conceived with a launch date of 1991. 
NASA and Rosaviakosmos signed the MOU on SXG cooperation in June 1995. 
Due to continuing Russian Government funding constraints, Russia has 
terminated development on the baseline mission and is currently 
redesigning the project.
    In March 2002, Rosaviakosmos announced that SXG was no longer its 
top priority in astrophysics and that Radioastron (a radioastronomy 
mission) had assumed this role. Like SXG, this mission was conceived in 
the 1980s, with a planned launch in the mid-1990s, but continual 
shortfalls in financial resources have also left Russian obligations on 
this mission incomplete. NASA and Rosaviakosmos signed the MOU on 
Radioastron cooperation in February 1997. NASA was originally slated to 
provide a series of four ground tracking stations to support this 
mission, but with Radioastron far from completion, the stations have 
been decommissioned.

Scientific Balloon Flights: NASA-Russia scientific balloon cooperation 
began in 1992 with the establishment of a Balloon Implementation Team. 
Two successful flights were held in the mid-1990s before over-flight 
clearance was denied by Russia. The two sides have negotiated a long-
term Scientific Ballooning Implementing Agreement (IA) for future 
flights over Russia and possible Russian science participation on NASA 
missions. It is expected that this new agreement will be finalized 
later this summer.

International Living With A Star: Russia is participating in the 
ongoing Office of Space Science (OSS) Living With a Star Program, 
including participation in the International Living With a Star 
Executive Steering Committee that held its first meeting in January 
2003. The goal of this endeavor is to stimulate, strengthen and 
coordinate space research in order to understand the physical processes 
that govern variability in the connected Sun-Earth system.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Rohrabacher. We have a distinguished panel with us 
today to provide their unique perspectives on this issue. 
Unfortunately, we don't have all of the members of the 
distinguished panel who could provide us a perspective. One was 
unable to join us, and we will talk about that later, but we 
have asked our witnesses to, if possible, to summarize their 
testimony to five minutes. And we will have a robust discussion 
thereafter.
    One of the reasons we have a hearing panel is so that we 
can have an interchange of ideas that will benefit the Members 
of Congress as well as add to the national debate. 
Unfortunately today, the Administration, or at least the State 
Department, has determined that if it has a witness to present 
to Congress, or at least to this subcommittee, that it--that 
that witness must testify independently, not sitting next to or 
part of a panel of other witnesses. This was a demand made upon 
this Chairman by the State Department. And let me note, having 
worked in the Executive Branch, and now having been elected to 
a position in the Legislative Branch, it is not my reading of 
the Constitution that the Executive Branch will dictate to the 
Legislative Branch the format of our hearings.
    And I think that this is an issue that concerns all of us 
on both sides of the aisle. I think that the Administration 
should think very thoroughly this issue out before they decide 
to try to force this policy upon the Congress. It does not 
speak well of any Administration that is committed to openness 
and transparency and an honest discussion of the issues to try 
to put restrictions on the type of exchange that witnesses--
their witnesses before Congress can participate in.
    So I would hope that we can work this little issue out, but 
it must be worked out with due respect to both the rights of 
the Executive Branch and the rights of the Legislative Branch. 
And I find this format to be the most informative. I have never 
had objection from the other side of the aisle on this. I don't 
know of any party who has ever objected to this format. I 
happen to share the same party as the person now who heads the 
Executive Branch. There--I don't see why this is an issue, but 
it will be if we continue to have this type of----
    Mr. Boehlert. Mr. Chairman, if I may.
    Chairman Rohrabacher. Yes. Yes, Mr. Chairman.
    Mr. Boehlert. Just let me say that I wish to associate 
myself with your remarks. It is not clear to me. I think it is 
somewhat hazy whether this is an Administration policy or one 
department responding in this manner. And I hope we can get 
some clarification on that.
    Chairman Rohrabacher. I will--it will be up to all of us to 
work together to get that clarification and to try to work 
something out where we respect the rights of both parties and 
both the Executive Branch and the Legislative Branch.
    So our first witness was to be Ambassador Steve Pifer, the 
Deputy Assistant Secretary of State for Europe and Eurasian 
Affairs. That meant that he oversees our relationship with 
Russia.
    As you see before us today, Ambassador Pifer is not here to 
answer questions, not here to participate in the discussion and 
I regret that. And that is unfortunate.
    Our second witness is John Schumacher, who is in charge of 
NASA's external relations and NASA's lead negotiator with the 
Russian Space Agency. I am glad to welcome him here today, and 
you may proceed with your testimony.
    Mr. Boehlert. Mr. Chairman, if I may, I would observe that 
Mr. Schumacher is a very valuable member of this 
Administration. So that would indicate that this is not an 
Administration policy, at least at this juncture, as far as we 
are aware of, not to let Members testify in the manner in which 
you have indicated is most helpful to the Congress.
    Chairman Rohrabacher. Yes, sir. And make sure that the 
record is straight on that. There was a serious negotiation as 
to whether he would be here and be on the panel. And 
Administrator O'Keefe wisely decided to send him and to be part 
of the regular format that we have here in the Subcommittee. 
And I would applaud Administrator O'Keefe for demonstrating 
that he wants to take the extra step in order to work in 
cooperation with this subcommittee.
    Mr. Schumacher, you may proceed.

      STATEMENT OF MR. JOHN D. SCHUMACHER, NASA ASSISTANT 
              ADMINISTRATOR FOR EXTERNAL RELATIONS

    Mr. Schumacher. Thank you very much, Mr. Chairman and Mr. 
Boehlert. I will make sure that your very clear remarks are 
conveyed.
    Thank you again for having this hearing. I greatly 
appreciate the opportunity to testify before the Committee on 
U.S.-Russia cooperation in space. It is an important topic.
    Mr. Chairman, with your permission, I will submit a copy of 
my full testimony for the record and make a brief oral 
statement to summarize the testimony.
    Chairman Rohrabacher. Without objection.
    Mr. Schumacher. First of all, and not exactly a topic of 
this hearing, it is great to report to you that Mars 
Exploration Rover named ``Spirit'' just this Sunday launched 
successfully yesterday afternoon from Cape Canaveral Air Force 
Station on its way to a January 4 arrival date at Mars. The 
second Mars exploration Rover named ``Opportunity'' is 
scheduled for launch on the 24th. They join an Express mission 
and a Japanese mission all on the way to Mars for dates later 
this year and early next year.
    And exactly in line with the subject of this hearing, a 
Russian Progress successfully docked with the International 
Space Station this morning. I talked to the program office a 
little while ago. The hatch is open and they are getting ready 
to unload cargo, so another good news piece. I will speak to 
that Progress launch and what it involved in the relationship 
to the partnership later in my remarks.
    I think everyone is pretty much aware that during the last 
decade, NASA has engaged in cooperative activities with Russia 
in the fields of aeronautics, Earth science, space science, and 
human space flight. The accomplishments have included historic 
steps forward in human space flight by our astronauts and 
cosmonauts as well as important projects such as our joint work 
on the study of the Earth's ozone layer, coordination of 
research on the Sun-Earth system, and cooperation on the study 
of Mars.
    Building a strong human space flight partnership with our 
colleagues in Russia has yielded many benefits. This has been 
particularly evidenced since the loss of Columbia on February 1 
of this year. The redundancy and unique capabilities provided 
by Russian spacecraft have made it possible for the 
International Space Station partnership to maintain a crew 
aboard the Space Station despite the grounding of the Space 
Shuttle fleet. This has also allowed the ISS partnership to 
continue ISS operations and scientific research and to prepare 
for a resumption of construction of the Space Station once the 
Space Shuttle fleet returns to flight status.
    The concrete results of this unprecedented cooperation with 
Russia were clearly evident on April 26 when NASA astronaut, Ed 
Lu, and Russian cosmonaut Yuri Malenchenko launched aboard a 
Russian Soyuz spacecraft to begin their ongoing six-month 
mission. This success was followed on May 4 with the landing of 
the ISS Expedition 6 crew, Ken Bowersox, Don Pettit, and 
Nikolai Budarin, ending their 51/2-month mission.
    I am also pleased to be able to report to this committee 
that the Progress launch was successful and is proceeding. The 
vehicle was launched on June 8 and carried 5,300 pounds of 
food, fuel, water, and other supplies to support the Expedition 
7 crew and continued ISS ops. This Progress mission is the 
eleventh Progress flight to the International Space Station.
    The challenges of the last four months since the tragic 
loss of Columbia have drawn the ISS partnership, which also 
includes participation from Japan, 11 European nations, and 
Canada into an effective and very integrated team. At the start 
of 2003, the partnership was well on its way to achieving ISS 
Core Complete on schedule in early 2004. In 2003, we had talked 
about a lot that it was to be a very demanding year technically 
and managerially, as the partnership planned to execute five 
Russian and five U.S. missions to the ISS and closeout 
multilateral work on selecting an ISS configuration. Within 
hours of the tragic loss of the Space Shuttle Columbia, the ISS 
partners offered their full support and began work to address 
our new challenges. By the end of February, the partnership had 
a new plan for interim operations while the Space Shuttle 
remain grounded.
    The partnership has continued to implement this plan and 
update it as necessary. In particular, the Russian Aviation and 
Space Agency, Rosaviakosmos, has demonstrated a steadfast 
commitment to the ISS program by assuming increased 
responsibility for operational support of ISS. The Progress 
that just docked is a great example of that and how fast people 
move when--with the use--the switch from crew rotation, which 
was supposed to be on Space Station to two, the Soyuz, that was 
done in a couple of months. The crews were retrained. The 
vehicle was made safe, and launched on time, and brought 
another crew home. At the same time, work was made across the 
partnership. And Mr. Gordon, in response to your comments, I 
will get into that in more detail later, if that is acceptable, 
a lot of work, very hard work and a lot of hours between U.S., 
Russia, and other partners on these very detailed technical 
looks at what was needed to sustain human presence on Station, 
conduct research, and keep Station safe and operational until a 
shuttle returns to flight.
    On this Progress, the Russians, again, in this short time 
period, installed an internal water tank, so water could be 
carried up. This was not the configuration of Progress that was 
to carry water. They also actually literally strapped in, 
literally, five gallon cans of water into there. We had a 
cooling pump fail on one of the U.S. cooling systems. The 
Russians went in and installed the hard components that allowed 
that cooling pump to be hard-wired, if you will, you know, 
locked into the Progress and carried up. The food, they--the 
Russians--looked and worked a way where they could double the 
amount of food that was brought up on this Progress. All things 
at a fast turnaround, we are going to make this work is the 
type of great cooperative effort between the two of us. So I 
highlight those types of things, because that is not easy to 
do. That is a lot of engineering, a lot of work on center of 
gravity, all types of things that--to get that Progress and get 
some--as much backup on the Station as we can for our two 
astronauts that are up there.
    In summary, our relationship with the Russian space program 
is strong and effective. President Bush and President Putin 
highlighted the importance of this cooperation, the Joint 
Statement both Chairmen have referred to. And it is really 
significant that both Presidents--I mean, they picked several 
key issues they wanted to highlight, and one of them was space 
cooperation and, in particular, the importance of sustaining 
and moving ahead with the completion of assembly and the 
operation and use of the Space Station.
    We greatly appreciate the willingness of Russia, as with 
all of our ISS partners, to act decisively to address the 
challenges faced in the wake of the Columbia tragedy.
    Mr. Chairman, this completes my oral statement. Mr. Gordon, 
I ask for indulgence, and I will get into those in more detail 
after the other gentlemen get to do their opening comments. I 
would very much be glad to, and I look forward to any other 
questions.
    [The prepared statement of Mr. Schumacher follows:]
                Prepared Statement of John D. Schumacher
Mr. Chairman and Members of the Subcommittee:

    Thank you for the opportunity to address the Subcommittee today on 
the subject of NASA's cooperation with the Russian Federation in civil 
space. As highlighted by President Bush and Russian President Putin 
during their discussions on the first of this month in Saint 
Petersburg, ``The loss of the Space Shuttle Columbia has underscored 
the historic role of the United States and Russia as partners in space 
exploration, who have persevered despite tragedy and adversity. During 
this challenging time, our partnership has deepened and the 
International Space Station (ISS) Program remains strong.''
    During the last decade, NASA has engaged in cooperative activities 
with Russia in the fields of aeronautics, Earth science, space science, 
and human space flight. The accomplishments have included the historic 
steps forward in human space flight by our astronauts and cosmonauts, 
as well as important projects such as our joint work on the study of 
the Earth's ozone layer, coordination of research on the Sun-Earth 
system, and cooperation on the study of Mars. For example, the Russian 
High Energy Neutron Detector (HEND) is an instrument on the NASA 2001 
Mars Odyssey spacecraft. Since Odyssey arrived at Mars in October 2001, 
the HEND device has returned significant data regarding possible water 
on Mars.
    Building a strong human space flight partnership with our 
colleagues in Russia has yielded many benefits. This has been 
particularly evident since the loss of Columbia on February 1, 2003. 
The redundancy and unique capabilities provided by Russian spacecraft 
have made it possible for the ISS partnership to maintain a crew aboard 
the Space Station despite the grounding of the Space Shuttle fleet. 
This has also allowed the ISS partnership to continue ISS operations 
and scientific research, and to prepare for a resumption of 
construction of the ISS, once the Space Shuttle fleet returns to flight 
status.
    The challenges of the last four months have drawn the ISS 
partnership, which also includes participation from Japan, Europe and 
Canada, into an even more effective integrated team. At the start of 
2003, the ISS partnership was well on its way to achieving ISS Core 
Complete on schedule in early 2004. 2003 promised to be a demanding 
year technically and managerially, as the partnership planned to 
execute five Russian and five U.S. missions to the ISS, and close out 
multilateral work on selecting an ISS configuration. Within hours of 
the tragic loss of Space Shuttle Columbia, the ISS partners offered 
their full support and began work to address our new challenges. By the 
end of February, the partnership had a new plan for interim operations 
while the Space Shuttle remained grounded. The partnership has 
continued to implement this plan and update it as necessary. In 
particular, the Russian Aviation and Space Agency (Rosaviakosmos) has 
demonstrated a steadfast commitment to the ISS program by assuming 
increased responsibility for operational support of the ISS.
    In early May, the partnership executed the first ISS expedition 
crew exchange using Soyuz vehicles. Despite the necessity to re-train 
the crew for launch on Soyuz instead of on the Space Shuttle, the 
launch of Soyuz TMA-2 (ISS Flight 6S) was successfully accomplished on 
schedule. A week later the Expedition 6 crew executed the first return 
of U.S. astronauts on a Soyuz vehicle. During reentry the Soyuz TMA-1 
executed a back-up reentry profile. Rosaviakosmos appointed a 
Commission to investigate this anomaly. The Commission reported on May 
26, 2003, that the guidance system on the vehicle erroneously detected 
a malfunction and, in accordance with safety protocols, the system 
``failed safe'' to the back-up re-entry profile. As another indication 
of our close partnership with Rosaviakosmos, NASA has been regularly 
briefed on the progress of the Soyuz investigation. Later this summer, 
a joint Russian-American team, led by Thomas Stafford, Lt. Gen. USAF 
(Ret.) and his Russian counterpart Nikolai Anfimov, will review the 
findings of the Russian Commission and report to the NASA Administrator 
and the General Director of Rosaviakosmos on the implications for ISS 
operational readiness. We are continuing to work closely with Russia in 
preparation for the next Soyuz crew exchange planned for October 2003.
    The unwavering support of the ISS partners has reaffirmed the 
strength and depth of our partnership. NASA has conducted frequent 
consultations with its Partners as the Columbia accident investigation 
proceeds. These consultations are being held at all levels, including 
at the programmatic and technical level, through the Space Station 
Control Board; at the program management level, through the 
Multilateral Coordination Board; and at the Heads of Agency level. The 
ISS partners have scheduled a Multilateral Coordination Board and Heads 
of Agency meeting for the end of July.
    To date, near-term ISS operational plans and decisions taken by the 
partnership have not resulted in a need for NASA to seek an exception 
to, or request an amendment of, the Iran Nonproliferation Act of 2000.
    Mr. Chairman, NASA has conducted a broad range of cooperative civil 
space programs with Russia over the last decade. At present, our 
relationship with the Russian space program is strong and effective. We 
greatly appreciate the willingness of Russia, as with all of our ISS 
partners, to act decisively to address the challenges faced in the wake 
of the Columbia tragedy. Moreover, we look forward to resuming Space 
Shuttle operations so that we can continue the construction of the ISS 
and make full use of its remarkable capabilities.

    Chairman Rohrabacher. Well, we appreciate you being here to 
present that to us. Thank you very much.
    Mr. Schumacher. My pleasure, Mr. Chairman.
    Chairman Rohrabacher. Our next witness is Bob Davis, who 
will represent the United States industry perspective on 
cooperative ventures with the Russians in space. And while Mr. 
Davis is the President and CEO of the California Space 
Authority, his testimony before the Committee today is based on 
his own experience in working U.S. industry deals with the 
Russians. And the opinions he expresses are his own today, but 
he is a man whose opinions have been shaped by his own 
experience.
    So with those caveats, Mr. Davis, you may proceed.

  STATEMENT OF MR. ROBERT M. DAVIS, PRESIDENT AND CEO OF THE 
                   CALIFORNIA SPACE AUTHORITY

    Mr. Davis. Thank you, Mr. Chairman. Mr. Chairman, honorable 
Members of the Subcommittee, thank you for addressing this 
matter of considerable importance to the future of our U.S. 
space enterprise community.
    As you have heard, my name is Robert M. Davis. I am the 
President and Chief Executive Officer of the California Space 
Authority, a member-supported, California-based, non-profit 
corporation that exists to retain, grow, and create U.S. space 
enterprise in an intensively competitive global market that is 
highly coveted by all space-faring nations, current and future. 
Our constituents have little choice but to compete sometimes on 
unequal footing in these tough markets.
    As you have heard, the comments and viewpoints expressed 
today are my own. They do reflect extensive experience gained 
throughout the 1990's for the number of U.S.-Russian company-
to-company and company-to-Russian government dealings and 
ongoing monitoring of these projects, most of which continue 
today.
    With several provisos, I support U.S.-Russian cooperative 
space enterprise initiatives and strongly encourage U.S. 
Government support of company-to-company projects, particularly 
when they contribute to a strong U.S. industrial base. Overall, 
aerospace projects performed with Russian entities have been a 
positive experience for U.S. companies.
    Many companies view the Russians as good, positive 
partners. Strong and positive relationships have developed in a 
number of instances, and a number of these business ventures 
have become very successful over time. Tangible, specific 
benefits occur to those companies who enter these arrangements, 
from which the United States Government also benefits 
significantly, including ostensibly from reductions of Russian 
missile technology proliferation elsewhere. Cooperative 
aerospace projects gainfully employ Russian companies and 
individuals, thereby creating positive behavioral incentives.
    U.S. companies have gained highly productive access to 
Russian technology and know-how. The opportunity to leverage 
technology, particularly in propulsion, metallurgy, ceramics, 
optics, and other select areas has significantly advanced U.S. 
interests.
    Aerospace endeavors have helped bring about Russia's 
transition toward a true market economy. A number of early 
U.S.-Russian company-to-company dealings broke new ground in 
adoption of western business approaches, financial thinking, 
and judicial practices. Projects with Russian aerospace 
entities expose and teach market-oriented Western economic 
philosophy, practices, and operations to Russian entities and 
citizens. In kind, we have gained far better understanding of 
Russian interests, viewpoints, and objectives.
    On the subject of undesirable technology proliferation, it 
is difficult to know what else a Russian partner company may be 
doing. The Russians are very proud, by their nature, can be 
very suspicious, even of one another, and secretive. Their 
cultural behaviors and motives can create uncertainty as to 
what they are doing, as to whether what they are doing is or 
not in the interest of the U.S., particularly as interpreted by 
U.S. citizens doing project work.
    That said, Russians can be quite trustworthy. After a 
failed first deal, my second undertaking built first on gaining 
each other's trust and thereafter enacting a relatively simple 
contract that became a true, enduring partnership, even when 
subjected to extreme Russian Government pressures to abandon 
it. That partnership endures and every tenet of the agreement 
has been upheld to date. That said, the Russians are tough, 
able competitors who have their own needs to satisfy and will 
invariably do so.
    There are significant U.S. industrial base downsides that 
result from U.S.-Russian space cooperative endeavors. Given the 
weak, worldwide commercial launch demand, U.S. companies, 
particularly in propulsion, are working at 50 percent of 
capacity and far worse. A real tangible downside is the loss of 
work done in Russia that could be done here. Comparatively 
meager and unsustained United States Government space 
propulsion investment, as one case in point, is what 
stimulated, originally, strategic alliances with Russian 
propulsion entities at the probable cost of some U.S. jobs. 
While not their preference, perhaps, U.S. company employment 
and investment losses are somewhat offset by access to and 
selective use of Russian technology, know-how, and U.S. 
development projects. Projects such as Sea Launch, Orbital 
Space Plane potentially launched on an EELV, or other known ISS 
access concepts, do or could make highly productive use of said 
Russian capabilities, albeit at some U.S. employment cost.
    Absent U.S.-Russian cooperative aerospace endeavors, Russia 
will fill the vacuum. If projects are stopped or slowed, Russia 
will likely turn to China or increase its dealing with 
Russian--excuse me, with European interests. The U.S. would 
also lose access and insight into Russian aerospace plans and 
technological capabilities, which we may later come to regret. 
The U.S. Government should clearly articulate and steadfastly 
support policy that enables U.S. Government--excuse me, U.S.-
Russian company to company transactions. I urge the policies, 
laws, and regulations be implemented in a fashion that minimize 
business disruption.
    Mr. Chairman, honorable Members of the Committee, thank you 
again for the opportunity to speak with you today.
    [The prepared statement of Mr. Davis follows:]

                 Prepared Statement of Robert M. Davis

    Mr. Chairman, and Honorable Members of the Subcommittee, I would 
like to thank you for taking time from your busy schedules to look into 
a matter that is of considerable importance to and impact on the future 
of our U.S. space enterprise community.
    My name is Robert M. Davis. I currently serve as the President and 
Chief Executive Officer of the California Space Authority, a member-
supported California-based non-profit corporation, whose purpose is to 
Retain, Grow and Create California Space Enterprise. Our membership is 
comprised of individuals and entities from industry, academia, labor 
and workforce developers, and local government. Our membership includes 
a number of companies, large and small, from whom you hear frequently 
in behalf of their and our nations' aerospace interests. The name of my 
corporation implies that we are interested only in the well being of 
California Space Enterprise. However, Space Enterprise is an intensely 
competitive, internationally coveted industry, and many of our 
constituents compete in tough global markets. The California Space 
Authority is therefore keenly attentive to policy positions taken by 
the U.S. Government that bear on the future competitiveness of our 
industry and nation and therefore do not limit our interests and voice 
solely to the confines of the borders of the State of California.
    While I appear before you today as an employee of the California 
Space Authority, the comments and viewpoints today are my own. They are 
drawn from and reflect extensive earlier experience that I gained 
throughout the 1990s with a number of U.S.-Russian company to company 
and company to Russian government dealings and to which I continue to 
pay ongoing attention. I am flattered to have been invited to appear 
before you today, and thank you for the opportunity to offer and share 
my views as a U.S. space enterprise industrialist.

    With several provisos that I will define in my subsequent remarks, 
I support U.S.-Russian Space Cooperation and initiatives, and strongly 
encourage that our policy-makers and policies support company to 
company cooperative pursuits, in particular where they contribute to a 
strong U.S. industrial space enterprise base, and compliment our 
National Security interests.

    In support of the aforementioned statement, I offer the following 
points for the Committee's consideration:

        <bullet> Overall, U.S. industry dealings with Russian space 
        entities have been a positive experience for U.S. companies. 
        Many U.S. entities have found their Russian partners to be good 
        partners. It is fair to say that strong and positive 
        relationships have developed over the years in a variety of 
        areas. A number of these business ventures have grown to be 
        very successful and they have gained use of technologies that 
        are beneficial to U.S. space enterprise companies' interests. 
        Later in my remarks, I will underscore what my own experiences 
        have taught me as to how Russians become good partners, which 
        is quite different than how such relationships occur and grow 
        in a U.S. to U.S. business framework.

        <bullet> Those with whom I speak from across industry for the 
        most part endorse company-to-company engagements with Russian 
        aerospace industries. There are tangible and specific benefits 
        that accrue to the companies who enter into these engagements, 
        from which the USG also benefits significantly. It appears that 
        these dealings have reduced the likelihood of missile 
        technology proliferation. Whether they have wholly stopped 
        proliferation is not known. Company to company aerospace 
        projects do keep Russians (companies and individuals) gainfully 
        employed, thereby creating incentives to behave in ways that 
        comply with U.S. ITAR and export/import requirements, which is 
        beneficial to the interests of the U.S. and USG's objectives.

        <bullet> Dealing with Russian entities on development and 
        production of aerospace products achieves other outcomes that 
        are beneficial to the interests of the U.S. Government. These 
        dealings expose and demonstrate market-oriented/western 
        economic operations and philosophies to Russian entities and 
        citizens. Presuming the USG finds it desirable for the Russian 
        Republic to continue in the direction of becoming a true market 
        versus command economy, these relationships and ongoing 
        business dealings do help in achieving the transition of Russia 
        toward that end.

        <bullet> Aerospace endeavors appear to have been helpful in 
        bringing about Russia's transition in the direction of a true 
        market economy. A number of early U.S.-Russian company to 
        company dealings broke new ground in Russian adoption of 
        western business approaches, financial thinking and juridical 
        practices that did not broadly exist during the Cold War. Last 
        year the USG recognized Russia as a Market Economy, which can 
        only be helpful to U.S. global economic interests in the 
        future.

        <bullet> Another real plus is the access U.S. companies have 
        gained to Russian technology and know how through conduct of 
        company to company projects. The opportunity we thereby have to 
        leverage technology, particularly in propulsion, which is 
        selectively more highly performing and a high quality product, 
        has been of specific benefit to U.S. propulsion interests, and 
        thereby the USG and other U.S. companies that buy products that 
        incorporate these technologies.

        <bullet> I do not have a specific answer to the question ``How 
        do U.S. companies ensure that Russian partner companies not 
        proliferate?'' In my experience, which admittedly is somewhat 
        dated, I think it very difficult to detect what a Russian 
        partner may or not also be doing that is not in the interests 
        of the U.S. As professional relationships grow, particularly 
        when U.S. people are operating in situ, it is reasonable to 
        expect that if one has his or her eyes open and ears attuned, 
        one might coincidentally witness circumstances that would give 
        rise to suspicions about undesirable dealings the Russian 
        partner may be conducting. In my own case and those of my past 
        and current colleagues who have ongoing dealings with Russians, 
        none with whom I have worked would allow business interests to 
        cloud their view of U.S. interests and let some concern, if it 
        were to arise, go ignored.

        <bullet> Cultural behaviors and motives can create an air of 
        uncertainty about whether a Russian entity is conducting 
        ancillary activities that are not in the interests of the U.S. 
        national security and diplomatic interests elsewhere in the 
        world. The Russians are very proud, by their nature very 
        suspicious even of one another, and secretive. They are 
        deservedly proud of their aerospace accomplishments, highly 
        protective of their technology, and behave diligently to ensure 
        that their intellectual property remains theirs, and is not 
        exploited, at least without specific offsetting gain. These 
        behaviors can create concern over their underlying motives, 
        which may not be warranted.

        <bullet> Russians can become very Trustworthy. My personal 
        experiences speak volumes about dealing with Russians. My and 
        my earlier company's first ``deal'' with a Russian design 
        bureau came apart in August 1991, after some months of joint 
        activity, probably the result of a collision of expectations, 
        and more importantly due to fundamental failures in 
        communications borne out of vast initially indiscernible 
        cultural differences. My second undertaking, which became a 
        true, enduring partnership, even when the leaders of the 
        Russian partner were subjected to extreme Russian government 
        pressures to abandon it, have stayed the course. The 
        fundamental difference between the two was the presence or 
        absence of one-to-one trust on the part of the two leaders of 
        the two entities. In the first case, we went at it as a 
        standard business to business transaction, wrapped in typical 
        Letters of Agreement, Contracts, payments, etc., which in the 
        outcome didn't endure at the first moment of any pressure. The 
        second was a partnership that was built first on gaining each 
        other's trust, then jointly resolving how to meet our mutual 
        business interests and objectives, and finally entering into a 
        relatively simple ``contract''. That partnership endures yet 
        today, and in the case of the Russian partner, has upheld every 
        tenet of the agreements, even when it has been very financially 
        painful for both partners to do so. I can also report that this 
        has been the experience with many of my industrial colleagues 
        who have entered into and continue to conduct business to 
        business dealings with Russians and Russian entities today. 
        That said, neither I, nor my many colleagues who have worked 
        closely with Russian counterparts hold a Pollyanna view of the 
        Russians--they are tough, able competitors, who have their own 
        national and international needs to satisfy, and they will 
        invariably seek to do so.

        <bullet> There are significant U.S. industrial base downsides 
        that result from U.S.-Russian Space Cooperative Endeavors. 
        U.S.-Russian company to company (and government to government) 
        dealings has and does displace U.S. company workers. Propulsion 
        and other aerospace work that could be done by employees and 
        U.S. companies is being done by Russian companies and workers. 
        Given the recent and dramatic decline in demand worldwide for 
        commercial launches, U.S. propulsion companies, in particular, 
        are suffering, probably all working at something less than 50 
        percent of capacity, and worse. From first hand experience, our 
        nation has not had an enduring space launch propulsion 
        investment program, which is what compelled me, one of my 
        former employers and other propulsion companies to look toward 
        Russia as a means of expediently gaining a better domestic 
        competitive position. Essentially, our nation's only enduring 
        space propulsion investment has been in the Shuttle's main 
        engine, which generally powers but a fraction of our national 
        launch program needs and capabilities. The expense of large 
        engine development, as a general rule, exceeds the financial 
        capacity of essentially any of the U.S. propulsion companies or 
        corporations. While not necessarily the choice or preference of 
        U.S. propulsion companies, the comparatively meager USG 
        investment in space propulsion is what has helped create the 
        gradient or incentives that stimulated strategic alliances with 
        Russian propulsion developers and producers. In order to 
        achieve the access and workable alliances, a number of those 
        U.S. companies have heavily invested private capital in order 
        to achieve productive agreements; in some cases those 
        agreements have not been particularly lucrative, especially in 
        light of the downturn in the worldwide commercial launch 
        market. To somewhat offset their losses (and domestic 
        technology investments) in propulsion base, those same 
        alliances have gained access to and use of technology and know 
        how developed by the Russians in the course of their space 
        program. The Russians took different technology and production 
        routes than those of the U.S., and produced, selectively, more 
        highly performing, very durable rocket engines; several of 
        those different approaches are being incorporated into future 
        U.S. engine technology development. In fact, in the era of a 
        future Orbital Space Plane, potentially launched on a US EELV, 
        powered by an engine of Russian technology origin, U.S. ISS 
        access interests are likely to be served. Other such projects 
        such as Sea Launch, arrangements and possibilities exist that 
        could enable routine ISS access in yet different beneficial 
        ways, again selectively using Russian aerospace technologies 
        and capabilities.

        <bullet> On the subject of U.S.-Russian cooperative interests, 
        nature abhors a vacuum, which absent U.S.-Russian cooperative 
        aerospace endeavors, Russia will seek to fill. If the U.S. were 
        to take the route that future dealing with Russian aerospace 
        developers and producers is undesirable, and cause their 
        discontinuation, several things will or could occur. First, a 
        part of our current expendable launch stable will be disrupted 
        for a period of time. That will result in a loss of competition 
        and in the long run, quite possibly a loss of technological 
        innovation and progress. Absent competition, the flow of 
        innovative juices is eventually stunted. Absent government to 
        government, company to company dealings, Russia will be forced 
        to seek new markets for its capabilities and products. China 
        appears headed in a direction that some U.S. aerospace leaders 
        feel could seriously threaten U.S. space enterprise leadership. 
        Russia may well be induced to turn to dealing with China in 
        order to keep its aerospace community productively employed and 
        earning, something that the U.S. may not find in its longer-
        term best interests. The same outcome may occur between 
        European and Russian interests. The U.S. would also lose access 
        to and insight into the ongoing evolution of Russian aerospace 
        interests and capabilities, which we might later come to 
        regret.

    In closing, it is therefore my viewpoint that the U.S. should 
clearly articulate and steadfastly support policy that enables U.S.-
Russian company to company (and government to government) undertakings. 
I urge that these and our Administration's deliberations produce 
policies and accompanying laws and regulations that are implemented in 
a fashion that minimizes the potential for business disruption. Many 
U.S. companies have invested considerable sums of private capital in 
joint U.S.-Russian aerospace endeavors. From time to time they find 
their partnership and financial expectations disrupted, or relations 
with their investors imperiled because of a temporary diplomatic 
position taken by the USG in order to produce a behavioral modification 
on the part of Russia. Most companies enter into these business 
partnerships with a prudent appreciation of the potential for 
instability and possibility of disruption. However, whatever actions 
the USG can take to insulate these U.S. companies, particularly those 
that are entrepreneurial, and often thinly capitalized, from 
contemporary diplomatic issues, should be further explored and 
implemented.
    Mr. Chairman, Honorable Members of the Committee, thank you again 
for the opportunity to appear before you today. I will be delighted to 
answer any questions that you may in regards to my remarks.

    Chairman Rohrabacher. Thank you, Mr. Davis.
    Our final witness is Henry, and it looks like Skoloski.
    Mr. Sokolski. Sokolski.
    Chairman Rohrabacher. Okay. Now say that again. Let me hear 
it.
    Mr. Sokolski. Sokolski. Sokolski.
    Chairman Rohrabacher. There it is.
    Mr. Sokolski. There it is.
    Chairman Rohrabacher. I mean, with a name like Rohrabacher, 
I----
    Mr. Sokolski. Yeah.
    Chairman Rohrabacher [continuing]. Shouldn't ever complain.
    Mr. Sokolski. I know. We are afflicted with this.
    Chairman Rohrabacher. But he is the Director of the 
Nonproliferation Policy Education Center and has testified 
before our committee when we were considering the Iran 
Nonproliferation Act. And just last week, you testified before 
the International Relations Committee. And I welcome you. I 
understand that you are a witness who is a little bit more 
cautious about this, and we are very interested in these 
relations with the Russians, and we are very interested in your 
opinion. So you may proceed.

    STATEMENT OF MR. HENRY D. SOKOLSKI, EXECUTIVE DIRECTOR, 
            NONPROLIFERATION POLICY EDUCATION CENTER

    Mr. Sokolski. Thank you for letting me testify here today, 
Mr. Chairman.
    Conventional wisdom has it that the more we and our allies 
cooperate with Russia on civil space projects and show them 
that we can profit from peaceful trade--show them that they 
could profit from peaceful trade, the less they will be 
inclined or need to sell this sensitive technology to nations 
that would use it for military purposes. According to this 
view, the more U.S.-Russian civil space cooperation and 
commerce one has, the more the cause of nonproliferation will 
be served. Unfortunately, I don't think things are quite that 
simple.
    In fact, two of Russia's most important incentives to 
proliferate have nothing at all to do with profit. The first of 
these is the foreign political access and influence Russia 
gains when it sells militarily useful space technology to 
others. It isn't just the few hundreds of millions of dollars a 
year in sales in dangerous technologies that keeps Moscow 
cooperating with Iran and China, to name two, it is also the 
leverage it affords Russia with these nations on a host of 
other diplomatic, trade, and security issues. Second, for 
cultural and political reasons, Russia is still anxious to 
maintain its outmoded military-related industries, including 
its oversized space and missile sectors. Because this 
infrastructure is still--despite downsizing--too large to be 
either profitable or fully employed supplying legitimate 
demand, efforts to maintain it continue to drive Russia toward 
risky exports in the mistaken belief that cornering this 
illegitimate market might keep it from having to further 
downsize its space and missile sectors.
    These proliferation motivations are really quite important. 
As long as they are in play, U.S.-Russian space cooperation and 
even commerce and our efforts to curb dangerous missile 
proliferation, will be at odds on at least three counts.
    First there is an immediate tension, which I am sure this 
committee is seized with, between the U.S. funding work on the 
International Space Station and our desire not to have U.S. 
taxpayers support Russian entities that are proliferating 
missile technology to Iran and others. The original idea behind 
the U.S.-Russian cooperation on Space Station, an idea, I might 
add, that I first remember raising with our delegation in 1992 
when we visited Russia, was to get Moscow to fully comply with 
the Missile Technology Control Regime. This deal was 
subsequently struck under President Clinton. When it became 
clear that Russia was not living up to this understanding, the 
nonproliferation requirements, however, the Iran 
Nonproliferation Act of 2000 was finally enacted. Its aim was 
to assure that, at the very least, U.S. taxpayers would not pay 
to have Russian entities engage in such proliferation.
    Now one of the issues is whether or not President Bush 
should invoke the Act's safety waiver. Invoking the waiver 
would require stretching the law quite a bit. The Act reads 
that one can only invoke the waiver to prevent the imminent 
loss of life or grievous injury to those aboard the Station. So 
long as the Station's current crew can be returned to Earth, 
and it can, this condition is not present. Then, there are the 
politics of making such a waiver, which again are awkward. 
Making the waiver certainly would set quite a precedent. What 
parts of the Space Station aren't important to safety? There 
aren't many. Yet if you waive for one without meeting the law's 
clear language, why or where would you ever stop? More 
important, nobody really thinks our intelligence agencies can 
give Russia a clean bill of health on Iranian missile 
proliferation.
    This, in turn, raises a host of difficult questions. Is 
keeping the Space Station's schedule on track, even though we 
have already let it slip year after year after year, and on 
budget, even though we have already paid billions and billions 
and billions over the project's original cost estimate, a 
priority that should now trump our security and that of 
millions of people who will live downrange from Iran's 
missiles? Is slowing the project down until Moscow can get a 
clean bill of health from our intelligence agencies, or until 
we can develop an alternative to the Soyuz, more than we can 
afford? The President certainly spoke up in support of the 
Space Station, but he and Putin also warned the world about 
Tehran's worrisome development of strategic weapons, and it was 
this announcement, not Bush's statement on the Station, that 
got the world's attention.
    Second, there is a tension between U.S. civilian Russian 
space commerce and cooperation and peaceful Russian space-
related transfers that Moscow knows are being diverted for 
military purposes in Iran, Pakistan, Libya, India, and China--
nations either primed to proliferate or that already have a 
track record of doing so. President Bush only increased this 
tension with his announced desire recently to work with 
friendly states, including Russia, to interdict the export of 
weapons of mass destruction, including illicit missiles and the 
means to make them. If Russia fails to cooperate fully in this 
effort, including Russian space and nuclear help to Iran's 
suspect nuclear weapons program, this failure will only work to 
expose U.S.-Russian space cooperation and commerce to increased 
political scrutiny and skepticism.
    Let me conclude, I would ask that the entire statement be 
placed in the record, by stating that until Russia's space 
industry is downsized to accord with legitimate private and 
domestic military demand, continued space cooperation and 
commerce with Moscow at current or higher levels, I am afraid, 
is doomed to encourage at least as much Russian missile and 
space proliferation as it might prevent.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Sokolski follows:]

 
               Prepared Statement of Henry D. Sokolski

    Conventional wisdom has it that the more we and our allies 
cooperate with Russia on civilian space projects and show them that 
they can profit from peaceful trade, the less they will be inclined or 
need to sell this sensitive technology to nations that would use it for 
military purposes. According to this view, the more U.S.-Russian 
civilian space cooperation and commerce one has, the more the cause of 
nonproliferation will be served. Unfortunately, things are not so 
simple.
    In fact, two of Russia's most important incentives to proliferate 
have nothing at all to do with earning a profit. The first of these is 
the foreign political access and influence Russia gains when it sells 
militarily useful space technology to others. It isn't just the few 
hundreds of millions of dollars a year in sales in dangerous 
technologies that keeps Moscow cooperating with Iran and China; it's 
also the leverage it affords Russia with them on a host of other 
diplomatic, trade, and security issues. Second, for cultural and 
political reasons, Russia is anxious to maintain its outmoded military-
related industries--including its oversized space and missile sector. 
Because this infrastructure is still too large ever to be either 
profitable or fully employed supplying legitimate demand, efforts to 
maintain it continue to drive Russia toward risky exports in the 
mistaken belief that cornering this illegitimate market might keep it 
from having to further downsize its space and missile sector.
    These proliferation motivations are important: As long as they are 
in play, U.S.-Russian space cooperation and our efforts to curb 
dangerous missile proliferation will be at odds on at least three 
counts.
    First, there is an immediate tension between U.S. funding work on 
the International Space Station (ISS) and our desire not to have U.S. 
taxpayers support Russian entities that are proliferating missile 
technology to Iran and others. The original idea behind U.S.-Russian 
cooperation on the Space Station--an idea I remember first raising as 
an option in talks with the Russians in l992--was to get Moscow fully 
to comply with the Missile Technology Control Regime (MTCR). This deal 
was subsequently struck under President Clinton. When it became clear 
that Russia was not living up to this deal's nonproliferation 
requirements, the Iran Nonproliferation Act of 2000 was finally 
enacted. Its aim was assure that, at the very least, U.S. taxpayers 
would not pay to have Russian entities engage in such proliferation. 
Now, one of the issues is whether or not President Bush should invoke 
the act's safety waiver. Invoking the waiver would require stretching 
the law quite a bit. The act reads that one can only invoke the waiver 
``to prevent the imminent loss of life or grievous injury'' to those 
aboard the Station. So long as the Station's current crew can be 
returned to Earth--and it can--this condition is simply not present. 
Then, there are the politics of making such a waiver, which, at best, 
are awkward. Making the waiver certainly would set quite a precedent. 
What parts of the Space Station aren't important to safety? There 
aren't many. Yet, if you waive for one without meeting the law's clear 
language, why or where would you ever stop? More important, nobody 
really thinks our intelligence agencies can give Russia a clean bill of 
health on Iranian missile proliferation. This, in turn, raises a host 
of difficult questions. Is keeping the Space Station's schedule on 
track (even though we've already let it slip year after year) and on 
budget (even though we've already paid billions and billions over the 
project's original cost estimate) a priority that should now trump our 
security and that of millions of people who live down range from Iran's 
missiles? Is slowing the project down until Moscow can get a clean bill 
of health from our intelligence agencies or until we can develop an 
alternative to the Soyuz more than we can afford? The President 
certainly spoke up in support of the Space Station in Moscow. But he 
and Putin also warned the world about Tehran's worrisome development of 
strategic weapons and it was this announcement, not Bush's statement on 
the station, that got the world's attention.
    Second, there is a tension between civilian U.S.-Russian space 
commerce and cooperation and ``peaceful'' Russian space-related 
transfers that Moscow knows are being diverted for military uses in 
Iran, Pakistan, Libya, India, and China--nations either primed to 
proliferate or that already have a track record of doing so. President 
Bush only increased this tension with his announced desire to work with 
friendly states, including Russia, to interdict the export of weapons 
of mass destruction including illicit missiles and the means to make 
them. If Russia fails to cooperate fully in this effort, this failure 
will only work to expose U.S.-Russian space cooperation and commerce to 
increased political scrutiny and skepticism. Russia is helping to build 
missiles for India; India has just signed a military cooperation 
agreement with Iran and is talking about exporting its own missile 
technology. Iran, meanwhile, is not just getting covert missile 
assistance from Moscow. It is also overtly buying Russian satellites 
and earth tracking stations that could help it and others target their 
missiles against our friends and forces abroad. Moscow knows this but 
continues to claim that all of its space commerce is peaceful.
    Finally, there is a tension between the lack of domestic military 
and civilian call for Russian space related goods and services and 
U.S.-Russian space transfers, which tend to keep Russia's space 
infrastructure larger than legitimate demand can support. U.S. and 
European cooperative space efforts and commerce with Russia are too 
modest to keep all of Russia's oversized space and missile industry 
fully employed. But they are not small enough to force Russia to make 
the painful political decisions to further downsize their industry so 
it will not be so prone to proliferate. In the U.S., whatever surplus 
of space-related capabilities we have is maintained with the federal 
funding of space related projects. Russian government funding of its 
space industry, however, is much smaller. As such, there is constant 
pressure on many of its space enterprises to sell militarily useful 
technology to foreign customers who might use or sell this technology 
to proliferate. Until Russia's space industry is downsized to accord 
with legitimate private and domestic military demand, continued U.S. 
space cooperation and commerce with Moscow at current or higher levels 
is doomed to encourage at least as much Russian missile and space 
proliferation as it might prevent.

                    Biography for Henry D. Sokolski

    Henry D. Sokolski is the Executive Director of the Nonproliferation 
Policy Education Center, a Washington-based nonprofit organization 
founded in 1994 to promote a better understanding of strategic weapons 
proliferation issues for academics, policy-makers, and the media.
    He served from 1989 to 1993 as Deputy for Nonproliferation Policy 
in the Office of the Secretary of Defense under Paul Wolfowitz and 
received the Secretary of Defense's Medal for Outstanding Public 
Service. Prior to his appointment to this post, Mr. Sokolski worked in 
the Secretary's Office of Net Assessment on proliferation issues.
    In addition to his Executive Branch service, Mr. Sokolski served 
from 1984 through 1988 as Senior Military Legislative Aide to Senator 
Dan Quayle and as Special Assistant on Nuclear Energy Matters to 
Senator Gordon Humphrey from 1982 through 1983. Mr. Sokolski also 
served as a consultant on proliferation issues to the intelligence 
community's National Intelligence Council. After his work in the 
Pentagon, Mr. Sokolski received a Congressional appointment to the 
Deutch Proliferation Commission, which completed its report in July of 
1999. He also served as a member of the Central Intelligence Agency's 
Senior Advisory Panel from 1995 to 1996.
    Mr. Sokolski has authored and edited a number of works on 
proliferation related issues including, Best of Intentions: America's 
Campaign Against Strategic Weapons Proliferation (Westport, CT: 
Praeger, 2001), Beyond Nunn-Lugar: Curbing the Next Wave of Weapons 
Proliferation Threats from Russia (Carlisle, PA: Strategic Studies 
Institute, 2002); 21st Century Weapons Proliferation: Are We Ready? 
(London: Frank Cass, 2001); Planning for a Peaceful Korea (Carlisle, 
PA: Strategic Studies Institute, 2001); Prevailing in A Well Armed 
World (Carlisle, PA: Strategic Studies Institute, 2000) and Fighting 
Proliferation (Maxwell AFB: Air University Press, 1996).
    Mr. Sokolski has been a resident fellow at the National Institute 
for Public Policy, the Heritage Foundation, and the Hoover Institution. 
He currently serves as an adjunct professor at the Institute of World 
Politics in Washington and has taught courses at the University of 
Chicago, Rosary College, and Loyola University. Mr. Sokolski attended 
the U. of Southern California and Pomona College and received his 
graduate education at the University of Chicago.

    STATEMENT OF AMBASSADOR STEVEN PIFER, DEPUTY ASSISTANT 
 SECRETARY OF STATE, BUREAU OF EUROPEAN AND EURASIAN AFFAIRS, 
                        STATE DEPARTMENT

    While not appearing before the Space and Aeronautics 
Subcommittee, Deputy Assistant Secretary Steven Pifer provided 
the following written testimony and agreed to answer questions 
for the record.
    [The prepared statement of Mr. Pifer follows:]

                   Prepared Statement of Steven Pifer

Introduction

    Mr. Chairman and Members of this committee. It is an honor to 
appear before you with my colleague from NASA. We at the State 
Department consider it a privilege to work together with John 
Schumacher and his colleagues at NASA to further one of America's 
loftiest goals--the mission of human space flight. At State, our 
contribution to this mission is to facilitate relations with our 
international partners in space exploration while safeguarding our 
broader national security interests. Although we cooperate closely with 
many space agencies around the world, any conversation about the U.S. 
space program would be incomplete if it did not note the unique and 
historic partnership we share with Russia in the field of human space 
flight. Space cooperation between the United States and Russia remains 
one of the most visibly successful elements of the U.S.-Russian 
bilateral relationship.

U.S.-Russian Space Cooperation

    In recent months, this partnership has had to face tragic and 
unforeseen challenges. In the wake of the loss of the Shuttle Columbia, 
we have turned to our Russian colleagues for their assistance in 
sustaining the operations of the International Space Station (ISS). 
Considering our mutual experience in space exploration, Russia has 
undertaken important additional efforts to maintain the viability of 
the ISS. With the Shuttle fleet grounded, the Russian Aviation and 
Space Agency (Rosaviakosmos) readily accepted its role as provider of 
the world's only physical link to the Station.
    When the International Partners became concerned about the supply 
of water and other critical provisions to the Station, Russia made 
every effort to ensure that its Progress resupply vehicle would be 
available to provide support for the Station. The unmanned Progress 
vehicles are critical workhorses for delivering supplies to the 
Station. When the International Partners were faced with the 
possibility of mothballing the Station, Russia utilized a previously 
planned Soyuz launch to ferry a fresh crew to the Station, a mission 
that had been slated to be carried out by the Shuttle. This kind of 
cooperation, in the aftermath of the loss of the Columbia, has 
strengthened further our space partnership.
    Underscoring the depth of this partnership, President Bush and 
President Putin reaffirmed U.S.-Russian cooperation in space at their 
June 1 meeting in St. Petersburg. In their joint statement, the 
Presidents extolled the role our two countries have played in the field 
of human space flight and confirmed their mutual aspiration to ensure 
the continued assembly and viability of the International Space Station 
as a world-class research facility. Looking to the future, the 
Presidents agreed to explore ways to enhance our cooperation in the 
field of space technology and techniques.

The Iran Nonproliferation Act of 2000

    As our space partnership proceeds and explores new areas of 
cooperation, both the State Department and NASA have been rigorous in 
enforcing the legislative requirements of the Iran Nonproliferation Act 
(INA) of 2000. With the International Partners and separately with 
Russian officials, the Administration has consistently made clear that 
all activity with Russia must be conducted within the bounds of U.S. 
law and our nonproliferation policy.
    Bolstering nonproliferation remains a core issue on the U.S.-Russia 
security agenda. The State Department and other U.S. officials in the 
Administration have engaged the Russian government at the most senior 
levels to seek an end to sensitive cooperation between Russian entities 
and state sponsors of terrorism, such as Iran.
    In the context of our diplomatic engagement, Russia has taken 
steps, though not yet sufficient, to implement stronger export controls 
and improve oversight at Russian facilities. In the case of Iran, we 
have made clear our very strong concern that Russian cooperation with 
Iran not facilitate Iran's acquisition of nuclear weapons or long-range 
ballistic missiles. While we cannot go into great detail in an 
unclassified forum, we can affirm that Russia has taken actions in 
response to specific cases related to the proliferation of sensitive 
nuclear technology in the course of our dialogue on nonproliferation. 
We continue to monitor the issue of ballistic missile technology 
assistance, and continue to be committed to Russia's cessation of any 
assistance that could help Iran with the delivery of WMD.
    Iran's nuclear program was a key issue addressed by Secretary 
Powell with President Putin in their May meeting in Moscow and by 
President Bush with President Putin in St. Petersburg on June 1. We 
have stressed our concerns about the recent revelations of hidden 
Iranian efforts to develop a nuclear fuel cycle capable of supporting a 
nuclear weapons program, such as the centrifuge facility at Natanz. 
Given what this new information says about Iran's nuclear ambitions, we 
have again urged the Russians to reconsider their nuclear cooperation 
with Iran and believe they are actively doing so.
    President Putin made clear at the G-8 Summit in Evian that all 
Iranian nuclear programs must be under IAEA safeguards. The IAEA 
Director General is conducting an investigation of the Iranian nuclear 
program, and his report will soon be taken up by the IAEA Board of 
Governors. Until Iran has fully satisfied the IAEA's examination and 
fully addressed the international community's concerns and questions, 
including full implementation of the Additional Protocol, no country 
should be engaging in nuclear cooperation with Iran. The Administration 
will continue to press the Russian government not to engage in nuclear 
cooperation with Iran until Iran signs an Additional Protocol and 
verifiably abandons its pursuit of nuclear weapons.
    Although it would be difficult to quantify the INA's impact on the 
Russian government's export control policy, I assure you that the 
pressure applied by the INA is palpable in any dialogue with Russia on 
space. Mr. Yuriy Koptev, General Director of Rosaviakosmos, has been 
particularly active in promoting reform throughout the Russian 
government, and frequently notes the constraints imposed by the INA on 
U.S.-Russian space cooperation. Other Russian officials also regularly 
express their concern about the INA constraints. While the 
Administration acknowledges Rosaviakosmos' sincere efforts to reform 
and to maintain a good record on nonproliferation, we remain concerned 
about Russia's broader nonproliferation record. We will continue our 
high-level diplomatic dialogue with Rosaviakosmos and other relevant 
Russian agencies to address this issue.

The U.S. Export Control Process

    Domestically, State's Directorate of Defense Trade Controls in the 
Bureau of Political-Military Affairs ensures that our own export 
control policy is sound and is implemented effectively, including in 
our space cooperation with Russia. The Directorate is charged with 
controlling the export and temporary import of defense articles and 
defense services covered by the United States Munitions List (USML). 
The Directorate's mission is to advance national strategic objectives 
and U.S. foreign policy goals through timely enforcement of defense 
trade controls and the formulation of defense trade policy. It carries 
out its mission by enforcing the law and reviewing export license 
applications for defense articles and services, ensuring that exports 
approved are consistent with this mission and that companies comply 
with defense trade laws and regulations. Through the licensing process, 
relevant U.S. Government agencies have the opportunity to review 
individual export license applications and advise whether proposed 
exports would be consistent with our national security and foreign 
policy. The State Department makes licensing decisions accordingly. 
This extensive procedure applies not only to exports to Russia, but to 
all U.S. exports, and helps ensure that federal agencies such as NASA 
and U.S. aerospace firms do not, even inadvertently, contribute to the 
proliferation of sensitive technology around the globe.

U.S.-Russia Relations

    A word about our overall bilateral relationship with Russia. Our 
two countries are working hard to move past our recent disagreement 
over Iraq. In St. Petersburg, Presidents Bush and Putin made clear 
their determination to reinvigorate the partnership. Expanding 
cooperation in the security dimension remains at the top of the agenda, 
and this includes pressing the Russians to improve their performance on 
key nonproliferation issues. Likewise, the Administration will persist 
in its efforts to enhance U.S.-Russian cooperation in counterterrorism, 
strategic stability, and missile defense. We also hope to broaden our 
cooperation in space and expand the economic component of our 
relations, particularly in the energy field. We intend to continue 
working closely with our colleagues at NASA to implement the 
Presidents' commitment to enhance our cooperation in space, while 
remaining fully consistent with our security and nonproliferation goals 
for the bilateral relationship.

                               Discussion

    Chairman Rohrabacher. Thank you for your words of caution. 
And before we get into the question and answers, I would ask a 
Member of my Staff, we happened to find a little matryoshka 
doll here. We were talking about not knowing what is inside and 
not being able to ask any questions, so we just have this 
little matryoshka doll to remind us that Ambassador Pifer is 
not here to answer any questions and to let us get any deeper 
insight into this issue. So he will just sit there like a 
little wooden dummy instead of being here to answer questions 
and to express--explain to us the policies of the 
Administration.
    Thank you.
    Mr. Boehlert. Mr. Chairman, apparently the State 
Department--the Administration is represented by Mr. 
Schumacher.
    Chairman Rohrabacher. Well said, Mr. Chairman. Thank you. 
With that said, I would like to start the questions and answers 
off with just--I think we need to go to Mr. Schumacher first. 
Right.

                       Iran Nonproliferation Act

    To what degree does NASA believe that the--and of course, 
this is the crux--one of the major issues here today is whether 
the Iran Nonproliferation Act restricts U.S. contractor to 
Russian contractor relationship. And is a congressional 
clarification needed on that account?
    Mr. Schumacher. Yes, sir. I can tell you for the Iran 
Nonproliferation Act, and specifically Section 6 with--which is 
titled International Space Station, but in the definitions 
talks about all human space flight-related goods or purchases 
in kind transfers. We have worked closely with State on that. I 
can tell you the view from State to us is that they express 
serious concern about any contemplation of a contract--what--in 
short version, contractor to contractor meaning U.S. funds to a 
U.S. contractor. U.S. contractor goes out and buys from a 
Russian contractor.
    Chairman Rohrabacher. Um-hum.
    Mr. Schumacher. Any entity under the Russian Aviation and 
Space Agency that that might well be violative of the Act, and 
if it is not violative of the black letter law of the Act, it 
is, at a minimum frustrates and deemed violative of the intent 
and the spirit of the Act. So the short version would be----
    Chairman Rohrabacher. Okay. I have the law in front of me 
here, and it doesn't seem to mention private companies. It 
talks about the Russian Government.
    Mr. Schumacher. Well, in the definition, it defines any 
entity under the jurisdiction or control of Rosaviakosmos. And 
then it even says even an entity where the Russian 
Rosaviakosmos had a joint stock ownership and then got rid of 
that.
    Chairman Rohrabacher. Well, it says here neither the 
Russian Aviation and Space Industry nor any other organization 
or entity under the jurisdiction or control of the Russian 
Aviation Space Agency. Now that seems to be pretty definitive 
in terms of if you have an American company, would you say 
that--and that same restriction was placed on NASA, would you 
say that that applied and that that then related to all 
American companies?
    Mr. Schumacher. No, sir; I sure wouldn't.
    Chairman Rohrabacher. All right. I am sorry that the--as 
you are relaying the position of the State Department, I am 
just sorry the State Department couldn't come here and express 
that to us themselves. And Mr. Woodenhead here isn't going to 
tell us, so we will just have to have this discussion based on 
what we have here today. So but you believe that then if we are 
going to be in compliance with nonproliferation, you--it is 
your reading, and for what you know, the Administration's 
position that that also relates to private companies?
    Mr. Schumacher. Yes, sir. And if I could take you in the--
in Section 7 of the definitions of the Act, it is a sub--let me 
see. It is number 5, organization or entities under the 
jurisdiction or control of the Russian Aviation Space Agency. 
And then in there, it goes through a whole bunch of subsets, 
but it--any entity--basically, it is any entity that was under 
the jurisdiction or control of Rosaviakosmos, which covers, the 
way the Russians are structured, some 450 aerospace 
enterprises. And then a little later on, it even says that--let 
us see, any entity that the Russian Aviation and Space Agency 
or Russian Space Agency had a holding or controlling interest 
and then divested it, it would still be subject to the Act.
    Chairman Rohrabacher. Now I--it seems to me, now I was 
around when this happened, in fact, I was one of the 
supporters. And I still support the concept of this. We should 
make sure that we keep the pressure on. And I know that Mr. 
Sokolski, no, whatever it is, anyway, sorry about that, what--I 
understand the concerns that you have, and we cannot just 
ignore the fact that the Russians are building a nuclear power 
plant for the Iranians and Iran happens to be a--you know, an 
oil and gas rich country. So, is this a threat to our national 
security along with missile development? The answer is yes, it 
is. How we can, perhaps, instead of using a punitive attempt, 
and maybe I should open this up to the panel, would not a more 
carrot rather than a stick be more appropriate in getting the 
Russians to have their--to judge their decisions in something--
in a more positive way?
    Mr. Schumacher. Mr. Rohrabacher, I can tell you we, as we 
have talked with you and with the Committee over these years 
about this, certainly nonproliferation issues are the 
threshold. That is where we start. And the people we work with, 
and we look to State in their interaction in the other parts of 
the government, to certify that people do meet those 
nonproliferation orders before we can work with them. We think 
that is a very positive and high standard to set, and then we 
get into a cooperative relationship with them. So, in 
particular, if you are trying to work with a nation or work 
with companies, it is an encouragement for them to have to 
adhere to these laws.

            Partnerships Between U.S. and Russian Companies

    Chairman Rohrabacher. Well, if we show--Mr. Davis, if we 
could show them that they are going to make hundreds of 
millions if not billions of dollars in doing partnerships with 
American companies doing something positive, isn't this 
something that you think that would lead them to use their 
resources in the right direction rather than building missiles 
and nuclear weapons?
    Mr. Davis. It has been my experience that--that the 
possibility and the prospects for them, indeed, being engaged 
by former companies prevent--potentially resulting in millions 
of dollars of work certainly moderated or modified their 
behavior. Yes.
    Chairman Rohrabacher. Here you go, Mr. Sokolski.
    Mr. Sokolski. Sokolski.
    Chairman Rohrabacher. Okay. Got it. And you have to speak a 
little into the mike.
    Mr. Sokolski. I forgot to turn it on.
    Chairman Rohrabacher. Okay. There you go.
    Mr. Sokolski. I hope my job isn't to be ogre, but let me 
suggest something. I can remember quite well why the Iran 
Nonproliferation Act laid off the U.S. vendors that were doing 
space launches, because if you remember correctly, the first 
charge up to the Hill was, ``Let us go after the space quota.'' 
Remember that? Boy, did I get called in by an awful lot of 
people in that business asking for advice. I suggested, ``Well, 
maybe we should just all agree that the U.S. Government should 
not use taxpayer money to make progress payments to entities 
that are in the Russian press being identified as 
proliferaters.'' And everyone said, ``Oh, what a relief. Let us 
do that.''
    Now if what you do is say, ``Well, but we have got a 
problem. They are still proliferating, and we want to do 
business with Russian companies that we think are cleaner, or 
perhaps totally clean.'' If you shift all of the contracting 
from the dirty entities to the clean ones, you do two things. 
You get around the law, in a sense, without breaking it, 
because you can interpret this thing differently, quite 
clearly. You have seen that. But I think you are going to do 
something else that you may not intend, and that is when 
Russia's continued cooperation on Iranian rockets and nuclear 
activities gets to be really bad, and it is going to get bad, 
and we don't do something much more dramatic with our European 
allies than we are doing. There is going to be a spotlight 
turned right on the contractors that you focused on, much like 
we wanted to avoid when we originally focused on the Space 
Station. So there is no free lunch here. If there is 
proliferation, getting around the legal issues won't get you 
around the political ones is my hunch.
    Chairman Rohrabacher. And so you are suggesting that if we 
are going to have a more expanded cooperative effort with the 
Russians on--in these space efforts, that we do have to come 
down and face this hard decision and not try to hedge, just 
face it head on? Unless there is an agreement made, we just 
cannot expand our cooperation any further with the Russians in 
space?
    Mr. Sokolski. I guess I am Shrek here. Yes.
    Chairman Rohrabacher. All right. I--let me just note before 
we go on to Mr. Gordon, we are not talking about a country, 
when we talk about Russia, as the same being that we are 
talking about Communist China. In Communist China, there has 
not been one inch of political reform. They have no opposition 
parties. It is a totally totalitarian state. I believe that the 
people who run Communist China still harbor some evil designs 
on the United States of America and other Western democracies.
    However, in Russia, in contrast, over the last 10 years, 
there has been tremendous reform. And while there are still 
undercurrents that we are talking about today that are very 
serious and we--and affect our national security, the Russians 
have opposition in newspapers. They have got opposition 
parties. They are well on a way toward an evolution, toward a 
more democratic and free country. They haven't reached it yet, 
and we owe it to them, you know, it is a tough-love type of 
thing, to be very solid and serious about what they must do.
    Mr. Sokolski. I think this was the reason why we made a 
distinction originally when we tried to pass this law between 
commerce--between companies that aren't government-funded 
indirectly, which is--you know, you could get a contract from 
NASA and then give it to an American firm. And then an American 
firm could then do a bankshot to a Russian firm. That is not 
really private industry to private industry. That is a Federal 
Government contract to a private firm to a Russian company.
    We made a distinction between what was going on between 
entities that wanted to try to make a go at making a profit and 
those that, like those that are underneath the agency of the 
Government of Russia, that really are still too large in number 
and not really up to making a profit yet.
    Chairman Rohrabacher. Okay. Mr. Gordon, you may proceed.
    Mr. Gordon. Thank you.
    First let me concur with Chairman Rohrabacher and Chairman 
Boehlert in their concerns with State. Assured goodness, this 
is going to get worked out and we can move forward. We all need 
to do our job.
    Mr. Schumacher, thank you for being here today. As I said 
earlier, I had submitted some questions to Administrator 
O'Keefe at our NASA posture hearing in February and haven't 
heard from them yet. And but I also--my staff put your staff on 
notice that we would be talking about some of that today, so I 
would hope that you would be able to get us started.

          Russian Support for the International Space Station

    So let me start with you. What specific financial 
arrangements are in place to ensure that all needed Soyuz and 
Progress vehicles will be available to support the 
International Space Station for a period up to 32 months that 
the Shuttle fleet was grounded after the Challenger accident? 
And specifically, how much will it cost to provide the 
necessary Soyuz and Progress vehicles and who will be paying 
that expense?
    Mr. Schumacher. Yes, sir. And I did not pass off lightly on 
your first issue. Part of my first action as Chief of Staff is 
to make sure your questions get answered and up here very 
quickly.
    So with regard to your questions, a couple things. First, 
the partnership has really responded to the tragedy of Columbia 
in a way that really emphasized how strong it is. And we went 
to the partners, and we said this will really be a test of the 
partnership, no doubt about it. Yes, we have had a tragedy. We 
need to go and take care of that. And we are going after it, 
you know, as hard as we can. In the meantime, we hope we can 
look across partnership solutions to resupply and maintain 
human presence on the Station, keep the ops and the science 
going. And as a matter of fact, that was one of the strengths 
in the partnership we always talked about was the redundancy 
and that type of thing.
    We went into the partnership, and we have, through the 
partnership, as I talked about, late February, early March, 
laid out a plan. It is really--and it is approved at the--
through the SSCB, which is a technical Space Station Control 
Board level to multilateral control, which is really the heads 
of the program. It is endorsed by the heads of agency. So a 
long winded way of saying the--all of the space agencies in the 
partnership have signed up to this. What it is is a plan for 
Soyuz and Progress coverage, both human and cargo resupply of 
the Station through 2003 and 2004. That plan is being iterated. 
You might have seen some comments this morning from Mike 
Kostelnik, the ISS program head here in Washington, where he 
said the Progress we were looking to accelerate from the 
beginning of 2004 into 2003, it looks like we may well be able 
to back off that, because watching six weeks of consumables 
with a two partner crew has allowed us to start looking at 
pushing back. Both teams are working that really hard and keep 
a very careful watch on that. And that is looking good.
    In--so in response to your question about do we have a plan 
and do we have a schedule, yes, we have a partnership----
    Mr. Gordon. Do you have any commitments?
    Mr. Schumacher. Yes, sir, I will get to that, if I could. 
We have a partnership plan for those vehicles in that sequence. 
And the sense of commitments to the Station, I think first and 
foremost, you have seen the strong support of both Presidents 
to make the Station fly, remain crewed, and move forward to 
assembly and completion. You see the commitment from the 
Russian President, himself, that Russia will do what it takes 
to sustain Station until we return to flight.
    Mr. Gordon. Excuse me. What it takes or what it can?
    Mr. Schumacher. Well----
    Mr. Gordon. They are two different matters.
    Mr. Schumacher. Yes, sir. And I will be glad to get into 
that. The Russian Government itself, and I will through each of 
the parties, but Russia itself, Russia has taken the funding 
for Rosaviakosmos for the full year----
    Mr. Gordon. Yeah, I understand that. I mean--if I could--
you have--answer the question that way you don't have to repeat 
it----
    Mr. Schumacher. Yes, sir.
    Mr. Gordon [continuing]. I mean, because we have got a 
short time here. I know it is really that the Russians want to 
help. I know that they have moved their next year's funding to 
this year's funding. I also know that our--some of our partners 
have taken up some of the additional slots, but that was done 
before the accident. And so where I think we are now is that 
NASA has finally admitted what we have all known and that is 
the Shuttle, in all likelihood, is not going to fly this year. 
And we are pretty much, I think, hopeful covered this year by 
virtue of the Russians taking next year's funds and moving them 
here and by commitments that our partners had already made. The 
question is what--you know, the Challenger, we were down for 32 
months, so what happens next year?
    Now my concern is that it is just--I have to say--I mean, 
it is inconceivable to think that our partners, who think that 
they are less wealthy and have tough budget problems like we 
do, are going to say, ``Sure, we are going to pay for NASA's 
responsibilities next year.'' Maybe they will, but I think that 
is going to be a hard sell, and it would be irresponsible for 
us not to think that they might think that the U.S. has more 
money than they do and maybe the--you know, and the U.S. should 
go forward. So I think if really, you know, we--they think 
about this.
    Now obviously one concern is just the mechanical aspect; 
can the Russians--how long can they do this? Let us assume that 
they can continue to. I would like to know that question, but I 
still don't see what the funding is for next year, other than 
maybe goodwill. Have any of the partners agreed for next year? 
Who and give me specifically, and for how much?
    Mr. Schumacher. Yes, sir. With regard to the Russians, 
Rosaviakosmos, first, their funding for this year has been 
phased forward six months.
    Mr. Gordon. Yeah. Right.
    Mr. Schumacher. They will have a government level meeting 
again early in the fall to decide on the increased funding for 
their budget for this year. They will also decide on an augment 
to next year's budget.
    Mr. Gordon. And when will that be?
    Mr. Schumacher. In the September timeframe. They are 
looking at that. They are--again, they are assessing, like we 
are, over the summer looking at the Progress and all of that 
type of thing. The Soyuz vehicle flow remains, as before, to a 
year. This is really about the increase and the acceleration of 
Progress. Originally, we were operating very conservatively 
right after the loss of Columbia looking at a Progress this 
year and another next year.
    Mr. Gordon. Okay. Let me--because my time is----
    Mr. Schumacher. Yes, sir. Yes, sir.
    Mr. Gordon. In case the Russians, in September, say, ``We 
can't afford to do this next year,'' are we going to wait until 
September to come up with our plan or are we going to come up 
with an alternative before that?
    Mr. Schumacher. No, sir. Well, two parts. First, they have 
said just the opposite. They have said they will do--they are 
not--when they say they will do it, it takes--it is not just a 
wishful--the government level administrative finance, the 
President said they are looking at what the budget increases 
are necessary to cover their part.
    Mr. Gordon. I don't mean to be--and I have really got a 
joint statement.
    Mr. Schumacher. Yes, sir.
    Mr. Gordon. And it is still a little loosey goosey to me 
and that they want to--they hope to--it is important, but I 
could read you a number, if you want me to, examples in past 
years where they said they were going to do things and they 
didn't do it. So again, I just don't think that it is the 
responsible thing, looking at their past history and looking at 
the lack of real definitive statement here, for us not to plan 
for an alternative.
    Mr. Schumacher. Yes, sir.
    Mr. Gordon. But don't we--are we planning for an 
alternative, if they say they can't do it?
    Mr. Schumacher. Certainly. First of all, we watched, 
obviously the statements and the discussions as well as vehicle 
flowing. I know you are aware, we have people on the ground 
that--we have people that interact with these folks every day. 
As you talked about for crew slots, that also plays into next 
year. Japan has stepped forward. Canada is talking to Russia 
about a crew opportunity. So there are a number of different 
activities that are going forward in the partnership to look at 
additional support in this area. But I would say, first and 
foremost, the Russian Government has stepped up to this. And I 
think you are certainly right, and I just----
    Mr. Gordon. Are we not worried about it? So should we 
just--I mean, you know, the Members of this committee just not 
worry? You are going to take responsibility to say this is 
going to be paid for. We don't have it on the dotted line, but 
it is for us not to worry about it, not to be asking for 
alternatives and just worry--we should worry about other 
things?
    Mr. Schumacher. We worry about these things everyday, Mr. 
Gordon. I can assure you. And it is something we have to watch, 
and we will be the first to----
    Mr. Gordon. Are you going to do any planning? Besides 
watching, are you going to make any plans, alternative plans?
    Mr. Schumacher. Well, the alternative plans would be we 
know the Europeans are going to come on line with ATV in the 
fall of next year. Other than that, it is Russian vehicles in 
the near-term and the alternatives would have to be alternative 
funding mechanisms if we got to that.
    Mr. Gordon. Okay. So are you going to present any of those 
to us?
    Mr. Schumacher. No, it is not, because this time we don't 
think we need to. I mean, we can move forward quickly if we 
have to.
    Mr. Gordon. How quickly can you--how quickly then?
    Mr. Schumacher. How quickly?
    Mr. Gordon. How quickly will you have a plan after they say 
they are not going to be able to pay for this?
    Mr. Schumacher. I think that would be very fast, because it 
is a pretty straight forward issue of watching if they----
    Mr. Gordon. Okay. So how fast can you be then? Would it be 
a day? Would it be a week? Would it be a month?
    Mr. Schumacher. It would certainly----
    Mr. Gordon. Would it be a day?
    Mr. Schumacher. I would say within a week of knowing.
    Mr. Gordon. Okay. Well, then if that is the case, it must 
be pretty easy if you can do it that quickly. So you can just 
go ahead and tell us what it is.
    Mr. Schumacher. The alternative?
    Mr. Gordon. Yes, sir.
    Mr. Schumacher. It would be some form of funding other--
with other partner contributions or us. And we would have to 
come forward to you for relief on the Act, should that ever be 
the case.
    Mr. Gordon. Okay. So the--so you would feel like--would 
that--I mean, that is a pretty simple, sane suggestion.
    Mr. Schumacher. Thank you. Thank you.
    Chairman Rohrabacher. Thank you very much, Mr. Gordon. And 
with the Chairman's prerogative here, that would be, that type 
of cooperation and expanded cooperation would be within keeping 
of the Iran Nonproliferation Act, correct?
    Mr. Schumacher. It would have--to start on, it would have 
to be.
    Chairman Rohrabacher. All right.
    Mr. Schumacher. We could do it one or two ways.
    Chairman Rohrabacher. Mr. Sokolski, I am sorry. Mr. 
Sokolski, there it is. Mr. Sokolski is nodding his head yes, 
and he is the skeptic here, so I would take it that that means 
that it probably is well within the definition of the Russian 
Nonproliferation Act and the Iranian Nonproliferation Act. Let 
me note that there are many other areas of cooperation that we 
could do, but that you are suggesting now that would be limited 
by the Nonproliferation Act. And we will discuss that in the 
second round of questions.
    And then I will turn to distinguished Co-Chairman in the 
National Security Committee, who is probably one of the 
greatest--well, not probably, one of the--he is the foremost 
expert on Russian-American relations in the United States 
Congress, Curt Weldon.
    Mr. Weldon. Well, thank you, Mr. Chairman. Thank you for 
the compliment. Thank you for the foresight to hold this 
hearing. Thank you all for coming.
    And I want to take a little different tact here, and I 
would ask my colleagues to listen to this, because it is 
important as we discuss violations of arms control agreements 
and proliferation. First of all, we do have some other 
successful programs with the Russians involving space. There 
was a brief allusion, I believe by Mr. Davis, to the Lockheed 
Martin-Khrunichev Initiative. That has been an extremely 
successful initiative involving billions of dollars that has 
benefited both the Russians through the Khrunichev organization 
and Lockheed Martin and--as an example of how the private 
sector can work together in developing space launch 
opportunities.
    There has also been a very successful effort funded by the 
Department of Defense on the RAMOS program, which is fostered 
in--on the U.S. side, the Utah Russian Institute, and on the 
Russian side where we are building two joint satellites to 
build some confidence in the area of understanding when 
launches occur around the country.
    We are also, at the--again, at the suggestion of President 
Bush and President Putin, moving forward on missile defense. 
And there is currently a study by our Missile Defense Agency 
looking at the parameters of missile defense cooperation.

                          Proliferation Issues

    But I am going to talk for a moment about proliferation. 
And I want to remind my colleagues of some facts. We talk about 
the Iran Missile Sanctions Bill. I would remind my colleagues, 
the first time that bill passed the House and the Senate with 
veto-proof margins in both bodies, the President vetoed the 
bill. We had 398 votes in the Senate, 98 votes in the--398 
votes in the House, 98 votes in the Senate, and President 
Clinton vetoed the bill. In fact, I got called down to the 
White House twice by Vice President Gore, both before the House 
voted and before the Senate voted. And with Senate and House 
colleagues from both parties, we were lectured that we 
shouldn't pass the bill, and we did.
    Unfortunately, the blame doesn't all lie with the 
President, because Newt Gingrich wouldn't let us override the 
veto. We had the votes. We had the votes in the House and the 
Senate, and for reasons as yet unknown, in the fall of the year 
that Newt Gingrich went down, we could not issue the veto 
override, and we had the votes to do it. And Henry Sokolski 
knows that. So the bill was vetoed the first time by the 
President. And we came back the following year and President 
Clinton said, ``Okay, I will support it.'' And he came out at 
the beginning. In fact, the bill passed a second time.
    But I want to make the case that some of our own actions 
have caused the very proliferation that we rail about. In fact, 
Mr. Chairman, I did a--had a Congressional Research Service do 
a study in 1998, which I have put in the record probably five 
times. And I would be glad to put it in the record here. From 
1991 to 1998, there were 38 violations of arms control 
agreements by China and by Russia: 38 times, 20 by Russia and 
18 by China. Of the 38 times that we had evidence, according to 
the Congressional Research Service, of violations of arms 
control agreements, and our responsibility as a signatory is to 
let that country know that they are in violation and take 
action. We imposed the required sanctions less than 10 times. 
Now Mr. Sokolski knows this, because his group did a study 
looking at some possible options, less than the full 
requirements of treaty compliance or treaty requirements that 
could, in fact, be considered, but the Administration didn't 
want to hear that.
    So by our very inaction of not enforcing arms control 
agreements, when we knew there were violations, we encourage 
the problem. In fact, I carry around an accelerometer and 
gyroscope when I give speeches that we caught being transferred 
from Russia to Iraq three times. We had the evidence. The 
Administration knew about it and never imposed the required 
sanctions under the MTCR. So I would make the case that we, by 
our own actions, and in my opinion is it because we were trying 
to reinforce the status of Boris Yeltsin as President. And we 
didn't want to publicly acknowledge violations of arms control 
agreements in the '90's, because the Administration's 
overriding policy was to keep Yeltsin in. Even though we had 
evidence, time and again, of violations, we pretended that we 
didn't see it. We pretended we didn't see it with the missile--
with the gyroscopes and accelerometers, which I have examples 
of and which I asked Tom Pickering about when he was the 
Ambassador of Moscow. And he said, ``Congressman, you have got 
to go ask the President.'' And I did. And the President wrote 
me in March of that year, and he said, ``We have no evidence.'' 
And at the same time he wrote me, one of our intelligence 
agencies had over 100 sets of accelerometers and gyroscopes 
that we intercepted three times going from Russia to Iraq.
    So before we criticize, I think we have to understand that 
some of our own actions have, in fact, caused the problem. And 
the second example, I was on the Cox Committee, and I would ask 
Mr. Sokolski if he wants to respond to this. What about our own 
companies? I sat through seven months of closed briefings where 
I saw our own companies, again because the Administration 
lowered thresholds, sold technology to China. What kind of 
technology? Stage separation technology, technology for 
launching missiles. Now we are quick to blame Russia for all of 
the problems, and I am, too. I am Russia's toughest critic, but 
I also think we have to acknowledge that sometimes our own 
actions have sent very wrong mixed signals. In the case of 
China, we had instance after instance where--and Boeing just 
paid a big fine, where those companies from California were 
illegally transferring sensitive technology or got special 
exceptions made by the Administration to lower thresholds that 
allowed technology to go to China.
    So if you are in Russia and you see us not calling into 
play the violations that they know are taking place, and you 
see us on the other hand sending technology to China because 
our companies want to do that, even though that technology was, 
up until that time, prohibited, then I think we--certainly 
think you send a mixed signal. And talking about nuclear 
technology, Mr. Chairman, which you did, you are right. The 
Russians should not have helped Iran build the Bushehr nuclear 
power plant, but every time I raise that issue with the 
Russians, do you know what they say? ``Well, wait a minute, 
aren't you building one for North Korea?'' And what is the 
answer? The answer is yes.
    So the point is, when it comes to proliferation, yes, we 
ought to be critical of the Russians, and I am and will 
continue to be. And you are also, Mr. Chairman, but we are--
also need to be willing to look at ourselves squarely in the 
mirror and say, ``Maybe the problem is that we have a double 
standard ourselves.'' And then we ought to take that into 
consideration in all of our dealings with Russia and other 
agencies involving space.
    Thank you.
    Chairman Rohrabacher. You might want to just comment on Mr. 
Weldon's eloquent statement, I might add.
    Mr. Schumacher. If I could, Mr. Chairman, what I would 
offer is that whole--about how we push on compliance. You know, 
we talked a little bit earlier about for space cooperation, the 
threshold that--it is very important. We have--every time we go 
into one of these agreements, the Space Station is a great 
example of it, a very rigorous export control regime put in 
place. Our partners understand that when you put the lines in 
place and people understand that, they respond. And you 
really--you can get into even some very involved and high-tech 
cooperatives as long as you have clean lines and people are 
watching what they are doing and you enforce those.
    Chairman Rohrabacher. Mr. Davis, did you--Sokolski--Mr. 
Sokolski, Mr. Davis.
    Mr. Davis. The only thing I would comment on but in the 
early days circa 1990 and through the 1997 time frame, I think 
both sides of this were learning. I can tell you that it was 
exceedingly difficult as an industrialist to stay abreast of 
the law and our approach to interpretation of the law. My 
company went to extraordinary lengths, as do I know another of 
other--a number of other companies go to extraordinary lengths 
to place some technology transfer control regimes for their own 
companies so as to protect our employees first and our company 
second from being--becoming violators of all of the export 
control issues under ITAR and so forth. Sometimes it is a 
little hard to tell whether or not you are being completely 
compliant because those regulations are subject to some level 
of interpretation.
    Chairman Rohrabacher. Mr. Sokolski.
    Mr. Sokolski. We work together, though what I am going to 
say is just going to amplify what was said. First, two wrongs 
make two wrongs. The only difference now is the price of two 
wrongs is getting much steeper. I think this country honestly 
is going to be facing some security problems, the likes of 
which are actually going to be making me very, very worried. I 
was a happy camper for a long time, because things were getting 
better. But they are not getting better. And they are about to 
get a lot worse. So one thing we could do is listen to 
Congressman Weldon and stop simply being hypocritical and start 
taking these things seriously. I, and others, have recommended 
that Congress follow through on the Markey-Cox bill and unplug 
those damn reactors and ask the President to do it without 
legislation. Let us get on with that.
    In addition, I think it is very important that we set a 
good example with sanctions. And I am happy to say that most 
recently there is a tougher line. I have to speak on behalf of 
the State Department. They are taking a tougher line. It is 
very important that they not over-interpret or be malicious in 
how they interpret the law, but in some cases, they are right 
on target, and they are sanctioning even China now.
    Chairman Rohrabacher. Well, thank you very much, Mr. 
Sokolski. I got it right this time. Let me note that Curt 
Weldon has been just personally involved and so focused on this 
relationship that he really makes a major contribution. When he 
talks about sending the wrong signals, we probably did send 
wrong signals. There is no doubt about that. We now face 
decisions that--of how to proceed from here. And we have got--
there are ways that we can benefit greatly by cooperating with 
the Russians. And the question is can we do that in space and 
still remain consistent with our law? And if--and is that law 
still important for us to enforce? And that--so far, we are not 
necessarily saying that that law isn't important for us to 
enforce.
    And with that, there is a very active Member of this 
subcommittee who even has some legislation dealing with the 
particular issue of the day. And Mr. Lampson, you may proceed.

         Reliance on Russia While the Shuttle Fleet Is Grounded

    Mr. Lampson. Thank you, Mr. Chairman.
    We know that while the Shuttle fleet is grounded that, 
obviously, we are dependent--the United States is dependent on 
the Russian Soyuz and Progress spacecraft operating with a crew 
on board. And we believe that NASA needs to have as much 
flexibility as it possibly can have while the Space Shuttle 
fleet is grounded to ensure astronaut safety, and that is why I 
introduced H.R. 1001. And my bill amends the Iran 
Nonproliferation Act of 2000 to allow NASA to purchase 
additional Soyuz and Progress vehicles if the President 
notifies Congress that they are needed to ensure the safety of 
the crew aboard the International Space Station and to maintain 
its operational viability while the Space Shuttle fleet is 
grounded.
    With that being said, we will very likely talk about that 
some more. I still don't know what extent there is going to be 
support elsewhere, particularly among NASA. But let me go back 
to what Mr. Gordon was asking a few minutes ago and help me 
with some of my assumptions right now. Is NASA assuming, what I 
am getting out of this, that you and the other international 
partners will subsidize NASA and pay for Soyuz vehicles on 
their own? They are going to do this and we are not?
    Mr. Schumacher. I wouldn't call it subsidizing, Mr. 
Lampson. It is getting pretty involved, but I will try and make 
it as simple as I can, because it--we get into all of these 
agreements and it gets very, you know, bounded. So please--I am 
in the weeds on this a lot, so pull me back out if you need to.
    Basically, if you start with the intergovernmental 
agreement between the nations and you get all the way down 
through the space agencies to the implementing agreements, 
there is an implementing agreement between us and Rosaviakosmos 
that deal--we call it the balance agreement for shorthand. And 
what this is that between we and Rosaviakosmos at the end of 
the day, at the end of the program, what we cross between us in 
propellant, in power, take your pick, should be equal. And we 
went forward with some assumptions for the first five years of 
that program about what that arrangement would be, what--how 
much we would bring up on Shuttle, what they would bring up on 
Soyuz, how many Progress, and that type of thing. We work to 
keep things in balance.
    And so right now, we had been bringing up more than the 
Russians had using Shuttle. While we are on hiatus of Shuttle 
flights, we are counting on Progress. So the Russian side on 
that balance will start increasing. So at the end of the day, 
we are working across the balance over a several year period. 
They are not subsidizing us. They are meeting their commitment 
to that balance arrangement, as we will--as we go forward with 
the program.
    Mr. Lampson. Well, you are at--hold on a second. That is 
over time, and paying right now, paying between now and next 
year or the year after, they are going to carry that cost?
    Mr. Schumacher. Yes, sir.
    Mr. Lampson. And we are not going to be putting anything in 
it in--between Europe and Russia, the dollars necessary to 
perform those services will come from them, period?
    Mr. Schumacher. Yes, sir. Rosaviakosmos, the Russian 
Government phase their--we, in December of last year, in Tokyo, 
the partners met and decided on the plan for Space Station 
assembly for the coming year. Russia was committed to a certain 
number of Soyuz and Progress, and they had actually gotten a 
governmental budget to do that. Their budget for that whole 
year has now been phased forward to the first six months of the 
year. The government will meet again in the fall to decide on 
an increase for that budget in '03, and then they will look at 
an increase for '04 that is necessary. They are certainly 
waiting to see what happens with us when the Columbia Accident 
Investigation Board reports out and what it looks like for us 
to return to flight, as----

          European Participation and Contributions to the ISS

    Mr. Lampson. The agreement--or there is agreement that 
precludes Europe participating in that is not necessary?
    Mr. Schumacher. No, it is not. No. That is--forgive me if I 
am more opaque than usual. Europe, the way Europe comes in, 
Europe is committed to providing a laboratory and a number of 
other things. What they have done to actually help overall and 
to get more astronauts, their astronauts flying, they have 
actually purchased two seats at present, they may purchase 
more, from the Russians. One of those seats was to fly in this 
last Soyuz and another in the fall. What the Europeans have 
committed to, they stepped up and said, ``We will keep the 
money on track as if our astronauts were flying on--right now 
and in the fall. We will keep the money on track for that, but 
we will slip them six months.'' So Pedro Duque will now fly in 
October, and then a second astronaut will fly next spring. So 
the Europeans are keeping that money phased.
    Likewise, the Canadians are talking about a Soyuz flight 
opportunity, purchasing one from Russia in '04 or '05.
    Mr. Lampson. But is there a signed agreement that says how 
much Europe, Japan, Russia will pay?
    Mr. Schumacher. Well, the Europeans have signed agreements 
with Russia for those flights. The Canadians are in the initial 
discussion phase on that.
    Mr. Lampson. Old money or is that a new agreement? Old 
money? The old--is that something past or is that----
    Mr. Schumacher. No, this is----
    Mr. Lampson. Are those new agreements?
    Mr. Schumacher. Well, again, it is a bilateral agreement 
between the European Space Agency and Rosaviakosmos. These are 
agreements that are--have been signed this year, though. They 
are new agreements.
    Mr. Lampson. Thank you, Mr. Chairman.
    Mr. Schumacher. Yes, sir.
    Chairman Rohrabacher. And we have with us Ms. Bernice 
Johnson, who would like to join us. You may proceed.
    Ms. Johnson. Thank you very much, Mr. Chairman. I apologize 
for being late. I was on the Floor with the bill. And I would 
like to ask unanimous consent to have my opening statement put 
in the record.
    Chairman Rohrabacher. So ordered.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman for calling this hearing today. I would 
also like to thank our other invited guests for agreeing to testify 
here today on exploring the benefits and risk of U.S.-Russian 
cooperation on space programs.
    In years past, cooperation and competition between the United 
States and the former Soviet Union attracted much attention. In 1993, 
President Clinton made an historic decision to merge NASA's Space 
Station program with the Russian space programs.
    This symbolic change in policy had the potential to revolutionize 
the space program.
    The Columbia Shuttle disaster has handed Russia a crucial role as 
the sole nation capable of providing needed supplies to the 
International Space Station. But cash strapped Russian space officials 
say additional funding is needed to build new rockets. They also warn 
astronauts they may have to stay in space longer because of a lack of 
ships ready to fly.
    Because of the Columbia tragedy, many are concerned that NASA might 
choose to leave the Space Station unoccupied once the current crew 
comes down--a move that could possibly doom the 16-nation project.
    With prospects for future shuttle flights unclear pending the 
outcome of the investigation into the Columbia Shuttle disaster, 
Russia's Soyuz crew capsules and Progress cargo ships are now the only 
link to the Space Station and the three-man crew currently in space.
    Research and analysis has revealed that at current levels of 
support, Russia cannot sustain its space program in its present form. 
Since the dissolution of the Soviet Union in 1991, the Russian space 
effort has been coasting on strategic reserves, winding down from the 
higher energy levels of former times and cannibalizing the last pieces 
of redundant equipment. Yet Russian space officials hope that such 
measures can bridge the gap until the country's current political, 
social, and economic crises pass and funding becomes healthier.
    Russian officials and cosmonauts say leaving the International 
Space Station empty could doom the celestial outpost.
    With Russia's economic problems and the future of their space 
program left in doubt, the operation our multinational program is 
threatened. The present and long-term stability of the Nation's space 
program has profound implications for the future health of the American 
space program.
    The space exploration research program has been one of the most 
successful research programs in the history of this country. Because of 
what we have learned through this research, many lives have been saved, 
weather catastrophes have been averted, businesses have flourished and 
economies have boomed. I am hopeful that we will have the foresight to 
continue this type of research and continue to support the 
international space program.

                       Status of Russian Economy

    Ms. Johnson. Many years ago, I traveled to Russia to talk 
about this very issue with the Russians and members of the Duma 
with Mr. Sensenbrenner. And at that time, the economy was so 
bad, as a matter of fact, they were having demonstrations from 
scientists who had not been paid in this program. The economy 
was supposed to be so bad until they were asking us to fill in 
until the economy got better. What is the situation now? Mr. 
Schumacher.
    Mr. Schumacher. Yes, ma'am. I will be glad to answer.
    There are two parts. Understanding first on the economy, 
there are still problems and issues with the economy, but I 
think it certainly better than when you were there with 
Chairman Sensenbrenner. With regard to funding for the agency 
and through the government, they have established a track 
record of a very lean budget for Rosaviakosmos and other 
Russian organizations under the government, but they have met 
those budgets. And so we've seen when they--what President 
Putin, when they say, ``Here is the Russian Space Agency budget 
for 2003, they get that money. And that is why we have a--
obviously, as always, will wait and see that it really occurs, 
but the money is being phased forward. They are talking about 
an increased budget for this year, and the President has 
committed to that. So those are all pretty sound indicators of 
where they are going.

                       Russian Political Changes

    Ms. Johnson. It was my understanding that one of the 
reasons why it was important to keep Mr. Yeltsin in office is 
that he was strongly for democracy, and they were teetering on 
whether they wanted to go forward or go backward. What is your 
opinion of that?
    Mr. Schumacher. On democracy? I certainly vote democracy. I 
certainly always defer to State for the official answer. I can 
tell you, though, as we watch, we can--we watch a continual 
evolution of people that get more and more vibrant about 
contracting, about wanting to do contracts with, especially, 
American companies, with people that want to interact on a 
scientific level. I mean, the push just seems to continue, and 
it is a very gratifying thing to watch. Are there stumbling 
blocks? Are there problems? Sure, there are. But it is a great 
thing, and I have been fortunate to watch. It is the first--
really, the first cooperative steps in a while in the '91/'92 
time frame that we have had. And sure, we have had some tough 
times in different places, but it is a very gratifying thing to 
see everything from, you know, demonstrations to different 
religious groups out there, to people coming and saying, ``Why 
do you do a contract like that? We think this is a better way 
to do one.'' Where before they would just nod because you 
handed them all of your contract clauses and that type of 
thing. A long way to go, but it--you know, I think the signs 
are positive.
    Ms. Johnson. Do you think--in your opinion, is there a 
relationship between Saddam Hussein and Russia since his family 
was supposed to go to Russia just before Baghdad was bombed?
    Mr. Schumacher. Well, I have my own opinion on that, but--
--
    Ms. Johnson. I have mine, too.
    Mr. Schumacher [continuing]. I can certainly provide that 
to State, though, and get you an answer.

                  Dependence on Russian Support to ISS

    Ms. Johnson. Um-hum. I do have some security concerns. And 
I wonder about the opinion of any of you as to whether--not 
whether it is wise, I think it is wise to continue the program. 
But how far do we go into our dependence with the Russian 
Government while we are waiting to get all of the answers over 
the Columbia crash?
    Mr. Schumacher. Well, the redundancy we always claim for 
Space Station was we were there if Russian Soyuz and Progress 
couldn't go, and likewise, they were there if we couldn't. So 
right now, we are dependent on the Russian Soyuz and Progress 
until we return to flight.
    Ms. Johnson. But we have enough safeguards in place that we 
are not too worried about any security?
    Mr. Schumacher. Yes, ma'am. We--yes, ma'am, I thank you for 
that question, because there were a lot of concerns expressed 
early on, and we actually got an interagency group together to 
say, ``Here is an interactive program with 15 and 16 nations 
building, many more countries are going to do research. We need 
to put in place a rigorous export control tech transfer regime 
force for Station on the U.S. side.'' And we have done that. 
And we continually monitor that, and we bring in other folks to 
look at it. So I think we are good there.
    Ms. Johnson. Thank you, Mr. Chairman. My time is expired.
    Chairman Rohrabacher. And we are joined by Ms. Sheila 
Jackson Lee and who is always very articulate and involved, and 
we would welcome you to proceed with your questions.
    Ms. Jackson Lee. Mr. Chairman, I cannot thank you enough 
for holding this important hearing and of course to the Ranking 
Member for collaborating on the important points.
    Might I ask the unanimous consent to include my statement, 
my opening statement, into the record?
    Chairman Rohrabacher. Without objection.
    [The prepared statement of Ms. Jackson Lee follows:]
        Prepared Statement of Representative Sheila Jackson Lee
Mr. Chairman,

    Thank you for calling this hearing. Obviously, we all are anxious 
to hear the Gehman Report on the Columbia disaster and what the 
Columbia Accident Investigation Board recommends for the future of the 
Space Shuttle program. It is tempting to just wait for the report, and 
maybe start making decisions after we read it. But that could be a 
grave mistake. I applaud you and Ranking Member Hall for keeping the 
dialogue active--for seeking alternatives and contingency plans, so 
that no matter what the Gehman Report reveals--we can ensure that the 
U.S. vital investment and progress in space exploration can continue.
    Since the Apollo and Soyuz spacecraft docked in 1975, the United 
States and Russia have had a wonderful collaboration in space that has 
been a great benefit to both nations and to the world. Although that 
initial collaboration was mostly an act of diplomacy between the U.S. 
and the former Soviet Union, today's interactions have much broader 
significance for the advancements of science, our economy, and even our 
health care. The most obvious symbol of our great collaborative effort 
is the International Space Station. We have invested decades in 
planning, and billions of dollars to make this great dream a reality. 
Now we are poised to start harvesting the great potential of that 
facility.
    But, unfortunately, the Space Shuttle Columbia tragedy has put the 
future of the ISS at risk. The Space Shuttle serves as an agile craft 
for delivering delicate instruments and crew to the ISS, and also a 
powerful device for lifting heavy equipment and components into orbit. 
I hope that the Gehman Board will give us some definite answers, and 
quick-fixes for getting the shuttles up and running. However, we cannot 
bet the future of the International Space Station on that hope. If the 
Shuttle fleet is grounded for 32 months, as it was after the Challenger 
accident--or indefinitely--we must be ready to step up with all the 
creativity and ingenuity that NASA and the world have to offer to keep 
the mission going.
    The Soyuz craft seems to be the most likely choice for filling the 
potential void in the near future. As I, and many of my colleagues 
here, have been saying consistently--we need to see a thoughtful vision 
for the future of the NASA mission, from the NASA Administrator. Once 
that vision is articulated, I feel that the technology and innovation, 
projects, and funding will fall into line. But until they develop the 
big picture for the future, we need to use the tools we have at hand to 
keep critical programs moving forward. The Soyuz may be one of our most 
important tools for the next decade.
    I look forward to hearing from our distinguished panel today to 
learn about the U.S.-Russian collaboration in space. Specifically, I 
hope to hear about how NASA is working with Russia and our other 
international partners to ensure that if we need a Soyuz craft or its 
services, that we can get it. Maybe this is not a crisis today, but we 
should have agreements and understandings in place, so that we can 
avoid a crisis in the future.
    My greatest concern is that if we put off making contingency plans 
now, that we may be rushed to do so later. If we are in a rush to get a 
Soyuz funded and manufactured, after we become faced with the prospect 
of abandoning the ISS--we may not have enough time to give due 
attention to safety issues. If there is a chance that we are going to 
end up counting on the Russians exclusively to provide transportation 
to and from the Space Station, I believe we should have agreements in 
place that would allow us to collaborate on monitoring the quality and 
safety of the product we are purchasing. Our Russian colleagues have 
done an admirable job in the past, but ultimately it is we that are 
responsible for American astronauts and their safety.
    That is why I feel we should be laying the groundwork for that 
collaborative work now. We should be exploring funding mechanisms, 
purchasing agreements, and the implications for the Iran 
Nonproliferation Act, now. We must cover our bases, so that if we do 
not get the answer we hope for from Admiral Gehman, we can move forward 
expeditiously to get a safe Soyuz craft ready, if deemed appropriate.
    I hope progress is already being made on this front, since we have 
been inquiring for months now. I look forward to the testimony. Thank 
you.

                 Russian Commitments to Support the ISS

    Ms. Jackson Lee. Let me also acknowledge, Mr. Chairman, 
that I was in some additional meetings in my office and on the 
Floor, and I accept the fact that I have had the opportunity to 
review the testimony. I apologize for not hearing the 
testimony.
    I think that we have sort of mountains to climb. And one of 
them, of course, is that we hope we can impress upon the State 
Department the importance of their witnesses being present in 
hearings that have a lot to do with the International Space 
Station and our relationships with our neighbors and our 
partners. And so I hope between the Ranking Member and the 
Chairman that we can impress upon them the importance of that 
fact.
    We are all waiting on the Admiral Gehman's Report on the 
Columbia investigation. And I think, learning through newspaper 
releases, of course, more than we thought we might learn, but 
more importantly, we are probably learning a lot on what many 
Members had suspected, that we have some very serious problems 
as it relates to safety, serious problems as it relates to 
funding, serious problems as it relates to analyzing what, in 
fact, the Shuttle's capacity happens to be and how we can 
ensure the safety of our astronauts.
    But let me focus on the U.S.-Russian cooperation, which I 
think partly goes to the question of safety, because it 
certainly has a lot to do with resources and a lot to do with 
the stability of the space program. Might I acknowledge, of 
course, the help that Russia has given us in the past? Might I 
also acknowledge that we realize the economic conditions in 
Russia and some of the problems that they have had?
    But let me bring to your attention, Mr. Schumacher, a quote 
by the President and President Putin just recently. ``The 
Russian Federation is committed to meeting the U.S. crew 
transport and logistics resupplying requirements necessary to 
maintain our joint American and Russian cosmonaut teams on 
board the ISS until the Space Shuttle returns to flight.'' My 
question to you, does that statement mean that Russia has 
formally agreed to pay for all of the Soyuz and Progress 
flights needed to support the International Space Station while 
the Shuttle fleet is grounded? Has Russia agreed that it will 
not seek compensation from NASA, or any of the other 
international partners, for those Progress and Soyuz flights? 
And if not, what, in specific terms, does the release mean?
    We have challenges before us, so we certainly--I know you 
have already offered your appreciation for the last return that 
was assisted by Russia, but exactly what does that statement 
mean? And is the Administration prepared to make good on that 
commitment, meaning are they prepared to press the Russians to 
make good on that and to remain engaged so that we can have 
that assistance?
    Mr. Schumacher. Yes, ma'am. Thank you very much for that 
question. If I could start with your last point. Certainly, to 
us, we, at NASA, were very impressed that both Presidents, when 
they look at a limited number of issues that they are going to 
address in joint statements, the civil space and in particular, 
the commitment to Space Station is something to be highlighted 
at the summit. So that was impressive to both of us.
    I can tell you with regard to Russia's plans, what will 
Russia do and how does it work out with cost and that type of 
thing, we have a balance arrangement with Russia as part of the 
Space Station agreements, all of the implemented agreements. We 
looked throughout the overall program that we and Russia will 
balance what we provide in the sense of logistics, electricity 
on board the Station, all of the types of things that make the 
Station operate, up-mass, downmass, all of those types of 
things. While we are in a hiatus of Shuttle flights, Russia 
will supply using Soyuz and Progress both crew and robotically, 
you know, crew and then other supplies.
    Ms. Jackson Lee. So that is a yes that they will provide 
that in the interim?
    Mr. Schumacher. Yes, ma'am. They are planning that, and we 
have a partnership-approved plan through the rest of '03 and 
into '04 that lays out Soyuz and Progress. Now they, like we, 
await the results of the Columbia Accident Investigation Board 
and the planning for return to flight to look at how long we 
will be in hiatus with Shuttle. Certainly, we could get well to 
the point where Russia is supplying and supplying so their side 
of the balance goes beyond what we have provided. But we would 
look to work that out in the overall context of the whole 
program, not by near-term funding.
    Ms. Jackson Lee. Well, they have a deficit to us at this 
point, don't they? I imagine that we could utilize their 
services for quite a period of time without having to pay them. 
Is that what you are telling me that you are going to be 
balancing out?
    Mr. Schumacher. Yes, in the sense of logistics and crew, 
the balance is, if you did a scale, our scale is heavy right 
now. That is correct.
    Ms. Jackson Lee. And I see my light is on. It says you are 
going to be working out the specific terms of the agreement, 
and so I can assume this will go forward?
    Mr. Schumacher. We keep on looking at how much we are 
consuming on Station and what that Progress flow needs to be in 
the time when the Shuttle is down.
    Ms. Jackson Lee. Mr. Chairman, this is to you and the 
Ranking Member. I say this at every Space and Aeronautics 
Subcommittee is safety, safety, safety. And I assume we are 
trying to follow protocol with respect to the Gehman Report. 
But I believe that it is long overdue for this committee and 
the Science Committee to investigate thoroughly what occurred 
to Columbia's seven crew quickly and to not be fearful of 
citing those and the procedures that may be at fault in that 
tragedy.
    I thank you very much, Mr. Chairman. Hopefully we will have 
that hearing very soon.
    Chairman Rohrabacher. Thank you very much. I might also add 
that you not only talk about safety, safety, safety, but 
inclusion, inclusion, inclusion. So that is another one of your 
battle cries. So we appreciate that.
    Now we have--for a question--or for a period of time, Mr. 
Burgess, who is a new Member who actually heard the sonic boom 
of the Shuttle when it was coming down, the Space Shuttle 
Columbia. Also, he was active in trying to work with those 
people who were putting together the wreckage after this 
catastrophe. And he now is a Member of our committee. We are 
very happy to have him with us.

                  Safety of the Russian Soyuz Vehicle

    Mr. Burgess. Thank you, Mr. Chairman, and thank you for 
holding this hearing today.
    Mr. Schumacher, if I could go back, perhaps, to Ms. Jackson 
Lee's concern about safety, and of course, with the loss of the 
Columbia, we have had our astronauts from the Space Station 
return to Earth via the Soyuz capsule. And it didn't get a lot 
of press here, but as I understand it, there was a fairly 
harrowing return to Earth, and they did land somewhat off the 
mark and it took awhile to locate them. Are we putting any 
procedures in place for the contingency of that maybe having to 
happen again and perhaps providing some type of locating 
beacon, satellite telephone, GPS receiver, any of that 
technology that may facilitate the location of our astronauts 
when they land?
    Mr. Schumacher. Yes, sir. I can tell you I was over there 
with the Administrator and other Members of the NASA 
delegation, and it certainly was a very tense period until we 
were really clear that the crew was there and safe and they 
were returned and we met with them. To your point, several 
things, and I think this speaks to--on the cooperative aspects 
and how close we have become in the way we operate. The 
Russians have done an internal review on what anomalies 
occurred on that Soyuz return. And it--you are exactly right. 
It did not come in on exactly the path they had. They had 
three, pick your term, of off-nominal loads, and it came in on 
one of those. They have identified what they think is the 
source of that. Now they are going to a review group on that, 
and then they will share those results with a U.S. task force 
led by Lieutenant General Tom Stafford. And he works--he has a 
U.S. task force set up that works closely with it. A task force 
set up by, on the Russian side, by Anfimov, and they will 
review those results, both for what went wrong to understand 
it, corrective action, as well as the very types of things you 
are talking about. What other things we--should we need giving 
to the crew so they are easily located, improve safety, that 
type of thing. And General Stafford will be over there at the 
end of this month.

                          Technology Transfer

    Chairman Rohrabacher. All right. Well, thank you very much. 
I am going to have a final round of questions here, because 
we--several of us have a couple more questions to ask, and then 
we will bring this to a conclusion.
    I would like to just focus a little bit on--we know now 
that there is a hurdle that we must jump over in order to 
expand the type of cooperation that we have with Russia. Let me 
note, especially in regard to some of the comments that Mr. 
Weldon made, yes, our companies did a great disservice to our 
country. And I believe that they--some of our major corporate 
leaders--betrayed our country's national security interests 
when we transferred rocket technology to the Communist Chinese. 
That was wrong. But as I mentioned earlier, let us note that 
the Communist Chinese, there has not been one inch of political 
reform in China. And the Chinese Government is still controlled 
by a hard core clique of authoritarians. And in Russia, Russia 
has been going through a very--a time of uncertainty. And to 
the degree--and also let me note, there is very little reason, 
and you might--and I might throw this to the panel. In terms of 
the transfer of American technology to the Russians, our 
cooperation, actually, opens up the door for us to receive more 
technology from them than they do from us. Is that not the 
case? Mr. Davis or whoever wants to----
    Mr. Davis. I would be happy to address that one, and I will 
speak in the realm of propulsion.
    If you go back in '93, we were reluctant after the power 
plant fire to entertain engine cycles that had anything to do 
with an oxidizer rich--I don't want to get too technical here.
    Chairman Rohrabacher. That is very technical.
    Mr. Davis. The consequence of that is, however, that the 
Russians, who had different experiences, developed engine 
cycles that selectively provide about 15 percent better 
performance than what has been enjoyed by the United States. To 
that extent, it was a scientific, technical, philosophical 
different of approach--different approaches. And as a result of 
the work that was undertaken beginning back in 1990 were the 
United States have technologically benefited by having gained a 
lot of insight into what the Russians did. Their engines are, 
in certain cases, more highly performing.
    Now the consequence, or the consequential benefit to us 
today is we, having now gained the insight into some of their 
approaches, system approaches, and the ways in which they 
accomplished those outcomes and have then thereby built fairly 
reliable, meaning quite reliable, safe engines, has been, in 
fact, a benefit to us. And we see, routinely, the incorporation 
of some of those viewpoints and technologies being incorporated 
into our own engine aspirations.
    Chairman Rohrabacher. Well, that is my reading. And Mr. 
Sokolski, maybe you have a different reading of that.
    Mr. Sokolski. No, I think that is true. Unfortunately, 
there are other things that are true, too. That is the problem. 
Russia is helping build missiles for India. India just signed a 
military cooperation agreement with Iran and is talking about 
exporting its missile technology. Iran, meanwhile, is not just 
getting covert missile assistance from Moscow, it is also 
overtly buying Russian satellites and Earth tracking stations 
that could help it and others target their missiles against our 
friends and forces abroad. Moscow knows this but continues to 
claim that all of its space commerce is peaceful. So I mean, 
the problem is that we don't gain, it is that others gain.
    Chairman Rohrabacher. Okay. Let us note, then, that what we 
are talking about here is fundamentally different than the tech 
transfer problem with China. Transferring technology--we--with 
the China relationship, we are concerned about an American 
gyroscope, for example, that we spent hundreds of millions of 
dollars in developing, ending up in the hands of the Communist 
Chinese for almost nothing. We are worried about, for example, 
the other stage separation technology and the multiple payload 
technology that we have now in the possession of the Communist 
Chinese. They didn't pay a cent to develop it.

            U.S.-Russian Rocket Engine Technology Investment

    However, with the Russians, what we are really talking 
about is technology that they invested a great deal in back 
during the Cold War and it is helping us whether or not we are 
going to be taking advantage of that, considering that they 
have some policies and some other trade policies that are 
detrimental to us. So it is a--that is--it is not an exactly 
juxtaposed national security issue. I would suggest--and let me 
ask Mr. Schumacher this, NASA is, for example, planning to 
spend, is it not, up to $350 million over the next five years 
in developing a new rocket engine that is arguably less 
efficient than a rocket engine already available and available 
to us at a very cheap price from the Russians. And why is it 
that we should be spending $350 million of our development 
money to develop what the Russians already have? Should we be 
using that money on newer technology?
    Mr. Schumacher. Yes, sir. Thanks for that question. If I 
could clarify. First, if I could just touch real quickly on 
your other question, because----
    Chairman Rohrabacher. Right.
    Mr. Schumacher [continuing]. I think it feeds right into 
it.
    Chairman Rohrabacher. Go right ahead.
    Mr. Schumacher. We have got a tremendous amount of benefit 
from the cooperation with Russia. One of the key things I would 
highlight, there are a lot of things like the Universal Docking 
Adapter that we use on Station now for the different vehicles 
and the Europeans are using. We got it from the Russians. One 
of the most important things is the--very much what you talked 
about. They developed on a whole different path, and they have 
a lot of dissimilar systems for safety, for propulsion, for 
ops. They just come at it a different way. And so it provides 
redundancy, but redundancy for a function in a different manner 
than we would have. And I can give you a bunch of examples, but 
I won't eat up the time now. But it is a great add to the 
program.
    Also, a lot of experience in human long duration space 
flight. And there are other things, like--that we think and we 
will come forward and work very carefully through. But there 
are other parts of our program that we don't think are 
precluded under Section 6, because they are non-human space 
flight related. For example, in response to an RFP, for Project 
Prometheus, our nuclear systems initiative, Stanford has come 
forward with a proposal to buy thrusters from a Russian entity 
that they think can help in that program. We think we have to 
vet it through the interagency process. We think that may well 
be allowable and in accord with the INA, both the letter and 
the spirit of the law. Again, something Russia has that we 
think will be of benefit to our program in technology.
    With regard to the rocket program, though, it is a great 
question, because it shows all of this push and tug we are 
talking about. The Russians have some tremendous capabilities 
in rocket engine propulsion, and I think Mr. Davis has talked a 
lot about that.
    And certainly, there have been some great marriages of 
joint venture types of things with American companies to make 
those work. Rosaviakosmos has really worked with some of the 
Russian agent manufacturers, such as those teaming with 
American companies to try and come forward and successfully 
compete for contracts, including NASA contracts. The one in 
particular you are talking about, I believe, and I will double 
check when I go back, but there are a series of contracts. And 
a Russian-American joint venture competed in two of those and 
was unsuccessful. The third phase of this actually comes this 
fall. When the--these were technology looks and technology 
developments. The actual development of the engine contract 
will come later this fall. And they are welcome to bid, as is 
any other joint venture or American company that meets all of 
the other criteria for export----
    Chairman Rohrabacher. But would they be precluded because 
of the nonproliferation legislation?
    Mr. Schumacher. Again, sir, we would have to--on the facts 
of the contract, go forth, but because it doesn't appear to be 
human space flight related, we would think they could compete 
and go forth. And it would be--but I am working with----
    Chairman Rohrabacher. That is fascinating. That is 
interesting. All right. I--let me just note that, again, the 
Chinese and that whole scenario were the recipients of American 
technology, and thus, we upgraded their ability to hurt the 
United States. In this case, we are talking about limiting the 
United States of our ability to take or partake of Russian 
technology for our financial benefit and our ability to get the 
job done.
    I would now like to turn to Mr. Gordon and Mr. Lampson, if 
they have some other things to finish this off with.
    Mr. Gordon. Thank you, Mr. Chairman.

       Russian Budget Commitments for Progress and Soyuz Vehicles

    First, let me say I think that NASA has done a good job of 
cobbling together a Soyuz/Progress program for the rest of this 
year. Everything has to go perfectly, but, you know, at least 
you have got a plan there. And hopefully it will go perfectly. 
Once again, I am concerned about next year. And I want to try 
to get some clarification on our earlier conversation.
    Now as I understand it, in September, the Russians will 
make a--their budget decision as to whether or not they are 
going to allocate funds for this next year. I am just going to 
go ahead, just for brevity, go through it. And Mr. Schumacher, 
if you think I am off somewhere, then just let me know, 
otherwise, I am assuming you are concurring.
    Mr. Schumacher. Yes, it is--that is--the objective is for--
we understand, is for increased funding for this year and then 
what increase would be made on top of the budget already 
planned for 2004.
    Mr. Gordon. Okay. Now come September, I think it would be 
reasonable, or not unreasonable, to look at history and see 
where the Russians have reneged on past promises. It would not 
be unreasonable for them to come forward and say, ``We want to 
help. We think it is important to help, but we have a lot of 
hungry people at home, and I may lose my, you know, 
constituency here if I don't give them food rather than a 
spacecraft.'' So I think that is, you know--hopefully that 
won't happen, but that is not an unreasonable thing to 
consider.
    Now as I understand, if that occurred--earlier, you stated 
that--if that were to happen, you would seek relief.
    Mr. Schumacher. What I believe NASA would do is go first 
and foremost to the partnership, because we have had great 
success with solving these things within the partnership.
    Mr. Gordon. You say great success. All I know is they have 
bought some additional seats, but they already did that before 
this accident occurred. So I am not seeing a lot of great 
success here.
    Mr. Schumacher. Well, again, certainly it might be the 
perspective we have on it, but for the Russian Government to 
step in and forward fund--increase funding coming next year----
    Mr. Gordon. All right. Well, that is being done, but 
again----
    Mr. Schumacher. Yes, sir. For the Canadians to come forward 
and look to buy a seat that they had not planned or seats, 
Europe to look at--to sign----
    Mr. Gordon. But they would not have done anything.
    Mr. Schumacher. Well, they have signed the contracts, and 
then they are looking at additional seats beyond----
    Mr. Gordon. But the ones they have done, though, weren't 
they before the accident, so this is nothing new?
    Mr. Schumacher. The two European seats, it is correct that 
they were contemplated before the accident. But what they have 
done is they have signed the contracts and kept the funding on 
track as if the people were flying in April and in October when 
they are flying in October and----
    Mr. Gordon. Right. Right. But it is no new money. So you 
know, again, if you don't want to look at this, then just 
don't. But I mean, we--somewhere, we have got to be responsible 
here. I mean, it may--sure, the goodness you recognize that 
there is a--you know, a fairly good chance that this fall the 
Russians are going to say, ``We can't afford to do this.'' The 
Europeans are saying--well, could say, ``We have stepped up 
already. We don't feel like that we can subsidize NASA any 
longer.'' Now if that occurs, then, as you said, you are going 
to have to seek some kind of relief. Now again, that relief may 
be trying to get the partners to do even more, but if they 
choose not to, then you are stuck with the situation of the 
Iran Nonproliferation Act in terms of us having to help the 
Russians pay for this.
    Now either the President has to certify that there is no 
proliferation, which I think could be tough, not necessarily 
because there would be, but it might be hard to have the 
intelligence to say that, or you are going to have to come to 
Congress for, as you said, relief. Now I just want to sort of--
you know, hopefully you know these things, but let us get them 
out on the table. If these decisions are going to be made in 
September, even in September, they may say they are going to do 
it, but wind up not having the money next year, then by our 
calendar, we are supposed to be out of here October the 3rd.
    Now we were also supposed to have been out October the 4th 
last year. Nobody really thinks that we are going to get out on 
October 3. So I mean, I have about as much confidence of 
getting out on October 3 as I have confidence that the Russians 
and the Europeans, you know, are going to pay or underwrite 
NASA. So I mean, I think that we all need to think of these 
contingencies. So you know, the deadline really isn't October 
the 3rd, but hopefully we are going to be out of here, you 
know, by the end of October. So you really get a pretty narrow 
window. And somewhere, you have to--you know, and I don't think 
Congress is going to be too happy with you coming up here and 
saying that you have got to go through the full legislative 
process and--in a week or something to give us this waiver. So 
there really has to be, I think, some type of a contingency 
plan put in place.
    Mr. Schumacher. Yes, sir. First, it is not government 
meeting in September to watch. I mean, the flow on these 
vehicles starts 20 to 24 months out. So we can see the Progress 
is in flow. We can see the Soyuz is in flow. And the Progress 
and Soyuz, to meet that plan, are in flow. Now if they need--if 
we need----
    Mr. Gordon. For this year?
    Mr. Schumacher. Yes, sir. And----
    Mr. Gordon. I am talking about next year.
    Mr. Schumacher. No. Yes, sir, and '04, too, because their 
flow is there now. If they need to add those additional 
Progress in '04 like we are talking about, you are going to 
have to start to see that flow start, too. And we will watch 
for that. So if there is a funding--if they don't come through 
with the funding they are talking about in September, that is 
the first thing we would watch, and then we would have to go 
forth with that. But it is----
    Mr. Gordon. Yeah. What would you do? Okay. I mean, what is 
your plan? What would you do?
    Mr. Schumacher. What would be the plan? Normally, we would 
have the time, because we are talking almost----
    Mr. Gordon. You plan to do what? I mean, you tell them to 
do what?
    Mr. Schumacher. Again, I would go to the partnership first.
    Mr. Gordon. Okay. Then if that----
    Mr. Schumacher. Talk to the partnership, and then if--the 
last resort, and we would look at different operational things, 
again, when do we return to flight. We would then, the last 
step or the last thought we would have is come to the Congress 
and ask for relief on INA. And I think that would be a judgment 
we would have to really consider before we do.
    Mr. Gordon. Yeah. I don't think that is unreasonable. I 
just want you to think about it. And I will quickly close by 
this saying that once this crisis is over with, then we get to 
the fact that in 19--whether--in 2006, we have to do the whole 
works. And at which time, we, once again, get to the situation 
of either changing the nonproliferation pact or we are going to 
have to hope that our partners are going to subsidize NASA, you 
know, for four or five years. You know, I just don't think that 
is reasonable to assume. And I just want all of this on the 
record. I want it all, you know, there so that we don't play in 
kind of, you know, games. You know, at home--well, I won't 
get--I guess----

                         U.S.-Russian Relations

    Chairman Rohrabacher. Mr. Gordon, I would suggest that 
there is another alternative. And that is if we send the 
Russians the right kind of signals that they will change their 
behavior. And that--as Mr. Weldon suggested, maybe some of 
these agreements that they got into could have been either 
because of economic necessity, they were really starving when 
they got into some of these agreements with Iran, or it could 
be mixed signals that we sent them in policies for the last 10 
years where our own people were upgrading Chinese missiles, et 
cetera, et cetera. And the other alternative that would make 
this happen and would make it work and really launch this--a 
great relationship that would be beneficial to both, if the 
Russians could change their basic behavior and not be 
proliferaters and decide that they are going to make more 
profit from dealing with the United States and our Western 
allies as partners in a space enterprise rather than trying to 
build rockets for the Indians or the Iranians.
    Mr. Gordon. Okay. But Mr. Chairman, are we going to say, 
then, that we are prepared to let the Space Station not have 
any Russian support, which means that the Space Station, then, 
would be unmanned if they don't act right?
    Chairman Rohrabacher. That is a very tough challenge, isn't 
it? And you are right. No, no. This is something we have got to 
pay absolute attention to, and it is not something that we can 
take for granted. But it is something that we all have to work 
together on. And I am just sorry that our State Department 
representative was not here to participate in this discussion.
    Mr. Lampson is, again----
    Mr. Schumacher. Could I have just a moment just to respond 
to that----
    Chairman Rohrabacher. Sure, go right ahead.
    Mr. Schumacher [continuing]. Just very quickly? And I know 
we are at a rush for time.
    First of all, when we talk about subsidizing the United 
States program, I can tell you, it is a welcome change from 
talking about subsidizing the Russian program, but still, it is 
just as worrisome. Because again, we do this a lot. We get into 
this whole conversation, and then when we step back, we say, 
``Look at how much America is putting into this Space Station 
program.'' We are a huge player. We are the biggest partner in 
this program, and we don't trump around and push that around, 
but the fact of the matter is----
    Mr. Gordon. But are we doing more than we said we would?
    Mr. Schumacher. Are we doing--in different areas we are, 
and in different areas----
    Mr. Gordon. Right now, are we doing more than we said we 
would?
    Mr. Schumacher. In--overall, in the agreements? You mean 
the overall----
    Mr. Gordon. Yeah. I mean, you say we were doing so much, 
but are we doing more than we said we would?
    Mr. Schumacher. I think we are doing what we contemplated.
    Mr. Gordon. Okay. So we are not really doing more than we 
said we would. You know, if we are doing that much, then I 
guess that means we have more to lose than anyone if the Space 
Station is not manned. And so it would seem that our 
negotiating position, then, is less with everyone else, if we 
have the most to lose.
    Mr. Schumacher. Well, I want to be the--but what I would 
say, though, on that is, again, I would not underestimate this 
partnership and--for example, crew--in 2006, crew beyond three. 
There is no reason that we can not adjust what each partner is 
bringing. Russian--Russia could step up and provide the second 
Soyuz, if they wish. We could provide more up-mass or 
downmass----
    Chairman Rohrabacher. Well, let me know, Mr. Schumacher. 
You are looking at the number one Cold Warrior that you will 
ever meet. I mean, I was the speech writer for Ronald Reagan, 
and I am not going to go into any details about which speeches 
I wrote, but they were pretty raw meat compared to what most 
people put out at the time.
    The bottom line is, however, times have changed. And we 
have tremendous opportunity to work with the Russians and--but 
we have to do it realistically. And we cannot hedge, Mr. 
Sokolski, I am sorry. I have a, you know, road block right in 
your name there, a block about your name. But no, you have been 
very--you have been--what you are saying is very reasonable. We 
have got to be responsible, and we have got to be realistic, 
but the potential is tremendous----
    Mr. Sokolski. Right.
    Chairman Rohrabacher [continuing]. If we can convince the 
Russians to live in a responsible way.
    I have to go to Mr. Lampson now.

              Clarification on Russia's Commitment to ISS

    Mr. Lampson. I feel like I am sort of getting the 
impression that we are not getting everything. And we are 
having a terrible perception that, in my opinion, is being left 
through this kind of discussion. Somehow, you all have to find 
a way to help, at least people like myself, clearly and easily 
understand where the money is coming from and where it is 
going. I believe the people of this country want to support 
programs like this. We--you have heard it a thousand times from 
the folks that sit on this panel up here how much we want to 
support NASA, how much we want to do because we believe in what 
we can learn by being in space. It is almost as if somebody is 
trying to play a game, use artful words, cheat, lie to us. And 
that is very angering and frustrating. And there is no need for 
it. We are on the same team. But let us play. So come to us 
with simple answers. And tell us that the dollars are coming.
    How can you explain this statement that came out in the 
NASA bimonthly Russian performance report that got here on June 
the 10th? It says, ``Although European, Japanese, and Canadian 
partners have proposed new limited commercial arrangements,'' 
those flights, ``Russian Aviation and Space Agency officials 
have said that the funding is not sufficient to address all of 
the proposed resupply activities.'' You didn't answer the 
question of where those dollars are going to come from for 
Russia. You didn't answer Ms. Jackson Lee's question: has 
Russia agreed that it will not seek compensation from NASA or 
any of the other international partners for those flights while 
Shuttle is grounded? Give us the simple answers so that we can 
understand, and we don't have to try to fight or sit here and 
look stupid or silly.
    Mr. Schumacher. I am not communicating well.
    Mr. Gordon. You can come out in the audience to do it, too.
    Mr. Schumacher. Not a problem. I guess I am trying to think 
of the way to describe this, because I think I understand it, 
but I am not saying it very well. Maybe if I start with there 
is a baseline of the Soyuz and Progress for this year and next. 
There is an approved plan of what the upper limit might be, of 
what we might need. When I see a statement--when you see a 
statement like that, that is a conservative statement that says 
if we have got to go to an upper end, additional resources may 
be needed. Now we would look to Russia to provide those, and we 
would look to the assurances of the Presidents and that type of 
thing. But there is a baseline program, which we are on path 
which we think meets the needs to keep the Station manned and 
operating. That is a partnership-agreed plan----
    Mr. Lampson. You think that. But if it doesn't happen, you 
are going to have to come here and take a long period of time 
for this body to go through a process to get you the 
permission, the okay, to do it. And that is why we asked for a 
simple support for our legislation that would give the 
flexibility for our government to be able to do what was 
necessary to keep those people safe.
    Chairman Rohrabacher. And it would be on you, that 
legislation?
    Mr. Lampson. I just happen to----
    Chairman Rohrabacher. He just happens to----
    Mr. Lampson. It is not hard to see whose names are on it.
    Mr. Gordon. Mr. Schumacher, some of the questions we have 
asked are in the ones that I have presented to Mr. O'Keefe 
earlier, and once we get these, maybe we--a lot of this is--it 
will be less complicated and maybe we can better understand it. 
And that will be a good way to start this--or continue the 
dialogue.
    Mr. Schumacher. Yes, sir. We would be glad to come up and 
talk.
    Chairman Rohrabacher. Well, let me congratulate everyone 
here and thank you, Sokolski--Mr. Sokolski. I have had a block 
all day about that name. And thank you very much, Mr. Davis. 
Thank you, Mr. Schumacher. And Ambassador Pifer, there you are. 
I am sorry you didn't make it, because this was a wonderful 
discussion.
    And let me note, just in final for everyone is that 
everything isn't--reality isn't cement right now. There are a 
lot of creative new ideas that could come up, a lot of new 
alternatives that could come up. And we would be--we just need 
the flexibility to be able to take advantage of new 
alternatives and creative approaches. And the Russians, a good 
relationship with the Russians give us--gives us those things 
that we can't even perceive right now, but tomorrow we might 
come up with an idea that will solve some of the financial 
challenges that we face ahead.
    And with that said, I would like to thank the witnesses, 
yes, and please be advised that Subcommittee Members may 
request additional information, for the record. And I would ask 
other Members who are going to submit questions to do so within 
one week of this date of the hearing.
    That concludes this hearing. The hearing is now adjourned.
    [Whereupon, at 4:04 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions
Responses by John D. Schumacher, NASA Assistant Administrator for 
        External Relations

Questions submitted by Chairman Dana Rohrabacher

Q1. Under NASA's interpretation of the Iran Nonproliferation Act, 
would NASA be allowed to purchase or enter into a contract with a U.S. 
company for a good or service for the Space Station that the U.S. 
company had jointly developed with a Russian company?

A1. NASA has not had a baselined ISS requirement that would necessitate 
procurement of jointly developed ISS goods or services; the agency has 
not directly addressed this question and is reluctant to do so in a 
hypothetical context. To some extent, the answer may depend upon the 
nature of the good or service and the degree of Russian involvement. 
However, an important policy consideration bearing upon any such 
determination is the fact that the Iran Nonproliferation Act has been a 
source of pressure on Russia to improve the proliferation record of 
companies in the aerospace sector. NASA is concerned that its 
procurement activities not diminish this pressure. The agency would 
need to ensure full consistency with the legal and policy objectives of 
the INA before authorizing any such transaction.

Q2. Would your response to (1) above differ if the good or service 
would also be marketed for other applications not specific to the Space 
Station?

A2. Again, while NASA has not addressed this issue directly and is 
reluctant to do so in a hypothetical context, the policy background 
noted in the response to Question 1 above must be considered.

Q3. Would your response to (1) or (2) above differ if the good or 
service was jointly developed with a Russian company not under the 
jurisdiction or control of the Russian Aviation and Space Agency 
defined in Section 7 of the Iran Nonproliferation Act and the State 
Department determined that the company has not been involved in any 
proliferation activities with Iran?

A3. Please see the response to questions 1 and 2 above.

Q4. During your response to questions during the hearing, you referred 
to ``the black letter of the Act'' and ``the intent and spirit of the 
Act.'' Is each of your responses to the case situations in questions 1-
3 above based on ``the black letter of the Act'' or based on the 
``intent and spirit of the Act''?

A4. NASA has sought to comply with both the ``letter'' and ``spirit'' 
of the Act in transactions involving Russian entities.

Q5. Is NASA concerned about the long-term viability of the Russian's 
Soyuz and Progress production capability, given U.S. reliance on Soyuz 
and Progress vehicles until U.S. Orbital Space Plane and Alternate 
Access capabilities are developed?

A5. Since the loss of the Space Shuttle Columbia, Russia has 
demonstrated a steadfast commitment to the ISS program by assuming 
increased responsibility for operational support of the ISS. President 
Putin reaffirmed this commitment in a joint statement with President 
Bush on June 1, 2003. At the ISS Heads of Agency meeting held in 
California on July 29, 2003, the ISS Partnership noted Russia's 
commitment to continuing critical support for general ISS operations, 
logistics and crew transportation and rescue capability until the Space 
Shuttle returns to flight and beyond.
    NASA recognizes that Rosaviakosmos' ability to continue to fulfill 
its ISS obligations are dependent upon sustained adequate funding from 
the Russian Government, as well as Rosaviakosmos's ability to continue 
to secure adequate ``off-budget'' funding, such as the funding it 
receives from customers who pay for seats on Soyuz flights. NASA will 
continue to monitor this situation and will continue to work closely 
with Rosaviakosmos and the other International Partners to address and 
resolve in advance any issues that arise that could affect ISS 
operations.

Q6. Are the Russians obligated to provide Soyuz support for American 
astronauts past 2006?

A6. Under the ISS Agreements, the Rosaviakosmos has committed to 
provide crew rescue capability for the entire international crew after 
its initial obligation if the NASA crew rescue capability is available 
later than planned, for agreed compensation from NASA. The ISS 
Partnership is addressing the requirements for accommodation of crew 
rescue capabilities after 2006 as part of the ISS Program Action Plan, 
which was established at the Tokyo 2002 Heads of Agency meeting and is 
currently being updated. All Partners recognize that any solution 
related to ISS crew rescue must be consistent with U.S. law.

Questions submitted by Representative Bart Gordon

Q1. The June 11, 1996 Space Station Protocol between NASA and the 
Russian Space Agency states that:

        ``NASA will provide crew rescue capability following 
        completion of assembly. In the event the NASA crew rescue 
        capability becomes later than is currently planned. . .RSA [the 
        Russian Space Agency] agrees to provide the capability to 
        rescue the entire international crew using the Soyuz for agreed 
        upon compensation from NASA'' [Emphasis Added].

    NASA's responsibility to provide Space Station crew return starts 
in 2006. Under NASA's own proposal, the Orbital Space Plane would not 
be available as a crew return vehicle until about 2010. Since OMB 
canceled the U.S. crew return vehicle in 2001, the Soyuz is the only 
crew return vehicle that will be available as of 2006.

Q1a. Given the Iran Nonproliferation Act's prohibition against NASA 
purchasing Soyuz vehicles or services, how is NASA planning to meet its 
crew return commitment in 2006 and beyond?

Q1b. Is NASA assuming that the Europe and the other International 
Partners will assume NASA's responsibility and pay for the Soyuz 
vehicles on their own?

Q1c. If not, who will pay for the Soyuz, and have they agreed to do 
so?

A1a,b,c. NASA been working closely with its International Partners to 
fully assess the implications of the loss of Columbia on ISS operations 
and to develop and implement an appropriate near-term plan of action. 
The ISS Partnership is also addressing the requirements for 
accommodation of crew rescue capabilities after 2006 as part of the ISS 
Program Action Plan for Selection of an ISS Configuration. This Program 
Action Plan was established by the ISS Heads of Agency during their 
meeting in Tokyo in December 2002. The implementation of the Program 
Action Plan was delayed by the loss of Columbia. A revised 
implementation schedule is now under development by the ISS Partners. 
All of the ISS Partners recognize that any solution related to ISS crew 
rescue must be consistent with U.S. law. Meanwhile, NASA is working 
with its contractors to create an option to accelerate acquisition of 
the Orbital Space Plane (OSP) with the goal of initial operational 
capability of a crew return vehicle as early as 2008.

Q1d. Alternatively, are you planning to seek a change in the Iran 
Nonproliferation Act to allow such purchases by NASA?

A1d. NASA currently has no plans to request any changes to the Iran 
Nonproliferation Act in order to meet ISS crew rescue responsibilities. 
The INA clearly outlines the responsibilities and procedures upon which 
NASA can act should circumstances change in the future.

Q1e. Does NASA believe that the ``in-kind'' and ``third party'' 
transaction prohibitions in the Iran Nonproliferation Act would 
prohibit one or more of the other Space Station International Partners 
from purchasing Soyuz spacecraft or crew return services from Russia in 
exchange for some compensation from the United States? Why or why not?

A1e. The Iran Nonproliferation Act has been a source of pressure on 
Russia to improve its proliferation record. If NASA provided 
compensation to another ISS International Partner ``in exchange for'' 
that partner purchasing spacecraft or services that NASA could not 
purchase directly from Russia due to the restrictions in Section 6 of 
the INA, this pressure would be diminished or eliminated altogether. 
Such arrangements would raise legal questions under Section 6 of the 
INA and would likely be viewed by many as an evasion of the law.

Q2. Even if NASA is allowed to proceed with the Orbital Space Plane 
project, the only means other than the Shuttle of getting U.S. 
astronauts into space for the next ten years will be the Russian Soyuz 
spacecraft.

Q2a. In light of the Columbia accident, what specific steps is the 
Administration taking to ensure that the U.S. will be able to make use 
of the Soyuz as a backup to the Space Shuttle for the next ten years?

Q2b. Will any modification to the Iran Nonproliferation Act be 
required to ensure that the U.S. can make use of the Soyuz if needed?

Q2c. If the Administration is not taking any particular steps to 
ensure that the Soyuz is available as a backup to the Shuttle, why not?

A2a,b,c. NASA has been working closely with its International Partners 
to assess fully the implications of the loss of Columbia on ISS 
operations and to develop and implement an appropriate near-term plan 
of action. The ISS Partnership is addressing the requirements for 
accommodation of crew rescue capabilities after 2006 as part of the ISS 
Program Action Plan for Selection of an ISS Configuration. This Program 
Action Plan was established by the ISS Heads of Agency during their 
meeting in Tokyo in December 2002. The implementation of the Program 
Action Plan was delayed by the loss of Columbia. A revised 
implementation schedule is now under development by the ISS Partners. 
All of the ISS Partners recognize that any solution related to ISS crew 
rescue must be consistent with U.S. law. The ISS Program Action Plan 
for Selection of an ISS Configuration does not depend on the 
modification of the INA, use of an exemption, or its repeal. NASA 
currently has no plans to seek an exception to, or request an amendment 
of, the INA. Meanwhile, NASA is working with its contractors to create 
an option to accelerate acquisition of the Orbital Space Plane (OSP) 
with the goal of initial operational capability of a crew return 
vehicle as early as 2008 and a system for crew transfer approximately 
two years later.

Q3. In NASA's April 2003 bimonthly status report on Russian 
participation in the Space Station program, concern was expressed over 
the ability of the Russians to continue to provide Soyuz and Progress 
vehicles, stating that ``Russian performance appeared to depend on the 
receipt of `off budget' funds from the sale of flight opportunities on 
the Soyuz missions. . .'' and going on to conclude that ``The grounding 
of the Space Shuttle fleet and the subsequent Multilateral Coordination 
Board-agreed-upon interim operations plan have put additional financial 
strain on Rosviakosmos.'' In addition, the head of the Russian Space 
Agency has stated in recent months that the Russian Space Agency did 
not have sufficient funding to provide the needed Soyuz and Progress 
vehicles beyond this year. And a recent edition of Aerospace Daily 
reported that the vice president of the company that builds the Soyuz 
and Progress vehicles said that the company had to borrow money to 
begin building an extra Progress vehicle to support the Space Station 
while the Shuttle fleet is grounded.

Q3a. How much money do the Russian Space Agency and contractors need 
to build the necessary Soyuz and Progress vehicles?

Q3b. Do you or anyone at NASA knows what fraction of the needed funds 
is actually being provided to the Russian contractors?

A3a,b. Specific cost figures and contractual allocations for Russian-
provided elements are not available. Earlier in the year, however, 
Rosaviakosmos officials asserted that Rosaviakosmos required 
approximately $100 million USD to successfully implement a near-term 
operations plan adopted by the ISS Multilateral Coordination Board in 
February 2002. To date, without significant additional funding from the 
other ISS international partners, the Russian Government has continued 
to implement the agreed near-term operations plan. The Russian 
government has recently indicated that it is also moving ahead with 
plans to increase its funding of the ISS program in 2004 and is 
continuing to assess a potential augmentation to the Rosaviakosmos 2003 
budget to support ISS operations.

Q3c. From the time a decision is made to proceed, how long does it 
take to build and ready a Soyuz vehicle for launch? What is the time 
required for a Progress vehicle?

A3c. Officials from Rosaviakosmos and Energia, the company which builds 
the Soyuz and Progress spacecraft, have indicated that it takes 
approximately two years to build a Soyuz or Progress spacecraft and 
ready them for launch.

Q4. One of my questions to NASA Administrator O'Keefe for the record 
of the February 27, 2003 NASA Posture hearing was ``Have you ever 
discussed either using one of the exemptions permitted under the Iran 
Nonproliferation Act (INA), modifying the INA, or seeking repeal of the 
INA with any White House officials up to and including the President? 
If so, when, with whom, what was the nature of the discussion, and what 
was the response by the White House officials)?'' The response from 
NASA, which was received on June 18, 2003, stated: ``NASA has discussed 
various aspects of INA with other Agencies and Departments within the 
Administration.'' Unfortunately, that answer does not respond to the 
specific questions asked for the record of the February 27th hearing. 
Therefore,

Q4a. Has NASA Administrator O'Keefe ever discussed either using one of 
the exemptions permitted under the Iran Nonproliferation Act (INA), 
modifying the INA, or seeking repeal of the INA with any White House 
officials up to and including the President?

Q4b. If so, when, with whom, what was the nature of the discussion, 
and what was the response by the White House official(s)?

A4a,b. It would not be appropriate for NASA to disclose the specific 
nature or content of the Administrator's discussions with the White 
House. As previously indicated, NASA officials, including the 
Administrator, have consulted a variety of experts within the Executive 
Branch, including the White House, concerning the Act's application to 
ongoing and potential NASA actions relating to the ISS.

Questions submitted by Representative Curt Weldon

Q1. NASA has begun a new space nuclear power system program that is 
estimated to cost approximately $9 billion over the next 10 years. The 
Russian Space Agency has a great deal of experience in space nuclear 
power systems, and in the early 1990s, the Department of Defense 
purchased a Russian Topaz space nuclear reactor. Cooperation presents 
an opportunity for NASA to build on the progress already made and 
lessons-learned in Russia and save billions of dollars by not having to 
develop its own space nuclear power program.

A1. Project Prometheus, the nuclear systems program (formerly the 
Nuclear Systems Initiative), is comprised of three major components: 1) 
the development of radioisotope power systems; 2) the development of 
nuclear fission power and electric propulsion systems; and 3) the first 
mission to use nuclear-electric power and propulsion, the Jupiter Icy 
Moons Orbiter (JIMO).
    The President's FY 2004 budget request runout through FY 2008 
includes roughly $3 billion for Project Prometheus, of which just over 
$2 billion would be for JIMO. Because NASA is in the early stages of 
planning key aspects of Project Prometheus, we are not in a position to 
establish a definitive cost projection over the next 10 years for the 
entire program. Such projections are particularly dependent on the 
mission approaches and costs for JIMO, which are being studied in-depth 
by industry (three teams are participating) and the government. When 
these mission studies are concluded, JIMO life cycle cost estimates 
will be developed and finalized.

Q1a. To what extent does NASA plan to utilize Russia's nuclear 
experience? If not, under what circumstances would the United States be 
willing to take advantage of this opportunity?

A1a. The two areas for potential international participation in Project 
Prometheus are the development of science instrumentation and 
spacecraft system technology development. At this time, NASA envisions 
potential partnerships in developing science instruments for JIMO and 
future Prometheus missions. Regarding the second area of possible 
interaction, which would include the development of nuclear-related 
technologies, NASA does not have any definitive plans for such 
collaborations at this time. At this early stage of the program, we 
believe our efforts to establish the most appropriate technologies for 
near-term development can be best-managed and implemented via U.S. 
Government, industry, and academia.
    NASA recognizes the significant experience the Russians have in 
developing the TOPAZ and TOPAZ II (Enisy) space reactors. However, 
after conducting an in-depth analysis of technologies applicable to 
JIN40 and other similar space science missions, we determined that the 
Russian space reactor technologies were not suited to NASA's current 
needs. In particular, the technologies employed by the Russians 
(specifically the power conversion system and fuel) have significant 
lifetime limitations that make them incompatible with the longer-term 
missions of interest to NASA.
    It is worth noting, however, that foreign entities do have the 
opportunity to participate in Project Prometheus, as permissible by 
law, by cooperatively contracting with proposers for NASA grants. As 
future opportunities present themselves, within the context of 
competitively awarded contracts, we will evaluate each on a case-by-
case basis for their applicability to the program.

Q1b. What has been the funding history of space nuclear power since 
the purchase of the Russian Topaz? What funding level is necessary to 
sufficiently develop a U.S. space nuclear program?

A1b. NASA is not in a position to quantify the funding history of space 
nuclear power, or for that matter any specific space nuclear reactor 
work prior to the proposal of the Nuclear Systems Initiative in FY 
2003, because several agencies other than NASA were involved in the 
various programs, including the TOPAZ II-related work. As for the 
second question, please see our response to the opening statement 
accompanying the questions for the record.

Q1c. Have there been cooperative efforts to work with the Russians on 
further space power development since the Topaz reactor?

A1c. NASA has not been involved in any cooperative activities with the 
Russians involving space nuclear power during this time period.

Q1d. What is the timeline for development, testing, and deployment of 
NASA's space nuclear power systems? What mission is driving this 
schedule?

A1d. Project Prometheus' two space nuclear power system development 
efforts--radioisotope power systems and fission reactors--are on 
separate development schedules, which are driven by very different 
applications.
    Project Prometheus's radioisotope power system program is 
supporting two near-term missions: the New Horizons mission to Pluto, 
scheduled for 2006, and the Mars Science Laboratory, planned for 2009. 
The New Horizons mission is to be powered by the last Radioisotope 
Thermoelectric Generator (RTG) in our inventory.
    Because of the need expressed by mission planners for radioisotope 
power systems, NASA has begun development of the next generation of 
systems that will operate not only in space (as is the case with the 
most recent RTG systems) but also within an atmosphere, such as on the 
surface of Mars. Two technologies are under development--the Multi-
Mission Radioisotope Thermoelectric Generator (MMRTG) and the Stirling 
Radioisotope Generator (SRG)--for possible use on the 2009 Mars 
mission. The MMRTG is a smaller, more advanced version of the RTG. The 
SRG produces a comparable amount of electricity as the MMRTG by 
converting the heat from radioisotope decay to electricity through a 
dynamic power conversion system (the Stirling free-piston engine). The 
SRG system is more complex than the MMRTG, but this technology promises 
to be up to four times more efficient in converting heat to electricity 
than the MMRTG, requiring less fuel per watt of power produced.
    The nuclear fission electric power and propulsion components of 
Project Prometheus are supporting the development of technologies for 
science missions that would be uniquely enabled by these technologies--
in the near-term the Jupiter Icy Moons Orbiter (JIMO). Initial planning 
estimates call for launch of the JIMO spacecraft no earlier than 2011.

Q1e. What missions need space nuclear power to be successful? When are 
these missions scheduled? What funding will be necessary to achieve 
this schedule?

A1e. NASA is making a strategic investment in both radioisotope and 
fission space power systems because they can uniquely enable a range of 
near- and long-term NASA missions. Such missions would take advantage 
of these systems' ability to provide NASA mission planners ``all 
weather, anytime, anywhere'' capabilities. That is, they are capable of 
providing continuous power, from milliwatts to 100s of kilowatts, in 
hostile environments, irrespective of the availability of the sun 
(generally speaking, once further out into the solar system than Mars, 
the Sun is not a very effective source of power with today's solar 
power technologies). Thirty years of experience in the design and use 
of radioisotope power sources have also demonstrated the ruggedness and 
reliability of these systems, some of which have now operated for well 
over 20 years. While we cannot identify specific missions beyond JIMO 
at this point, we do envision follow-ons in the next decade.
    Beyond these inherent benefits of both space radioisotope and 
fission power systems, space nuclear fission systems offer NASA space 
science mission planners unprecedented levels of power for use in space 
or on the surfaces of planetary bodies. Access to power levels up to 
1,000 times greater than those available today would enable 
revolutionary capabilities in the areas of spacecraft maneuverability 
and scientific exploration.
    In the area of radioisotope power systems, the Mars Science 
Laboratory (MSL) science return would be significantly enhanced by a 
power system that would enable increased observation time on the 
planet, and a greater range of potential destinations that could be 
explored. Rather than being limited to the equatorial sector of Mars 
(to optimize solar power), MSL could be sent, independent of seasonal 
variations, to those areas that hold some of the greatest potential for 
scientific return, i.e., high latitude areas where water has been 
detected. Also, the MSL would function for an extended period of time--
one to two years, rather than several weeks--and this would not be 
possible with solar power.
    Making use of this power, NASA can now begin to plan close-range, 
months-long orbits of multiple destinations for optimal science 
observation. Throughout such a mission, power could be directed to an 
entirely new class of scientific instruments the likes of which are 
currently only available to satellites in near-Earth orbit. Even at 
great distances (e.g., the orbit of Jupiter and beyond), the increased 
power from a space nuclear reactor would enable transmission of more 
data to Earth daily than would be returned by the Pioneer, Voyager, 
Galileo, and Cassini over their entire mission lifetimes combined. 
Moreover, this power would also enable the highly efficient propulsion 
systems under development (similar to that used on Deep Space-1) to 
transport significantly larger payloads to any final destination.
    Taken in total, the benefits outlined above could open up a whole 
new range of missions, both robotic and human, in space and on the 
surfaces of planets and moons, to NASA and the scientific community. 
Because this is a new initiative for NASA, we are going to great 
lengths to identify, hand-in-hand with the science community, future 
missions, instruments, and technologies that can leverage the unique 
capabilities enabled by Project Prometheus technologies.
    The first mission to make use of nuclear electric power and 
propulsion technologies from Project Prometheus is the JIN40 mission 
that would orbit three of Jupiter's moons--Callisto, Ganymede, and 
Europa--that are believed to have subsurface watery oceans; where there 
is water, there is the possibility for life. Exploration of Europa is 
the leading large mission candidate identified by the National Research 
Council in its Decadal Solar System Exploration Survey. JIMO's nuclear-
powered electric propulsion system would enable it to orbit all three 
moons at close range for several months at a time, while its high-
powered, active science instruments (e.g., ice penetrating radar) and 
high-powered communications equipment would enable unprecedented 
scientific return.

Q1f. How do other power systems compare with space nuclear power on 
the basis of safety, cost, or availability?

A1f. Non-nuclear power and propulsion systems currently available or 
under development will generally not be appropriate for the types of 
missions on which Project Prometheus technologies would be employed. 
Such considerations as safety, cost, and availability are balanced with 
the specific mission science objectives prior to the development of any 
NASA mission. Only when the science objectives are best achieved by the 
use of space nuclear power, and requirements for cost, safety, and 
availability are met, will these technologies be baselined into mission 
planning.

Q2. Is the technology for space nuclear power systems mature enough 
for testing or use at this time?

A2. The technologies under development by Project Prometheus are in 
various stages of development, ranging from research and development of 
high-temperature materials to life-testing of Stirling Radioisotope 
Generators. In the area of radioisotope power sources, we are confident 
that both near-term systems (MMRTG and SRG) will be ready for use on 
the 2009 Mars Science Laboratory. We are also confident that a fully 
tested nuclear fission power system will be ready for flight by the 
early part of the next decade in support of the JIMO mission.

Q3. What efforts are necessary to further develop the technology?

A3. Because the radioisotope power source technology is well 
established or very near demonstration, we will only address nuclear 
fission related space systems. Significant work was carried out during 
the 1980s and 1990s on technologies related to space nuclear reactors 
under the SP-100 program, and we intend to leverage these efforts in 
our work. It will be challenging to develop and test the various power 
generation and conversion technologies to the point of being flight 
ready, but many of the individual components under consideration have 
been tested in one form or another over the years, which is why we are 
confident in our ability to fly the JIMO mission in the early part of 
the next decade.

Q3a. Who has this task?

A3a. The Department of Energy (DOE), as mandated by U.S. law, is 
responsible for all nuclear materials-related tasks under Project 
Prometheus. Such activities will be carried out via a Memorandum of 
Understanding between the two agencies. As in the past, NASA will fund 
the RPS work, but DOE will maintain responsibility for all RPS 
development. In addition, DOE will have responsibility for the fission 
reactor system. These activities will be supported by industry and 
academia as necessary or appropriate. The remaining, i.e., non-nuclear, 
systems and components of the program will be managed directly by NASA 
and will also involve industry, academia, and NASA and DOE 
laboratories.

Q3b. What are their current plans?

A3b. Plans for the RPS are well established, and we are on schedule to 
have systems ready for possible use on the Mars 2009 mission. Regarding 
the nuclear fission power system, NASA is currently funding internal 
government and external industry studies to determine the best 
configuration for the JIMO spacecraft and its primary systems, which 
will drive future development activities. This detailed mission and 
technology analysis should be completed in 2005. Once the final systems 
have been selected, detailed system development plans will be 
formulated. In parallel, NASA would continue to fund development work 
on a range of technologies applicable to the mission.

Q3c. What is the Russian involvement in these plans?

A3c. There is currently no Russian involvement in Project Prometheus 
activities.

Q3d. What is the private sector involvement?

A3d. Currently, there are over 60 private sector participants 
(including industry and academia from 20 states) participating in 
Project Prometheus-funded work, with between 60-70 percent of all 
program work competitively awarded. In addition, the final spacecraft 
integrator contract for JIMO will go to industry.

Questions submitted by Representative Nick Lampson

Q1. What would be the consequences if the International Space Station 
had to be abandoned [uncrewed] for an indefinite period of time (from 
months to years) because the Shuttle fleet was grounded and none of the 
Space Station partners could pay to provide the Soyuz and Progress 
spacecraft needed to keep it operating?

A1. The ISS is built to be human-tended and cannot be used to conduct 
meaningful science without human interaction. Without the crew to 
perform routine maintenance on the ISS, systems would begin to degrade, 
complicating the process of reactivation.
    In the event that a de-crewing is necessary for any reason NASA has 
a plan in place for such a contingency. The ISS program has defined the 
best operational vehicle configuration (hardware, software and 
orientation) that will maximize the chances of vehicle survivability 
while operating without a crew.

Q2. If the Iran Nonproliferation Act (INA) would force abandonment of 
the International Space Station for an indefinite period, would NASA 
seek relief from the INA? If not, why not?

A2. Since the loss of Columbia, NASA has looked to the ISS Partnership 
to assist in sustaining human presence on orbit while NASA concentrates 
on the necessary actions to return the Shuttle safely to flight. NASA 
has been working closely with its International Partners to fully 
assess the implications of the loss of Columbia on ISS operations and 
to develop and implement an appropriate near-term plan of action. This 
plan of action does not depend on the modification of the INA, use of 
an exemption, or its repeal. Therefore, NASA currently has no plans to 
seek an exception to or request an amendment of the INA. The provisions 
contained within the INA clearly outline the responsibilities and 
procedures upon which NASA can act should circumstances change in the 
future.

Q3. Does NASA see the need to renegotiate the multilateral 
Intergovernmental Agreement (IGA) or any of the Space Station bilateral 
Memoranda of Agreement? If so, why? And if so, when would NASA like to 
have those negotiations begin?

A3. No, NASA has no plans at this time to seek to renegotiate the 
multilateral ISS IGA or bilateral MOUs.

                   Answers to Post-Hearing Questions

Responses by Robert M. Davis, President and CEO, California Space 
        Authority

Questions submitted by Chairman Dana Rohrabacher

Q1. Is this shift in work from the U.S. to Russia a large contributing 
factor to the decline of the U.S. aerospace industrial base over the 
past 10 years?

A1. The shift primarily affects the U.S. commercial launch industry 
base, and does so in two ways, and has selectively contributed to U.S. 
aerospace industrial declines.
    First, it can be qualitatively argued that launches of U.S. origin 
commercial satellites on Russian vehicles reduce the number of vehicles 
produced and flown by U.S. manufacturers. However, competition for 
provision of commercial launch services went global ten or more years 
ago, and of late has been greatly intensified by the reduction of 
satellite launches in this era of the telecom glut. The degree, then, 
to which the U.S. commercial launch industry has declined uniquely due 
to Russian launches of U.S. and foreign commercial satellites is 
difficult to enumerate. Unquestionably, however, as the number of U.S. 
vehicles produced and launched declines, it becomes increasingly 
difficult to avoid worker complacency, which leads to declines in 
flight reliability, and looking to the future, increasingly difficult 
to attract new entrants to the community as older workers retire. In 
the nearer-term, unreliability as measured in flight failures of all 
types, poses adverse economic consequence in a host of industry sectors 
(manufacturing, services, insurance, investment, satellite services, 
etc.). In the longer-term, a loss of industrial vigor will be 
experienced as the launch industry increasingly operates as a commodity 
market.
    Second, the U.S. propulsion industry has been adversely affected by 
the use of engines of Russian origin on U.S. vehicles, and jobs have 
been lost that would have otherwise been performed by U.S. workers. As 
one example, in recent testimony before a Senate Science, Technology, 
and Space subcommittee hearing, Mr. Bryon Woods of Boeing Rocketdyne, 
cited that during 2002 the U.S. propulsion community provided a mere 14 
percent of required launch engines, while the Russians provided over 60 
percent, and Europe providing the remainder.

Q2. Do you have any analyses about how many U.S. jobs have been 
affected by this shift in aerospace work to Russia?

A2. As a consequence of the shift in supply of rocket engines, 
Rocketdyne has experienced a decline in the engine production workers, 
and of equal importance, a significant decline in its design and 
development staff (from a peak of slightly more than 800 in 1999 to 
about 260 in 2002). Aerojet and Pratt & Whitney reflect similar, if not 
significantly greater losses of production and design/development 
personnel for many of the same reasons.

Q3. Do you have any concerns about U.S. reliance on Russian aerospace 
industry to supply critical aerospace technologies rather than the U.S. 
developing its own capabilities?

A3. The world is less stable now than it has been for a number of 
decades. Orbits near the earth provide the high ground in terms of 
sensing and communications (as well as precise navigation), and if the 
U.S. intends to sustain its dominance in the realm, it is important 
that the U.S. also maintain its aerospace technological leadership. 
Within its borders, Russia still retains all strategically key natural 
resources; the U.S. does not, and therefore must rely on other nations 
for some of its strategically critical resources. Therefore, it remains 
of critical importance to the future welfare and well being of the U.S. 
to maintain its space enterprise leadership so as to be able to ensure 
ready sources of supply in this volatile era across the globe.

Q4. Do you have any recommendations to remedy these concerns [about 
reliance on Russian aerospace]?

A4. The U.S. Government and taxpayers need to recognize and accept that 
our aerospace industry is itself a critical strategic resource that 
must be sustained, including ensuring that it will have the workforce 
that is needed throughout the future. The answer to this question 
should address current investments by NASA and other agencies in the 
future of the U.S. aerospace community, including development of a 
sustainable workforce, and should be the exclusive subject of a 
separate hearing. These investments should stimulate early to advanced 
education, worker development, technology development, and operating 
proficiency needs across the board if this community is to be sustained 
at a level that will serve preservation of our national security and 
defense interests.

Q5. Are U.S. aerospace companies seeking to do business with Russian 
companies informed beforehand by the State Department about any 
proliferation concerns with certain Russian companies?

A5. I do not have any recent first hand experience on which to base an 
answer to this question.

Q6. Would such information be useful to U.S. industry before a U.S. 
company seeks a Technical Assistance Agreement from the State 
Department to work with certain Russian companies on particular 
programs?

A6. Some 450 aerospace entities in Russia have or in the past have had 
ties in one form or another with the Russian government. From time to 
time the U.S. evidences concerns about proliferation by various Russian 
entities, including some of these 450 companies. Developing an operable 
and productive relationship with a Russian aerospace entity is 
expensive, uncertain, and time consuming. Availability of information 
from the Department of State about select Russian entities that pose 
concerns for the interests of U.S. national security before making the 
investment to apply for a TAA would be highly beneficial to companies 
large and small. A second interest to be addressed is that from time to 
time U.S. Company to Russian Company commerce is put into limbo as 
contemporary U.S. Government to Russian Government issues play 
themselves out on the world stage. Companies that do not have a lot of 
cash to weather business disruptions would benefit by knowing 
beforehand which Russian companies are more likely than not to incur 
business delays so that they might be avoided if other choices exist 
with whom business might be undertaken.

                   Answers to Post-Hearing Questions

Responses by Henry D. Sokolski, Executive Director, Nonproliferation 
        Policy Education Center

Questions submitted by Chairman Dana Rohrabacher

Q1. Your testimony highlights the need to stem Russian proliferation 
of all aerospace capabilities by shrinking the Russian aerospace 
industrial base. The Iran Nonproliferation Act stops all U.S. payments 
to Russia for any support they might provide for the International 
Space Station in order to induce the Russian Government to stop 
proliferation of weapons of mass destruction and ballistic missile 
technology to Iran. Would you recommend restricting or embargoing other 
U.S.-Russia aerospace trade and collaboration in other areas, such as 
launch vehicle engines and other capabilities, in order to stop Russian 
proliferation to Iran and other countries?

A1. If there was a way to leverage Russian behavior that would 
effectively stop Russia from proliferating illicit strategic technology 
to hostile states such as Iran I would favor it. I support simple 
notion that the U.S. taxpayer should not be asked to support Russian 
entities that do such proliferation because the U.S. loses moral 
authority to complain about Russian proliferation generally if it does 
not show this minimum of self-restraint itself. On the other hand, I 
am, like many other experts, skeptical about how much more can be done 
with new sanctions that would effectively stop Russian proliferation.

Q2. Why not simply restrict our trade and collaboration to those 
entities in Russia that the State Department deems as proliferators?

A2. This is what the current law effectively does by requiring the 
President to certify that the Russian Space Agency no longer has 
entities under its purview that do proliferate. Once the President 
certifies, it is my understanding that NASA is free to make progress 
payments to RSA.

Q3. Why are Russian companies that are not proliferators made to 
suffer from an embargo on U.S. trade and collaboration on the Space 
Station when they cannot control the actions of a few Russian companies 
despite the Russian Government making some efforts toward improved 
export control/nonproliferation?

A3. Russian entities working under the control of RSA benefit from this 
association through subsidies and so must be held accountable when 
entities under the RSA's authority misbehave. As I noted in my 
testimony, the best and perhaps only solution to this problem is to 
right-size the number of RSA space entities to smaller number that 
would include only the most responsible and profitable entities.

Questions submitted by Representative Bart Gordon

Q1. In your testimony, you appear not to favor granting any waivers to 
the Iran Nonproliferation Act. Would you oppose any exception to or 
modification of the terms of the INA even if the result was that the 
Space Station had to be abandoned on orbit for an indefinite period, 
with an increased risk that the entire Station might be lost?

A1. I think the current waiver for safety--i.e., to prevent the 
imminent loss of life or grievous injury to those aboard the Station--
is entirely reasonable and should not be changed. The U.S. should fund 
the Station in such a fashion that the U.S. would not have to exercise 
this waiver. If that means funding an alternative means to rescue crews 
other than Soyuz, I would do this. Modifying the existing waiver on 
these points, I believe would only undermine the law's original intent, 
which was to keep U.S. taxpayers from paying money unnecessarily to 
entities the President believed were still proliferating strategic 
rocket related technologies to Iran. Forced to choose between making 
the Space Station's success less dependent on contracting taxpayers' 
dollars to proliferating Russian entities and being complicit in such 
commerce, I would prefer making the station less dependent every time.

Q2. Your testimony highlights the need to stem Russian proliferation 
of all aerospace capabilities by shrinking the Russian aerospace 
industrial base. The Iran Nonproliferation Act stops all U.S. payments 
to Russia for any support they might provide for the International 
Space Station in order to induce the Russian Government to stop 
proliferation of weapons of mass destruction and ballistic missile 
technology to Iran. Would you recommend restricting or embargoing other 
U.S.-Russia aerospace trade and collaboration in other areas, such as 
launch vehicle engines and other capabilities, in order to stop Russian 
proliferation to Iran and other countries?

A2. If there was a way to leverage Russian behavior that would 
effectively stop Russia from proliferating illicit strategic technology 
to hostile states such as Iran I would favor it. I support simple 
notion that the U.S. taxpayer should not be asked to support Russian 
entities that do such proliferation because the U.S. loses moral 
authority to complain about Russian proliferation generally if it does 
not show this minimum of self-restraint itself. On the other hand, I 
am, like many other experts, skeptical about how much more can be done 
with new sanctions that would effectively stop Russian proliferation.

Q3. Why not simply restrict our trade and collaboration to those 
entities in Russia that the State Department deems as proliferators?

A3. This is what the current law effectively does by requiring the 
President to certify that the Russian Space Agency no longer has 
entities under its purview that do proliferate. Once the President 
certifies, it is my understanding that NASA is free to make progress 
payments to RSA.

Q4. Why are Russian companies that are not proliferators made to 
suffer from an embargo on U.S. trade and collaboration on the Space 
Station when they cannot control the actions of a few Russian companies 
despite the Russian Government making some efforts toward improved 
export control/nonproliferation?

A4. Russian entities working under the control of RSA benefit from this 
association through subsidies and so must be held accountable when 
entities under the RSA's authority misbehave. As I noted in my 
testimony, the best and perhaps only solution to this problem is to 
right-size the number of RSA space entities to smaller number that 
would include only the most responsible and profitable entities.
                   Answers to Post-Hearing Questions
Responses by Ambassador Steven Pifer, Deputy Assistant Secretary of 
        State, Bureau of European and Eurasian Affairs, State 
        Department

Questions submitted by Chairman Dana Rohrabacher

Q1. According to several news reports, the Russians are helping to 
train Chinese astronauts. When Chinese President Hu Jintao toured the 
Khrunichev Space Center recently, the Russians reportedly offered to 
build them a Space Station out of spare parts of the Zarya control 
module that the U.S. paid for during the 1990s.

        <bullet> Did Russia offer to help the Chinese build a space 
        station?

        <bullet> Would any U.S. owned parts or equipment be used to 
        help build a space station for China?

        <bullet> Will the U.S. Government be reimbursed for the re-
        sale of any parts or equipment?

        <bullet> Is the State Department closely monitoring this 
        exchange between Russia and China?

        <bullet> Does the State Department have any proliferation 
        concerns with this exchange of technical capabilities and 
        knowledge from Russia to China?

A1. Based on past history, Russia would likely be involved in Chinese 
space efforts. But China is still attempting to launch its first manned 
space flight, and China's own estimates place the launching of any 
space station ten years into the future.
    The intergovermental agreement on the ISS, to which both the United 
States and Russia are parties, provides that each government's space 
agency shall mark with a notice technical data or goods that are to be 
protected for export control purposes, and that this notice shall 
indicate that (1) such technical data or goods shall be used only for 
the purposes of fulfilling the obligations of the receiving space 
agency and its contractors and subcontractors; and (2) that such 
technical data or goods shall not be used by persons or entities other 
than the receiving space agency, its contractors or subcontractors, or 
for any other purposes, without the prior written permission of the 
furnishing government.
    The State Department would be concerned with any unauthorized 
Russian transfer of U.S.-developed space technology. The level of 
concern would depend upon the specific technology transferred, the 
potential military utility, and any relevant export licenses. The State 
Department monitors space issues that may involve the use or transfer 
of U.S. technologies.

Q2. Your written testimony states, ``Russia has taken steps, though 
not yet sufficient, to implement stronger export controls and improve 
oversight at Russian facilities.''

        <bullet> What steps have been taken to implement stronger 
        export controls?

        <bullet> What additional steps for stronger export controls 
        would Russia need to make?

        <bullet> Has the State Department communicated to the Russian 
        Government the steps that it thinks are necessary and 
        sufficient for export controls?

A1. U.S. bilateral cooperation with Russia has contributed to 
improvements in Russia's export control laws and implementing 
regulations over the past few years; it also supports Russia's outreach 
and internal compliance programs aimed at educating its industry on 
export controls.
    Since the enactment of Russia's Federal Law on Export Control in 
July 1999, the Russian Federation has adopted new regulations to 
implement the law and create a more functional export control system. 
Russia's export control law now extends to intangible transfers of 
technology and includes provisions for catch-all controls. The 
Government of Russia has updated its seven control lists to bring them 
in closer harmony with the standardized EU international control lists 
and all of the international nonproliferation regimes. President Putin 
established the Export Control Commission in January 2001 to provide 
policy oversight on key export control and licensing issues. Russia's 
Administrative Code was revised in July 2002 to provide the Department 
for Export Control (DEK) under the Ministry of Economic Development and 
Trade with significant administrative enforcement authority. The DEK is 
now responsible for drafting export control regulations, processing 
export license applications, conducting industry compliance outreach 
programs, and administrative prosecution of export control violations.
    Increased focus should be placed on the enforcement of Russian 
export control legislation and regulations. The Russian Government has 
not prosecuted enough export control violations to effectively 
demonstrate serious political will in enforcing its law or to establish 
the effectiveness of the catch-all provisions of the law. Industry 
outreach efforts are also seriously limited by scarce resources, 
including personnel.
    The State Department maintains an ongoing dialogue with the Russian 
Government on export control issues and continues to communicate to the 
Russian Government the steps that it thinks are necessary and 
sufficient for an effective export control system.

Q3. Your written testimony states, ``Mr. Yuriy Koptev, General 
Director of Rosaviakosmos, has been particularly active in promoting 
reform throughout the Russian Government, and frequently notes the 
constraints imposed by the Iran Nonproliferation Act on U.S.-Russian 
space cooperation.''

        <bullet> What proliferation reforms have been promoted or 
        taken by Rosaviakosmos?

        <bullet> Are these proliferation reforms only between Russia 
        and Iran or between Russia and other countries?

        <bullet> Does the State Department advise other U.S. 
        Government agencies like NASA through reports, briefings, and 
        communication about which Russian Government agencies, 
        companies, and individuals are known proliferators?

        <bullet> Does the State Department advise U.S. aerospace 
        companies to any degree about U.S. Government proliferation 
        concerns with particular Russian Government agencies, 
        companies, and individuals?

A3. In recent years, senior USG officials have had an open and 
productive dialogue on nonproliferation with Rosaviakosmos' General 
Director Koptev. Under Mr. Koptev's stewardship, Rosaviakosmos has 
implemented a number of reforms that safeguard against transfers and 
assistance to missile programs of concern, in Iran and elsewhere. These 
include:

        <bullet> A Federal Security Service (FSB) representative is 
        permanently positioned on the security staff at various 
        Rosaviakosmos' organizations;

        <bullet> Security staff holds foreign passports and restricts 
        travel of particular Rosaviakosmos' employees;

        <bullet> All foreign visitors must submit requests for visits 
        to Rosaviakosmos facilities two weeks in advance; all visitors 
        must be pre-approved and must state their agenda/reason for 
        visit;

        <bullet> All data to be used and presented to visitors (both 
        domestic and foreign) must be cleared through security, and a 
        security representative must be present at all meetings to 
        ensure that data and discussions are consistent with what had 
        been approved for release;

        <bullet> Key Rosaviakosmos firms have Internal Compliance 
        Programs (ICPs)--internal export control units--installed with 
        U.S. assistance to help vet transactions against export control 
        requirements;

        <bullet> Russia's Export Control Law outlines provisions 
        against intangible transfers of technology, and key 
        Rosaviakosmos personnel and presentations that attend 
        international conferences and symposia are vetted to ensure 
        these provisions are met.

    We support these efforts and continue to work with the Russian 
Government to strengthen existing controls and related mechanisms. The 
State Department will also continue its close partnership with other 
agencies such as NASA. With respect to working with our executive 
branch colleagues, the State Department works with a wide array of 
agencies to identify and impede proliferators of missile technology 
through the Missile Transfer Analysis Group (MTAG). Many items used for 
space systems, especially spacelift, are controlled by the MTAG and are 
therefore identified and discussed by the USG agencies. Russia is a 
signatory to the MTAG. The State Department does not identify 
proliferators of space-unique equipment.
    With respect to advising U.S. aerospace companies about U.S. 
Government proliferation concerns with particular Russian Government 
agencies, companies, and individuals, space technology that does not 
have a secondary military use is not a proliferation concern. Space 
technology is controlled through the standard export licensing process.

Questions submitted by Representative Bart Gordon

Q1. The June 1st Bush-Putin joint release states that: ``. . .the 
Russian Federation is committed to meeting the U.S. crew transport and 
logistics resupply requirements necessary to maintain our joint 
American and Russian cosmonaut teams on board the ISS until the Space 
Shuttle returns to flight.''

Q1a. Does that statement mean that Russia has formally agreed to pay 
for all of the Soyuz and Progress flights needed to support the 
International Space Station while the Shuttle fleet is grounded?

Q1b. Has Russia agreed that it will not seek compensation from NASA or 
any of the other International Partners for those Progress and Soyuz 
flights?

Q1c. If not, what in specific terms does the release mean?

A1a,b,c. The ISS Multilateral Coordination Board (MCB), chaired by NASA 
Deputy Administrator Fred Gregory, on February 26, 2003, approved an 
option to maintain a continued crew presence on ISS until the Space 
Shuttle is able to return to flight. This option required that the ISS 
crew size be reduced from three to two, that the April 2003 Soyuz 
flight be used for crew exchange, and that the Russian Progress flight 
schedule be accelerated to support crew and ISS consumable needs until 
the Space Shuttle returns to flight. This option also required the 
addition of two Russian Progress logistics vehicles to the ISS manifest 
(one in 2003 and one in 2004) and assumes that the Space Shuttle and 
the European Space Agency's (ESA's) Automated Transfer Vehicle (ATV) 
will be flying in 2004. This option was adopted by the ISS Partnership 
contingent upon the ability of the Russian Aviation and Space Agency 
(Rosaviakosmos) to receive additional funding.
    Rosaviakosmos has informed NASA that the Russian Government has 
advanced Rosaviakosmos all of its 2003 ISS funding to assist in the 
acceleration of logistics vehicles. Similarly, each of the other space 
agencies has made modest proposals to Rosaviakosmos that are currently 
being evaluated. These activities are taking place within the framework 
of the international agreements that govern the relationship among the 
ISS Partners.
    The June 1st joint statement issued following the meeting of 
Presidents Bush and Putin does not mean--and was not intended to mean--
that Russia has agreed to pay for all costs related to provision of 
Soyuz and Progress vehicles needed to support the ISS while the Shuttle 
fleet is grounded. Nor does it mean that Russia will not seek 
compensation from the United States for this purpose. What the joint 
statement means is that Russia is committed to working with the United 
States and other ISS partners to find a solution to the current problem 
of sustaining an operational ISS.

Q2. Even if NASA is allowed to proceed with the Orbital Space Plane 
project, the only means other than the Shuttle of getting U.S. 
astronauts into space for the next ten years will be the Russian Soyuz 
spacecraft.

Q2a. In light of the Columbia accident, what specific steps is the 
Administration taking to ensure that the U.S. will be able to make use 
of the Soyuz as a backup to the Space Shuttle for the next ten years?

Q2b. Will any modification to the Iran Nonproliferation Act be 
required to ensure that the U.S. can make use of the Soyuz if needed?

A2a,b. The Administration does not plan to seek an exception to, or 
request an amendment of, the Iran Nonproliferation Act. We are 
continuing to urge the Russian Government to cease the kinds of 
proliferation activities that have caused Congress to pass the INA with 
the objective of influencing Russia in this regard such that we will no 
longer require the INA.

Questions submitted by Representative Nick Lampson

Q1. From a foreign policy perspective, is having to take the crew off 
of the International Space Station for an indefinite period an 
acceptable alternative to loosening the restrictions of the Iran 
Nonproliferation Act if the ISS had to be abandoned because the Shuttle 
fleet was grounded and none of the Space Station partners could pay to 
provide the Soyuz and Progress spacecraft needed to keep it operating?

A1. From a foreign policy perspective, neither loosening the 
restrictions imposed by Iran Nonproliferation Act nor abandoning the 
ISS would be acceptable alternatives. While NASA is working on issues 
related to returning the Shuttle to flight, it is also consulting with 
the Russian Aviation and Space Agency to develop options that will 
support continuing ISS crew presence on orbit without resorting to 
measures that would be inconsistent with the INA.

Q2. Does the Administration believe that the ``in-kind'' and ``third-
party'' transaction prohibitions in the Iran Nonproliferation Act would 
prohibit the U.S. companies from purchasing Space Station related goods 
and services from Russian companies? Why or why not? If not, are there 
other provisions in the INA that would prevent such company-to-company 
contracts?

A2. The Iran Nonproliferation Act was intended as a source of leverage 
on Russia to improve the proliferation record of Russian companies in 
the space sector. If U.S. companies under contract with NASA were to 
subcontract with these same Russian companies for space station-related 
goods or services, this leverage would be diminished or lost 
altogether. We believe such arrangements would raise legal questions 
under Section 6 of the Iran Nonproliferation Act and would likely be 
viewed by many as an evasion of the law.

Q3. Khrunichev and RSC Energia are the two main Russian Space Station 
contractors. Does the Administration believe that they are 
``organizations or entities under the jurisdiction or control of the 
Russian Aviation and Space Agency'' under the terms of the Iran 
Nonproliferation Act? Why or why not?

A3. As referenced in the answer to the preceding question, payments by 
NASA to Russian companies, either directly or through NASA contractors, 
would diminish pressure on Russian aerospace companies to improve their 
nonproliferation record or would also raise legal questions. If 
procurement from Russian sources to support the ISS or NASA's human 
space flight programs became necessary, NASA would need to conduct the 
specific inquiry required to make a formal determination of whether 
companies like Energia or Krunichev meet the Act's detailed definition 
of jurisdiction and control of Rosaviakosmos. This inquiry could 
require significant research and analysis of Russian records to verify 
the firm's creation, legal structure, corporate governance, 
transactions in its equities and other factors. To date, neither State 
nor NASA has had occasion to make such a determination.

Q4. Does the Administration believe that the ``in-kind'' and ``third-
party'' transaction prohibitions in the Iran Nonproliferation Act would 
prohibit one or more of the other Space Station International Partners 
from purchasing Soyuz or Progress spacecraft or services from Russia in 
exchange for some compensation from the Untied States? Why or why not?

A4. The Iran Nonproliferation Act has been a source of pressure on 
Russia to improve the proliferation record of companies in the space 
sector. If the U.S. Government provided compensation to another Space 
Station International Partner ``in exchange for'' that partner 
purchasing spacecraft or services that the U.S. could not purchase 
directly due to the restrictions in Section 6 of the Iran 
Nonproliferation Act, this pressure would be diminished or eliminated 
altogether. We believe such arrangements would raise legal questions 
under Section 6 and would likely be viewed by many as an evasion of the 
law.

</pre></body></html>
